APPENDIX

1a
APPENDIX A
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-----------------------------------------------------------------------

No. 18-2183
-----------------------------------------------------------------------

(Filed Feb. 2, 2021)
BELMORA LLC,
Plaintiff – Appellee,
v.
BAYER CONSUMER CARE AG, a Swiss Corporation;
BAYER HEALTHCARE LLC, a Delaware Limited
Liability Company,
Defendants – Consolidated Plaintiffs –
Appellants,
v.
BELMORA LLC, a Virginia Limited Liability
Company; JAMIE BELCASTRO, an individual,
Consolidated Defendants – Appellees,
and
DOES, 1 – 10, inclusive,
Consolidated Defendants.
-------------------------------------UNITED STATES OF AMERICA
Amicus Supporting Appellant.

2a
-----------------------------------------------------------------------

No. 18-2232
-----------------------------------------------------------------------

BELMORA LLC,
Plaintiff – Appellant,
v.
BAYER CONSUMER CARE AG, a Swiss Corporation;
BAYER HEALTHCARE LLC, a Delaware Limited
Liability Company,
Defendants – Consolidated Plaintiffs –
Appellees,
v.
BELMORA LLC, a Virginia Limited Liability
Company; JAMIE BELCASTRO, an individual,
Consolidated Defendants – Appellants,
and
DOES, 1 – 10, inclusive,
Consolidated Defendants.
-----------------------------------------------------------------------

Appeals from the United States District Court for the
Eastern District of Virginia, at Alexandria. Claude M.
Hilton, Senior District Judge. (1:14-cv-00847-CMHJFA)
-----------------------------------------------------------------------

Argued: October 26, 2020

Decided: February 2, 2021

-----------------------------------------------------------------------

Before AGEE, FLOYD, and THACKER, Circuit Judges.

3a
-----------------------------------------------------------------------

Affirmed in part, vacated in part, and remanded with
instructions by published opinion. Judge Floyd wrote
the opinion, in which Judge Agee and Judge Thacker
joined.
-----------------------------------------------------------------------

ARGUED: Jessica Andrea Ekhoff, PATTISHALL,
MCAULIFFE, NEWBURY, HILLIARD & GERALDSON
LLP, Chicago, Illinois, for Appellants/Cross-Appellees.
Lewis Yelin, UNITED STATES DEPARTMENT OF
JUSTICE, Washington, D.C., for Amicus United States
of America. Joel Geoffrey MacMull, MANDELBAUM
SALSBURG, PC, New York, New York; Ronald David
Coleman, DHILLON LAW GROUP, New York, New
York, for Appellees/Cross-Appellants. ON BRIEF:
Phillip Barengolts, Bradley L. Cohn, PATTISHALL,
MCAULIFFE, NEWBURY, HILLIARD & GERALDSON LLP, Chicago, Illinois; Robert J. Shaughnessy,
WILLIAMS & CONNOLLY LLP, Washington, D.C., for
Appellants/Cross-Appellees. Craig C. Reilly, LAW OFFICES OF CRAIG C. REILLY, Alexandria, Virginia, for
Appellees/Cross-Appellants. Joseph H. Hunt, Assistant Attorney General, Mark R. Freeman, Civil Division, UNITED STATES DEPARTMENT OF JUSTICE,
Washington, D.C.; Thomas S. Krause, Solicitor, Christina J. Hieber, Associate Solicitor, Mary Beth Walker,
Associate Solicitor, Benjamin T. Hickman, Associate
Solicitor, UNITED STATES PATENT AND TRADEMARK OFFICE, Alexandria, Virginia; G. Zachary Terwilliger, United States Attorney, OFFICE OF THE

4a
UNITED STATES ATTORNEY, Alexandria, Virginia,
for Amicus United States of America.
-----------------------------------------------------------------------

FLOYD, Circuit Judge:
This appeal arises out of an action brought by
Bayer Consumer Care AG (Bayer) alleging that Belmora LLC (Belmora) engaged in unfair competition in
violation of § 43(a) of the Lanham Act. The district
court held that Bayer’s § 43(a) claims were timebarred. Because the Lanham Act does not include a
limitations period for § 43(a) claims, the district court
borrowed the statute of limitations from the most analogous state law, declining to apply the equitable doctrine of laches to those claims.
For the reasons set forth below, we conclude that
laches, rather than a statute of limitations, is the appropriate defense to Bayer’s § 43(a) claims. We also
conclude that the district court failed to consider
whether Bayer’s related state-law claims were subject
to tolling. Accordingly, we vacate the district court’s
judgment on Bayer’s § 43(a) and related state-law
claims and remand for further proceedings consistent
with this opinion. We affirm the district court’s judgment in all other respects.

5a
I.
A.
Since the 1970s, Bayer’s Mexican affiliate has sold
naproxen sodium pain relievers under the trademark
“FLANAX” in Mexico and other parts of Latin America.
Bayer, a Swiss entity, owns a Mexican registration for
the FLANAX mark.1 Bayer neither owns an American
registration for the mark nor sells pain relievers under
the FLANAX name in the United States. Rather,
Bayer’s American sister company, Bayer Healthcare
LLC (BHC), sells naproxen sodium pain relievers in
the United States under the “ALEVE” name.2
Bayer’s FLANAX is a top-selling pain reliever in
Mexico. The drug is therefore well known among consumers in the United States who have spent time in
Mexico and other parts of Latin America.
Given the familiarity with FLANAX among a
large subset of consumers in the United States, Belmora saw an opportunity to sell naproxen sodium pain
relievers under the FLANAX name to American consumers. To that end, Belmora began selling naproxen

Bayer’s Mexican affiliate, which is not a party to this case,
distributes FLANAX in that country through a licensing agreement with Bayer.
2
BHC is also a party to this case. Bayer and BHC are separate entities asserting slightly different claims. But because any
distinction between the two entities is irrelevant to our analysis
in this opinion, we refer to Bayer and BHC collectively as “Bayer,”
unless otherwise noted.
1

6a
sodium pain relievers under the FLANAX name in the
United States in 2004.
Belmora’s early marketing materials targeted
Hispanic American consumers familiar with FLANAX.
Belmora’s founder, Jamie Belcastro, described the company’s business model as “provid[ing] a user-friendly
menu of . . . drug products for common ailments to U.S.
residents of Hispanic background.” J.A. 85. Belmora
also associated its FLANAX pain relievers with
Bayer’s FLANAX sold in Mexico. For example, a telemarketer script identified Belmora as “the direct producers of FLANAX” in the United States and described
its product as “a very well-known medical product in
the Latino American market [that is] sold successfully in Mexico.” J.A. 94. Belmora’s packaging used a
color scheme, font size, and typeface similar to Bayer’s
FLANAX packaging.
On October 6, 2003, Belmora petitioned the U.S.
Patent and Trademark Office (PTO) to register the
FLANAX mark. On February 27, 2004, Bayer filed a
competing application with the PTO to register the
mark.3 The PTO published Belmora’s application for
opposition on August 3, 2004. On September 19, 2004,
the PTO sent a letter to Bayer suspending its application, citing Belmora’s earlier application. The PTO issued the registration to Belmora on February 1, 2005.
On June 29, 2007, Bayer petitioned the U.S. Trademark Trial and Appeal Board (TTAB) to cancel
In actuality, Bayer’s predecessor-in-interest filed the application. Bayer acquired the rights to the mark in September 2005.
3

7a
Belmora’s registration. Bayer’s petition sought cancellation under § 14(3) of the Lanham Act, alleging that
Belmora misrepresented the source of its goods bearing the FLANAX mark.4 The parties litigated the matter before the TTAB for nearly seven years. On April
17, 2014, the TTAB granted Bayer’s petition and canceled Belmora’s registration. The TTAB concluded that
the evidence “readily establish[ed] blatant misuse of
the FLANAX mark [by Belmora] in a manner calculated to trade in the United States on the reputation
and goodwill of [Bayer’s] mark created by its use in
Mexico.” J.A. 90. Specifically, the TTAB found that Belmora (1) knew that the FLANAX mark was in use in
Mexico when it adopted the mark in the United States,
(2) copied Bayer’s packaging, and (3) “repeatedly invoked” the reputation of Bayer’s product in its marketing materials. J.A. 91–93.
B.
On June 9, 2014—less than two months after the
TTAB issued its ruling—Bayer sued Belmora in the
Central District of California. The complaint asserted
claims for false association and false advertising under
§ 43(a) of the Lanham Act. The complaint also asserted

Bayer’s cancellation petition also asserted the following
claims: (1) likelihood of confusion under § 2(d) of the Lanham Act,
(2) a claim under Article 6bis of the Paris Convention, and (3)
fraud. The TTAB dismissed those claims with prejudice.
4

8a
three related claims under California law for unfair
competition and false advertising.5
Meanwhile, Belmora sought review of the TTAB
decision in the Eastern District of Virginia pursuant to
15 U.S.C. § 1071(b). The Central District of California
transferred Bayer’s suit to the Eastern District of Virginia pursuant to 28 U.S.C. § 1404(a), where it was consolidated with Belmora’s action. Belmora moved to
dismiss Bayer’s § 43(a) claims under Federal Rule of
Civil Procedure 12(b)(6) and moved for judgment on
the pleadings as to Bayer’s § 14(3) claim litigated in
the TTAB proceedings. The district court granted Belmora’s motion. Bayer appealed.
We vacated the district court’s dismissal and remanded for further proceedings. Belmora LLC v. Bayer
Consumer Care AG (Belmora I), 819 F.3d 697, 715 (4th
Cir. 2016), cert. denied, 137 S. Ct. 1202 (2017). On remand, Belmora filed an answer to Bayer’s complaint
and brought seven counterclaims. Both parties moved
for summary judgment. Bayer sought summary judgment on each of Belmora’s counterclaims and affirmance of the TTAB decision. Belmora sought summary
judgment on Bayer’s § 43(a) and related state-law
claims, arguing that those claims were barred by the
statute of limitations and laches. In response to Belmora’s motion, Bayer argued that laches, not a statute
BHC joined Bayer as a plaintiff in the Central District of
California action. Bayer alone brought the § 43(a) false association claim. Both Bayer and BHC brought the § 43(a) false advertising claim and the state-law claims.
5

9a
of limitations, governed its § 43(a) claims. Bayer also
argued that its state-law claims were subject to tolling.
The district court granted both parties’ motions.
As to Belmora’s motion, the court concluded that
Bayer’s claims were time-barred, reasoning that
Bayer had “misse[d] the statute of limitations by almost a decade” on its § 43(a) claims, implicitly rejecting
Bayer’s laches arguments. J.A. 888. The district court
further concluded that Bayer’s state-law claims were
time-barred but did not address Bayer’s contention
that its cancellation petition with the TTAB tolled
those claims. As to Bayer’s motion, the district court
concluded that Belmora failed to marshal evidence to
support each of its counterclaims. This cross-appeal
followed.
II.
We review the district court’s summary judgment
rulings de novo. Synergistic Int’l, LLC v. Korman, 470
F.3d 162, 170 (4th Cir. 2006). “Summary judgment is
appropriate when there is no genuine issue of material
fact and the moving party is entitled to judgment as a
matter of law.” Ray Cmmc’ns, Inc. v. Clear Channel
Commc’ns, Inc., 673 F.3d 294, 299 (4th Cir. 2012) (citing
Fed. R. Civ. P. 56(a)).
Because the district court “disposed of crossmotions for summary judgment, ‘we consider each motion separately on its own merits to determine whether
either of the parties deserves judgment as a matter of
law.’ ” Defenders of Wildlife v. N.C. Dep’t of Transp., 762

10a
F.3d 374, 392 (4th Cir. 2014) (quoting Bacon v. City of
Richmond, 475 F.3d 633, 638 (4th Cir. 2007)). “In considering each motion, we ‘resolve all factual disputes
and any competing, rational inferences in the light
most favorable to the party opposing that motion.’ ” Id.
(quoting Rossignol v. Voorhaar, 316 F.3d 516, 523 (4th
Cir. 2003)).
III.
On appeal, Bayer contends that the district court
erred in concluding that its § 43(a) and related statelaw claims were time-barred. In its cross-appeal, Belmora argues that the district court erred in holding
that its counterclaims failed as a matter of law. Belmora also contends that the district court erred in affirming the TTAB decision.
A.
We begin with Bayer’s claims under § 43(a) of
the Lanham Act. “While much of the Lanham Act addresses the registration, use, and infringement of
trademarks and related marks, § 43(a) . . . goes beyond
trademark protection.” Dastar Corp. v. Twentieth Century Fox Film Corp., 539 U.S. 23, 28–29 (2003). That
provision “sets forth unfair competition causes of action for false association and false advertising.” Belmora I, 819 F.3d at 706; see also Advanced Res. Int’l,
Inc. v. Tri-Star Petrol. Co., 4 F.3d 327, 334 (4th Cir.
1993) (“The typical § 43(a) Lanham Act claim is
brought by a plaintiff who is in competition with the

11a
defendant, and charges the defendant with using a
mark . . . so similar to that of the plaintiff ’s that the
public may be confused as to the source of the good or
service.”). Here, Bayer asserts that Belmora’s use of
the FLANAX mark in the United States amounts to
false association and false advertising in violation of
§ 43(a).
Because the Lanham Act does not contain an explicit limitations period for § 43(a) claims, the district
court “follow[ed] the traditional practice of borrowing
the most analogous statute of limitations from state
law.” J.A. 887. The district court concluded that the
statute of limitations began running on Bayer’s claims
as early as September 19, 2004—the date on which the
PTO suspended Bayer’s competing application to register the FLANAX mark. And because Bayer filed its
complaint in the Central District of California in June
2014, the district court held that Bayer “misse[d] the
statute of limitations by almost a decade.” J.A. 888.
Bayer contends that the district court erred by reading
a limitations period into the Lanham Act where none
exists for § 43(a) claims. Bayer argues that laches, rather than a statute of limitations, is the appropriate
defense to its claims.
1.
Before proceeding further, we pause to clarify
which circuit’s law guides our inquiry into whether
Bayer’s § 43(a) claims are time-barred. Bayer’s claims
arrived in the Eastern District of Virginia following a

12a
transfer of venue from the Central District of California pursuant to 28 U.S.C. § 1404(a). Accordingly, both
parties invite us to apply the law of the transferor
court—here, the law of the Ninth Circuit—to resolve
the matter.
A transfer under § 1404(a) from one federal district court to another results in nothing more than “a
change of courtrooms.” Van Dusen v. Barrack, 376 U.S.
612, 639 (1964). Thus, in diversity cases, the transferee
court applies the state law that the transferor court
would have applied absent the transfer. Id. Otherwise,
“initiating a transfer under § 1404(a) [would] change[ ]
the state law applicable to a diversity case,” Ferens v.
John Deere Co., 494 U.S. 516, 526 (1990), which would
violate the federalism principles underlying Erie Railroad Co. v. Tompkins, 304 U.S. 64 (1938).
That rationale collapses in federal question cases
that require a transferee court to do nothing more than
interpret federal law. Unlike state law, federal law is a
“single body of law,” which each federal court “has an
obligation to . . . independently” interpret. In re Korean
Air Lines Disaster of Sept. 1, 1983, 829 F.2d 1171,
1175–76 (D.C. Cir. 1987), aff ’d on other grounds sub
nom. Chan v. Korean Air Lines, Ltd., 490 U.S. 122
(1989) (quoting H.L. Green Co. v. MacMahon, 312 F.2d
650, 652 (2d Cir. 1962)). And “every Circuit . . . has concluded that when one district court transfers a case to
another, the norm is that the transferee court applies
its own Circuit’s cases on the meaning of federal law.”
AER Advisors, Inc. v. Fidelity Brokerage Servs., LLC,
921 F.3d 282, 288 (1st Cir. 2019); accord Bradley v.

13a
United States, 161 F.3d 777, 782 n.4 (4th Cir. 1998) (declining to “apply the law of another circuit simply because the case was transferred from the other circuit”).
This appeal requires us to decide whether to apply
a statute of limitations borrowed from the most analogous state law or instead some other “timeliness rule[ ]
drawn from federal law” to claims under § 43(a) of the
Lanham Act, which does not expressly contain a limitations period for those claims. DelCostello v. Int’l
B’hood of Teamsters, 462 U.S. 151, 162 (1983). Whether
to read a limitations period into a federal law is a garden-variety question of federal statutory interpretation. See Menowitz v. Brown, 991 F.2d 36, 40 (2d Cir.
1993) (per curiam) (“Whether or not courts apply a
state limitations period to a federal claim, ‘the choice
of a limitations period for a federal cause of action is
itself a question of federal law.’ ” (quoting DelCostello,
462 U.S. at 159 n.13)). Because § 43(a) is part of a single body of federal law, we apply Fourth Circuit law to
interpret it.
2.
We turn to the primary issue raised in this appeal:
whether a statute of limitations or some other timeliness
rule applies to Bayer’s § 43(a) claims. See 15 U.S.C.
§ 1125(a). “As is often the case in federal law,” the
Lanham Act does not expressly incorporate a limitations period for § 43(a) claims. DelCostello, 462 U.S. at

14a
158.6 In the absence of an express limitations period,
we typically hold “that Congress intended that the
courts apply the most closely analogous statute of
limitations under state law.” Id. But “state statutes of
limitations can be unsatisfactory vehicles for the enforcement of federal law.” Id. at 161; see also Reed v.
United Transp. Union, 488 U.S. 319, 324 (1989) (describing the “closely circumscribed exception to the
general rule that statutes of limitations are to be borrowed from state law”). In those circumstances, courts
“decline[ ] to borrow state statutes” and “instead use[ ]
timeliness rules drawn from federal law—either express limitations periods from related federal statutes,
or such alternatives as laches.” DelCostello, 462 U.S. at
162.
We conclude that § 43(a) is one such federal law
for which a state statute of limitations would be an unsatisfactory vehicle for enforcement. Rather, the affirmative defense of laches, which applies to claims
that are equitable in nature, see White v. Daniel, 909
F.2d 99, 102 (4th Cir. 1990), “provides a closer analogy
than available state statutes,” DelCostello, 462 U.S. at
172.
The text of § 43(a) supports this conclusion. See
Broughman v. Carver, 624 F.3d 670, 675 (4th Cir. 2010)
(“Because Congress’ intent ‘can most easily be seen in
the text of the Acts it promulgates,’ we begin with an
Unlike § 43(a) claims, infringement claims are expressly
subject to “equitable principles, including laches, estoppel, and
acquiescence.” 15 U.S.C. § 1115(b)(9); see Ray Commc’ns, Inc., 673
F.3d at 300 (applying laches to an infringement claim).
6

15a
examination of the statute’s ‘plain text.’ ” (quoting
United States v. Wills, 234 F.3d 174, 178 (4th Cir.
2000))). The Lanham Act provides that § 43(a) claims
for damages are “subject to the principles of equity,” 15
U.S.C. § 1117(a), and that courts may grant injunctive
relief to remedy § 43(a) violations “according to the
principles of equity,” id. § 1116(a). Other circuits have
similarly emphasized “the equitable character of
§ 43(a) actions” in applying a laches defense to § 43(a)
claims. Jarrow Formulas, Inc. v. Nutrition Now, Inc.,
304 F.3d 829, 836–37 (9th Cir. 2002); see Santana
Prods., Inc. v. Bobrick Washroom Equip., Inc., 401 F.3d
123, 135 (3d Cir. 2005); Hot Wax, Inc. v. Turtle Wax,
Inc., 191 F.3d 813, 822 (7th Cir. 1999).
Accordingly, considering “the federal policies at
stake and the practicalities of litigation,” Reed, 488
U.S. at 324 (quoting DelCostello, 462 U.S. at 172), we
hold that laches is the appropriate defense to § 43(a)
claims. Laches is “an equitable defense” that “is distinct from the statute of limitations.” Jarrow, 304 F.3d
at 835. Laches “generally applies to preclude relief for
a plaintiff who has unreasonably ‘slept’ on his rights.”
PBM Prods., LLC v. Mead Johnson & Co., 639 F.3d 111,
121 (4th Cir. 2011) (applying laches to a § 43(a) claim).7
In addition to properly applying laches to a set of § 43(a)
claims, the PBM Products, LLC court disposed of a second set of
§ 43(a) claims as barred per se by the analogous state statute of
limitations. 639 F.3d at 121. That determination directly conflicts
with a prior precedential decision of this Court, which acknowledged that Lanham Act claims are not controlled by any statute
of limitations. See What-A-Burger of Va., Inc. v. Whataburger, Inc.
of Corpus Christi, Tx., 357 F.3d 441, 449 (4th Cir. 2004) (“Because
7

16a
The district court held that Bayer’s § 43(a) claims
were barred by the most analogous state-law statute of
limitations. The district court therefore judged the
timeliness of Bayer’s § 43(a) claims under an incorrect
legal standard. Accordingly, we vacate the portion of
the district court’s order granting summary judgment
on Bayer’s § 43(a) claims and remand for the court to
determine whether those claims are barred by laches
and to make any further factual findings necessary to
support that determination. See White, 909 F.2d at 102
(observing that a laches finding “depends upon the particular circumstances of the case”).
3.
On remand, the statute of limitations from the
most analogous state law will continue to play an important role in the district court’s laches analysis.
the Lanham Act does not include a limitations period, courts use
the doctrine of laches to address the inequities created by a trademark owner who, despite having a colorable infringement claim,
allows a competitor to develop its products around the mark and
expand its business, only then to lower the litigation boom.”).
While What-A-Burger dealt with an infringement claim, as we
have explained above, the text of § 43(a) similarly does not allow
courts to borrow a state statute of limitations to bar a plaintiff ’s
claims. Without any other means of reconciling the two decisions,
we are bound to apply the principles correctly espoused in WhatA-Burger. See McMellon v. United States, 387 F.3d 329, 333–34
(4th Cir. 2004) (en banc) (“[W]hen there is an irreconcilable conflict between opinions issued by three-judge panels of this court,
the first case to decide the issue is the one that must be followed,
unless and until it is overruled by this court sitting en banc or by
the Supreme Court.”).

17a
Laches is presumed to bar § 43(a) claims filed outside
the analogous limitations period. See PBM Prods.,
LLC, 639 F.3d at 121; accord Jarrow, 304 F.3d at 837;
Hot Wax, Inc., 191 F.3d at 822. But “whether a Lanham
Act claim has been brought within the analogous state
statute of limitations is not the sole indicator of
whether laches may be applied in a particular case.”
Hot Wax, Inc., 191 F.3d at 821–22.
Should the district court conclude that the presumption applies to Bayer’s § 43(a) claims, the district
court should consider the following factors to determine if Bayer can overcome the presumption: (1)
whether Bayer knew of Belmora’s adverse use of the
FLANAX mark, (2) whether Bayer’s delay in challenging that use “was inexcusable or unreasonable,” and (3)
whether Belmora “has been unduly prejudiced” by
Bayer’s delay. See Ray Commc’ns, Inc., 673 F.3d at 300.8
B.
In addition to its § 43(a) claims, Bayer brought unfair competition and false advertising claims under
California law. At summary judgment, Bayer argued
In addition to applying the statute-of-limitations presumption as a threshold inquiry, other circuits also import the presumption into the analysis of the laches factors. See, e.g., Jarrow,
304 F.3d at 838–39 (observing that “[t]he reasonableness of the
plaintiff ’s delay is considered in light of the time allotted by the
analogous limitations period”). But doing so inappropriately
double counts the presumption. We therefore conclude that the
district court should apply the factors independent of the presumption in order to determine if the presumption can be rebutted.
8

18a
that the filing of its cancellation petition with the
TTAB tolled the statute of limitations applicable to
those claims.9 The district court held that Bayer’s
state-law claims were time-barred but never addressed Bayer’s tolling arguments or made any factual
findings to determine whether Bayer’s claims were
subject to tolling. Thus, the absence of fact-finding on
the tolling question by the district court deprives us of
the ability to conduct appellate review on the current
record. Accordingly, we vacate the portion of the district court’s order granting summary judgment on
Bayer’s state-law claims and remand for the district
court to determine in the first instance whether those
claims are subject to tolling and to make any further
factual findings necessary to support that determination.
C.
We next turn to Belmora’s seven counterclaims.
Belmora brought the following counterclaims against
Bayer: (1) trademark infringement in violation of §§ 15
and 33(b) of the Lanham Act, (2) common-law trademark infringement, (3) unfair competition and false
designation of origin in violation of § 43(a) of the Lanham Act and common law, (4) importation of unauthorized goods in violation of § 526 of the Tariff Act of 1930,
Bayer invokes “two distinct types of tolling: (1) tolling based
on Bayer’s filing of the petition to cancel Belmora’s FLANAX registration[ ] and (2) equitable tolling under California law.” Bayer
Resp. Br. at 11–12. Given the absence of fact-finding below, we do
not reach the merits of either theory of tolling.
9

19a
(5) importation of infringing goods in violation of § 42
of the Lanham Act, (6) monopolization in violation of
§ 2 of the Sherman Act, and (7) tortious interference
with contract or prospective economic advantage. The
district court concluded that Belmora failed to offer evidence to support each of its counterclaims. We have
little difficulty affirming that conclusion.
1.
We begin with Belmora’s first five counterclaims,
which seek to hold Bayer liable for secondary trademark infringement. Belmora contends that Bayer’s
Mexican FLANAX product has unlawfully crossed the
border and is available for sale in the so-called “gray
market” in the United States. See Belmora Opening Br.
at 50–55. Belmora seeks to hold Bayer liable for allegedly turning a blind eye to the unlawful importation
and sale of its product. Each of these five counterclaims
rests on a slightly different factual and legal basis, but
Belmora’s theory of liability rises and falls on its ability to prove that Bayer (1) “intentionally induce[d] another to infringe” Belmora’s mark or (2) “continue[d] to
supply its product to one whom it kn[ew] or ha[d] reason to know [was] engaging in trademark infringement.” Inwood Labs., Inc. v. Ives Labs., Inc., 456 U.S.
844, 854 (1982).
The district court concluded that Belmora failed to
show that Bayer “has induced others to sell [FLANAX]
in the U.S., or that it has continued to supply the product to a party with knowledge or reason to know that

20a
party was selling it in the U.S.” J.A. 892. The district
court further concluded that “Belmora has no evidence
linking Bayer to the importation of Mexican FLANAX
into the U.S.,” and that Belmora failed to marshal any
evidence showing “when, how, where, or what Bayer allegedly imported, or to whom it provided assistance.”
J.A. 892–93. On appeal, Belmora argues that it introduced sufficient evidence showing that Bayer was
“willfully blind” to the unlawful sale and importation
of its Mexican product in the United States. Belmora
Opening Br. at 52–55. We disagree.
Given the widespread availability of Bayer’s
FLANAX product in Mexico, it is small wonder that the
product has occasionally made its way across the border. Like the district court, we conclude that Belmora
has offered no evidence to show that Bayer had anything to do with the importation or sales of its Mexican
FLANAX product in the United States. Nor has Belmora shown that Bayer was willfully blind to the unlawful importation and sales of FLANAX. In support
of its argument, Belmora cites to the deposition testimony of Bayer’s Rule 30(b)(6) witness denying
knowledge of the unlawful importation and sales of
FLANAX or of a policy to combat the problem. But that
testimony does not suffice to create a genuine dispute
on the issue of Bayer’s willful blindness. See Louis
Vuitton S.A. v. Lee, 875 F.2d 584, 590 (7th Cir. 1989)
(describing willful blindness as a “fail[ure] to inquire
further” for fear “of what the inquiry would yield”);
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 252
(1986) (holding that “[t]he mere existence of a scintilla

21a
of evidence” is insufficient to survive summary judgment). Accordingly, we affirm the district court’s grant
of summary judgment to Bayer on Belmora’s first five
counterclaims.
2.
In its sixth counterclaim, Belmora alleges that
Bayer violated § 2 of the Sherman Act by allegedly
using its monopoly power to exert pressure on Bionpharma Inc. (Bionpharma)—the sole authorized source
of naproxen sodium liquidgels with whom Bayer has
an exclusivity agreement—not to sell naproxen sodium
liquidgels to Belmora. To succeed on its § 2 claim, Belmora must show “(1) that [Bayer] possesses monopoly
power in the relevant market and (2) that [Bayer] willfully acquired or maintained that power ‘as distinguished from growth or development as a consequence
of a superior product, business acumen, or historic accident.’ ” Cavalier Tel., LLC v. Verizon Va., Inc., 330 F.3d
176, 183 (4th Cir. 2003) (quoting Eastman Kodak Co. v.
Image Tech. Servs., Inc., 504 U.S. 451, 481 (1992)). The
district court concluded that Belmora failed to offer
sufficient evidence establishing a relevant product
market.
“Proof of a relevant market is a threshold for a
Sherman Act § 2 claim.” Consul, Ltd. v. Transco Energy
Co., 805 F.2d 490, 493 (4th Cir. 1986). Belmora “bears
the burden of proof on the issue of the relevant product
and geographic markets.” Satellite Television & Associated Res., Inc. v. Cont’l Cablevision of Va., Inc., 714 F.2d

22a
351, 355 (4th Cir. 1983). Belmora defines the relevant
product market as one for “branded naproxen sodium.”
J.A. 292–93. To support its definition of the relevant
product market, Belmora proffered the report and testimony of Gordon Rausser, Ph.D., its expert witness on
economic and antitrust matters.
We agree with the district court that Rausser’s report does not adequately establish a relevant product
market. See Mil. Servs. Realty, Inc. v. Realty Consultants of Va., Ltd., 823 F.2d 829, 832 (4th Cir. 1987) (affirming the district court’s grant of summary judgment
when the plaintiff ’s expert did not “adequately identify
the relevant market”). Critically, Rausser’s report does
not opine that “branded naproxen sodium” constitutes
a relevant product market. Rausser admitted during
his deposition that he did not “identify the relevant
market that Bayer . . . allegedly monopolized or threatened to monopolize.” J.A. 364. We therefore affirm the
district court’s grant of summary judgment to Bayer on
Belmora’s sixth counterclaim.
3.
Belmora’s final counterclaim alleges tortious interference with contract or prospective economic advantage. As with Belmora’s sixth counterclaim, the
seventh counterclaim rests on Belmora’s allegation
that Bayer allegedly abused its market power through
its exclusivity agreement with Bionpharma and pressured Bionpharma not to sell naproxen sodium liquidgels to Belmora. Belmora contends that it was unable

23a
to obtain the liquidgels as a result and, consequently,
lost out on opportunities to fill orders with potential
retail customers.
To succeed on a claim for tortious interference
with contract or prospective economic advantage, Belmora must show (1) “the existence of a business relationship or expectancy, with a probability of future
economic benefit,” (2) that Bayer had “knowledge of the
relationship or expectancy,” (3) “that it was reasonably
certain that absent intentional misconduct, [Belmora]
would have continued in the relationship or realized
the expectancy,” and (4) “that [Belmora] suffered damages from the interference.” Com. Funding Corp. v.
Worldwide Sec. Servs. Corp., 249 F.3d 204, 213 (4th Cir.
2001) (applying Virginia law). The district court concluded that the seventh counterclaim “fail[ed] for a few
reasons,” finding “no evidence that Bayer knew about
the supposed orders, or was aware of Belmora’s interest in entering the naproxen sodium liquidgel category.” J.A. 896.
We agree. Belmora has failed to show that Bayer
knew of Belmora’s business expectancy at the time it
engaged in the alleged interfering conduct—here,
when it entered into the exclusivity agreement with
Bionpharma. Bayer entered into that agreement in
late 2016. And Belmora did not begin discussing sales
with potential retail customers until 2017. Belmora
cannot establish that Bayer knew of Belmora’s retail
orders when it engaged in the allegedly interfering
conduct, because Bayer entered into the exclusivity
agreement with Bionpharma before Belmora began

24a
discussing orders with potential retail customers. Belmora therefore has failed to offer evidence establishing
that Bayer had knowledge of its business expectancy.
Accordingly, we affirm the district court’s grant of summary judgment to Bayer on Belmora’s seventh counterclaim.
D.
Finally, we turn to Belmora’s § 1071(b) challenge
to the TTAB decision. The TTAB ordered the cancellation of Belmora’s registration, ruling that Belmora
misrepresented the source of its goods in violation of
§ 14(3) of the Lanham Act. The TTAB found that Belmora knew that the FLANAX mark was in use in Mexico when it adopted the mark in the United States,
copied Bayer’s packaging, and “repeatedly invoked” the
reputation of Bayer’s product in its marketing materials. J.A. 91–93. Belmora submitted new evidence before the district court not previously submitted before
the TTAB, but the court concluded that Belmora’s new
evidence did not bear on any disputed factual questions. The court therefore affirmed the TTAB decision
under the deferential substantial evidence standard of
review. Belmora argues that the district court erred by
failing to conduct a de novo review of the entire record.
We recently considered the appropriate standard
of review governing § 1071(b) actions in Swatch AG v.
Beehive Wholesale, LLC, 739 F.3d 150 (4th Cir. 2014).
In that case, we explained that a district court in a
§ 1071(b) action “reviews the record de novo and acts

25a
as the finder of fact.” Id. at 155. And although the parties may admit the PTO record, “the parties have an
unrestricted right to submit further evidence as long
as it is admissible under the Federal Rules of Evidence
and Civil Procedure.” Id. Accordingly, “where new evidence is presented to the district court on a disputed
fact question,” the district court must conduct a de
novo review of the entire record, including the evidence
before the TTAB and any new evidence submitted by
a party. Kappos v. Hyatt, 566 U.S. 431, 444 (2012) (explaining that a district court “cannot meaningfully defer to the PTO’s factual findings if the PTO considered
a different set of facts”).10
Thus, we have rejected an “impermissible hybrid
review” in § 1071(b) actions when a party submits new
evidence not previously presented to the TTAB.
Swatch AG, 739 F.3d at 156. In Swatch AG, the district
court purported to apply a “ ‘unique standard of review,’ acting in part as an appellate body” and sitting
in a “dual capacity.” Id. at 156. We held that the district
court’s standard of review was “in tension with the
statute and directly conflict[ed] with the requirements
of Kappos.” Id. We nonetheless affirmed the district
court’s conclusion, holding that “there [were] more
than sufficient facts recited in its opinion to support
its findings.” Id.

In contrast, when no new evidence is submitted, “the district court must apply the court/agency standard of review to [the
PTO’s] fact finding.” Hyatt v. Kappos, 625 F.3d 1320, 1334 (Fed.
Cir. 2010) (en banc), aff ’d and remanded, 566 U.S. 431 (2012).
10

26a
So too here. To succeed on its § 14(3) claim, Bayer
was required to show “blatant misuse of the mark by
[Belmora] in a manner calculated to trade on the goodwill and reputation of [Bayer].” Otto Int’l Inc. v. Otto
Kern GmbH, 83 U.S.P.Q.2d 1861, 1863 (T.T.A.B. 2007);
see also Belmora I, 819 F.3d at 714 (noting that a
§ 14(3) “[p]etitioner must establish that the ‘registrant
deliberately sought to pass off its goods as those
of [the] petitioner’ ” (quoting 3 J. Thomas McCarthy,
Trademarks and Unfair Competition § 20:30 (4th ed.
2002)). The district court began by reciting the TTAB’s
findings that Belmora knew that the FLANAX mark
was in use in Mexico when it adopted the mark in the
United States, copied Bayer’s packaging, and “repeatedly invoked” the reputation of Bayer’s product in its
marketing materials. J.A. 91–93. The district court
further found that Belmora failed to submit “any credible new evidence” showing that (1) Belmora’s founder
“was unaware of Bayer’s Mexican FLANAX when he
adopted the mark for his own company,” (2) the
FLANAX packaging used by Bayer and Belmora “did
not actually look the way the [TTAB] said [it] did,” or
(3) the “numerous examples” of the use of Bayer’s
“goodwill” by Belmora “were never published or used.”
J.A. 897.
The above facts in the district court’s opinion support its conclusion that Belmora’s use of the FLANAX
mark violated § 14(3). While the district court purported to apply an “impermissible hybrid review,”
Swatch AG, 739 F.3d at 156, the court recited sufficient
facts showing that Belmora “blatant[ly] misuse[d]” the

27a
mark “in a manner calculated to trade on [Bayer’s]
goodwill and reputation,” Otto Int’l Inc., 83 U.S.P.Q.2d
at 1863. Accordingly, we affirm the district court’s
grant of summary judgment to Bayer on its request for
affirmance of the TTAB decision.
IV.
For the foregoing reasons, we affirm the district
court’s grant of summary judgment in Bayer’s favor on
Belmora’s counterclaims and its affirmance of the
TTAB decision. We vacate the district court’s grant
of summary judgment in Belmora’s favor on Bayer’s
§ 43(a) and related state-law claims. We remand the
matter to the district court to determine in the first instance whether Bayer’s § 43(a) claims are barred by
laches and whether Bayer’s related state-law claims
are subject to tolling.
AFFIRMED IN PART, VACATED IN PART,
AND REMANDED WITH INSTRUCTIONS

28a
APPENDIX B
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-----------------------------------------------------------------------

No. 15-1335
-----------------------------------------------------------------------

(Filed Mar. 23, 2016)
BELMORA LLC,
Plaintiff – Appellee,
v.
BAYER CONSUMER CARE AG, a Swiss Corporation;
BAYER HEALTHCARE LLC, a Delaware Limited
Liability Company,
Defendants – Consolidated Plaintiffs –
Appellants,
v.
BELMORA LLC, a Virginia Limited Liability Company;
JAMIE BELCASTRO, an individual; DOES, 1-10,
inclusive,
Consolidated Defendants – Appellees,
and
MICHELLE K. LEE, Undersecretary for Intellectual
Property and Director of the United States Patent
and Trademark Office (Director),
Intervenor.
--------------------------------------

29a
AMERICAN INTELLECTUAL PROPERTY
LAW ASSOCIATION,
Amicus Curiae.
-----------------------------------------------------------------------

Appeals from the United States District Court for the
Eastern District of Virginia, at Alexandria. Gerald
Bruce Lee, District Judge. (1:14-cv-00847-GBL-JFA)
-----------------------------------------------------------------------

Argued: October 27, 2015

Decided: March 23, 2016

-----------------------------------------------------------------------

Before AGEE, FLOYD, and THACKER, Circuit Judges.
-----------------------------------------------------------------------

Vacated and remanded by published opinion. Judge
Agee wrote the opinion, in which Judge Floyd and
Judge Thacker joined.
-----------------------------------------------------------------------

ARGUED: Bradley Louis Cohn, Pattishall, McAuliffe,
Newbury, Hilliard & Geraldson LLP, Chicago, Illinois,
for Appellants. Martin Schwimmer, Leason Ellis LLP,
White Plains, New York, for Appellee. Lewis Yelin,
United States Department of Justice, Washington,
D.C., for Intervenor. ON BRIEF: Phillip Barengolts,
Andrew R.W. Hughes, Pattishall, McAuliffe, Newbury,
Hilliard & Geraldson LLP, Chicago, Illinois; Robert J.
Shaughnessy, Eric C. Wiener, Williams & Connolly
LLP, Washington, D.C., for Appellants. Craig C. Reilly,
Alexandria, Virginia; John L. Welch, WOLF, Greenfield
& Sacks, P.C., Boston, Massachusetts; Lauren B. Sabol,

30a
Leason Ellis LLP, White Plains, New York; Rebecca
Tushnet, Georgetown University Law Center, Washington, D.C., for Appellees. Mark R. Freeman, Civil
Division, United States Department of Justice, Washington, D.C.; Dana J. Boente, United States Attorney,
Benjamin C. Mizer, Principal Deputy Assistant Attorney General, Office of the United States Attorney,
Washington, D.C.; Nathan K. Kelley, Solicitor, Christina J. Hieber, Associate Solicitor, Mary Beth Walker,
Associate Solicitor, Benjamin T. Hickman, Associate
Solicitor, United States Patent and Trademark Office,
Alexandria, Virginia, for Intervenor. Sharon A. Israel,
President, American Intellectual Property Law Association, Inc., Arlington, Virginia; Jennifer L. Kovalcik,
Stites & Harbison, PLLC, Nashville, Tennessee, for
Amicus Curiae.
-----------------------------------------------------------------------

AGEE, Circuit Judge:
In this unfair competition case, we consider
whether the Lanham Act permits the owner of a foreign trademark and its sister company to pursue false
association, false advertising, and trademark cancellation claims against the owner of the same mark in the
United States. Bayer Consumer Care AG (“BCC”) owns
the trademark “FLANAX” in Mexico and has sold
naproxen sodium pain relievers under that mark in
Mexico (and other parts of Latin America) since the
1970s. Belmora LLC owns the FLANAX trademark in
the United States and has used it here since 2004 in
the sale of its naproxen sodium pain relievers. BCC

31a
and its U.S. sister company Bayer Healthcare LLC
(“BHC,” and collectively with BCC, “Bayer”) contend
that Belmora used the FLANAX mark to deliberately
deceive Mexican-American consumers into thinking
they were purchasing BCC’s product.
BCC successfully petitioned the U.S. Trademark
Trial and Appeal Board (“TTAB”) to cancel Belmora’s
registration for the FLANAX mark based on deceptive
use. Belmora appealed the TTAB’s decision to the district court. In the meantime, BCC filed a separate complaint for false association against Belmora under § 43
of the Lanham Act, 15 U.S.C. § 1125, and in conjunction with BHC, a claim for false advertising. After the
two cases were consolidated, the district court reversed
the TTAB’s cancellation order and dismissed the false
association and false advertising claims.
Bayer appeals those decisions. For the reasons
outlined below, we vacate the judgment of the district
court and remand this case for further proceedings
consistent with this opinion.
I.

Background

This appeal comes to us following the district
court’s grant of Belmora’s Federal Rule of Civil Procedure 12(b)(6) motion to dismiss Bayer’s complaint and
Belmora’s Rule 12(c) motion for judgment on the pleadings on the trademark cancellation claim. In both circumstances, we “assume all well-pled facts to be true
and draw all reasonable inferences in favor of ” Bayer

32a
as the plaintiff. Cooksey v. Futrell, 721 F.3d 226, 234
(4th Cir. 2013).1
A.

The FLANAX Mark

BCC registered the trademark FLANAX in Mexico
for pharmaceutical products, analgesics, and anti-inflammatories. It has sold naproxen sodium tablets under the FLANAX brand in Mexico since 1976. FLANAX
sales by BCC have totaled hundreds of millions of dollars, with a portion of the sales occurring in Mexican
cities near the United States border. BCC’s FLANAX
brand is well-known in Mexico and other Latin American countries, as well as to Mexican-Americans and
other Hispanics in the United States, but BCC has
never marketed or sold its FLANAX in the United
States. Instead, BCC’s sister company, BHC, sells
naproxen sodium pain relievers under the brand
ALEVE in the United States market.
Belmora LLC began selling naproxen sodium tablets in the United States as FLANAX in 2004. The following year, Belmora registered the FLANAX mark in
the United States. Belmora’s early FLANAX packaging (below, left) closely mimicked BCC’s Mexican
FLANAX packaging (right), displaying a similar color
scheme, font size, and typeface.

We have omitted internal quotation marks, alterations,
and citations here and throughout this opinion, unless otherwise
noted.
1

33a

J.A. 145. Belmora later modified its packaging (below),
but the color scheme, font size, and typeface remain
similar to that of BCC’s FLANAX packaging.

Id.
In addition to using similar packaging, Belmora
made statements implying that its FLANAX brand
was the same FLANAX product sold by BCC in Mexico.
For example, Belmora circulated a brochure to prospective distributors that stated,

34a
For generations, Flanax has been a brand that
Latinos have turned to for various common
ailments. Now you too can profit from this
highly recognized topselling brand among
Latinos. Flanax is now made in the U.S. and
continues to show record sales growth everywhere it is sold. Flanax acts as a powerful attraction for Latinos by providing them with
products they know, trust and prefer.
J.A. 196. Belmora also employed telemarketers and
provided them with a script containing similar statements. This sales script stated that Belmora was “the
direct producers of FLANAX in the US” and that
“FLANAX is a very well known medical product in the
Latino American market, for FLANAX is sold successfully in Mexico.” Id. Belmora’s “sell sheet,” used
to solicit orders from retailers, likewise claimed that
“Flanax products have been used [for] many, many
years in Mexico” and are “now being produced in the
United States by Belmora LLC.” Id.
Bayer points to evidence that these and similar
materials resulted in Belmora’s distributors, vendors,
and marketers believing that its FLANAX was the
same as or affiliated with BCC’s FLANAX. For instance, Belmora received questions regarding whether
it was legal for FLANAX to have been imported from
Mexico. And an investigation of stores selling Belmora’s FLANAX “identified at least 30 [purchasers]
who believed that the Flanax products . . . were the
same as, or affiliated with, the Flanax products they
knew from Mexico.” J.A. 416.

35a
B.

Proceedings Below
1.

In 2007, BCC petitioned the TTAB to cancel Belmora’s registration for the FLANAX mark, arguing
that Belmora’s use and registration of the FLANAX
mark violated Article 6bis of the Paris Convention “as
made applicable by Sections 44(b) and (h) of the Lanham Act.” J.A. 89. BCC also sought cancellation of Belmora’s registration under § 14(3) of the Lanham Act
because Belmora had used the FLANAX mark “to misrepresent the source of the goods . . . [on] which the
mark is used.” Id.; see also Lanham Act § 14(3), 15
U.S.C. § 1064(3).
The TTAB dismissed BCC’s Article 6bis claim, concluding that Article 6bis “is not self-executing” and
that § 44 of the Lanham Act did not provide “an independent basis for cancellation.” J.A. 95. However, the
TTAB allowed Bayer’s § 14(3) claim to proceed. In
2014, after discovery and a hearing, the TTAB ordered
cancellation of Belmora’s FLANAX registration, concluding that Belmora had misrepresented the source
of the FLANAX goods and that the facts “d[id] not present a close case.” J.A. 142. The TTAB noted that Belmora 1) knew the favorable reputation of Bayer’s
FLANAX product, 2) “copied” Bayer’s packaging, and
3) “repeatedly invoked” that reputation when marketing its product in the United States. J.A. 143-45.

36a
2.
Shortly after the TTAB’s ruling, Bayer filed suit
in the Southern District of California, alleging that
1) BCC was injured by Belmora’s false association
with its FLANAX product in violation of Lanham Act
§ 43(a)(1)(A), and 2) BCC and BHC were both injured
by Belmora’s false advertising of FLANAX under
§ 43(a)(1)(B). The complaint also alleged three claims
under California state law.
Belmora meanwhile appealed the TTAB’s cancellation order and elected to proceed with the appeal as
a civil action in the Eastern District of Virginia.2 It
argued that the TTAB erred in concluding that Bayer
“had standing and/or a cause of action” under § 14(3)
and in finding that Belmora had misrepresented the
source of its goods. J.A. 218. Belmora also sought a declaration that its actions had not violated the false association and false advertising provisions of Lanham
Act § 43(a), as Bayer had alleged in the California district court proceeding. Bayer filed a counterclaim challenging the TTAB’s dismissal of its Paris Convention
treaty claims.
The California case was transferred to the Eastern
District of Virginia and consolidated with Belmora’s
pending action. Belmora then moved the district court
A party to a cancellation proceeding who is dissatisfied
with the TTAB’s decision may either “appeal to” the U.S. Court of
Appeals for the Federal Circuit, 15 U.S.C. § 1071(a), or elect to
“have remedy by a civil action” in the district court, id. § 1071(b).
Belmora chose the latter option.
2

37a
to dismiss Bayer’s § 43(a) claims under Rule 12(b)(6)
and for judgment on the pleadings under Rule 12(c) on
the § 14(3) claim. On February 6, 2015, after two hearings, the district court issued a memorandum opinion
and order ruling in favor of Belmora across the board.
The district court acknowledged that “Belmora’s
FLANAX . . . has a similar trade dress to Bayer’s
FLANAX and is marketed in such a way that capitalizes on the goodwill of Bayer’s FLANAX.” J.A. 475. It
nonetheless “distilled” the case “into one single question”:
Does the Lanham Act allow the owner of a foreign mark that is not registered in the United
States and further has never used the mark
in United States commerce to assert priority
rights over a mark that is registered in the
United States by another party and used in
United States commerce?
J.A. 476. The district court concluded that “[t]he answer is no” based on its reading of the Supreme Court’s
decision in Lexmark International, Inc. v. Static Control Components, Inc., 134 S. Ct. 1377 (2014). J.A. 476.
Accordingly, the district court dismissed Bayer’s false
association and false advertising claims for lack of
standing. At the same time, it reversed the TTAB’s
§ 14(3) cancellation order.
Bayer filed a timely notice of appeal, and we have
jurisdiction under 28 U.S.C. § 1291. The U.S. Patent
and Trademark Office (“USPTO”) intervened to defend
the TTAB’s decision to cancel Belmora’s registration

38a
and to argue that the Lanham Act conforms to the
United States’ commitments in Article 6bis of the Paris
Convention.3
II.

Discussion

We review de novo the district court’s decision to
dismiss a proceeding under Rules 12(b)(6) and 12(c),
accepting as true all well-pleaded allegations in the
plaintiff ’s complaint and drawing all reasonable factual inferences in the plaintiff ’s favor. Priority Auto
Grp., Inc. v. Ford Motor Co., 757 F.3d 137, 139 (4th Cir.
2014); see also Bell Atl. Corp. v. Twombly, 550 U.S. 544,
555-56 (2007). In ruling on a motion to dismiss, “a court
evaluates the complaint in its entirety, as well as documents attached or incorporated into the complaint.”
E.I. du Pont de Nemours & Co. v. Kolon Indus., Inc.,
637 F.3d 435, 448 (4th Cir. 2011).
A. False Association and False
Advertising Under Section 43(a)
The district court dismissed Bayer’s false association and false advertising claims because, in its view,
4

The district court had agreed with the TTAB that Article
does not create an independent cause of action for the cancellation
of Belmora’s FLANAX registration. Because Bayer appears to
have abandoned its treaty claims on appeal and their resolution
is not necessary to our decision, we do not address any issue regarding the Paris Convention arguments.
4
As the district court pointed out, we have sometimes denominated Lanham Act § 43(a)(1)(A) claims as “false designation”
claims. We think it preferable to follow the Supreme Court’s
3

39a
the claims failed to satisfy the standards set forth by
the Supreme Court in Lexmark. At the core of the district court’s decision was its conclusion that 1) Bayer’s
claims fell outside the Lanham Act’s “zone of interests”
– and are not cognizable – “because Bayer does not possess a protectable interest in the FLANAX mark in the
United States,” J.A. 485, and 2) that a “cognizable economic loss under the Lanham Act” cannot exist as to a
“mark that was not used in United States commerce.”
J.A. 488-89.
On appeal, Bayer contends these conclusions are
erroneous as a matter of law because they conflict with
the plain language of § 43(a) and misread Lexmark.
1.
“While much of the Lanham Act addresses the
registration, use, and infringement of trademarks and
related marks, § 43(a) . . . goes beyond trademark protection.” Dastar Corp. v. Twentieth Century Fox Film
Corp., 539 U.S. 23, 28-29 (2003). Written in terms of the
putative defendant’s conduct, § 43(a) sets forth unfair
competition causes of action for false association and
false advertising:
Any person who, on or in connection with any
goods or services, or any container for goods,
uses in commerce any word, term, name, symbol, or device, or any combination thereof, or
terminology in Lexmark and instead refer to such claims as those
of “false association,” although the terms can often be used interchangeably.

40a
any false designation of origin, false or misleading description of fact, or false or misleading representation of fact, which –
(A) [False Association:] is likely to cause
confusion, or to cause mistake, or to deceive as to the affiliation, connection, or
association of such person with another
person, or as to the origin, sponsorship, or
approval of his or her goods, services, or
commercial activities by another person,
or
(B) [False Advertising:] in commercial
advertising or promotion, misrepresents
the nature, characteristics, qualities, or
geographic origin of his or her or another
person’s goods, services, or commercial
activities,
shall be liable in a civil action by any person
who believes that he or she is or is likely to be
damaged by such act.
Lanham Act § 43(a)(1), 15 U.S.C. § 1125(a)(1). Subsection A, which creates liability for statements as to “affiliation, connection, or association” of goods, describes
the cause of action known as “false association.” Subsection B, which creates liability for “misrepresent[ing]
the nature, characteristics, qualities, or geographic
origin” of goods, defines the cause of action for “false
advertising.”
Significantly, the plain language of § 43(a) does
not require that a plaintiff possess or have used a
trademark in U.S. commerce as an element of the cause

41a
of action. Section 43(a) stands in sharp contrast to Lanham Act § 32, which is titled as and expressly addresses “infringement.” 15 U.S.C. § 1114 (requiring for
liability the “use in commerce” of “any reproduction,
counterfeit, copy, or colorable imitation of a registered
mark” (emphasis added)). Under § 43(a), it is the defendant’s use in commerce – whether of an offending
“word, term, name, symbol, or device” or of a “false or
misleading description [or representation] of fact” –
that creates the injury under the terms of the statute.
And here the alleged offending “word, term, name,
symbol, or device” is Belmora’s FLANAX mark.
What § 43(a) does require is that Bayer was “likely
to be damaged” by Belmora’s “use[ ] in commerce” of its
FLANAX mark and related advertisements. The Supreme Court recently considered the breadth of this
“likely to be damaged” language in Lexmark, a false
advertising case arising from a dispute in the usedprinter-cartridge market. 134 S. Ct. at 1383, 1388. The
lower courts in Lexmark had analyzed the case in
terms of “prudential standing” – that is, on grounds
that are “prudential” rather than constitutional. Id. at
1386. The Supreme Court, however, observed that the
real question in Lexmark was “whether Static Control
has a cause of action under the statute.” Id. at 1387.
This query, in turn, hinged on “a straightforward question of statutory interpretation” to which it applied
“traditional principles” of interpretation. Id. at 1388.
As a threshold matter, the Supreme Court noted that
courts must be careful not to import requirements into

42a
this analysis that Congress has not included in the
statute:
We do not ask whether in our judgment Congress should have authorized Static Control’s
suit, but whether Congress in fact did so. Just
as a court cannot apply its independent policy
judgment to recognize a cause of action that
Congress has denied, it cannot limit a cause
of action that Congress has created merely because ‘prudence’ dictates.
Id. The Court concluded that § 43(a)’s broad authorization – permitting suit by “any person who believes that
he or she is or is likely to be damaged” – should not be
taken “literally” to reach the limits of Article III standing, but is framed by two “background principles,”
which may overlap. Id.
First, a plaintiff ’s claim must fall within the “zone
of interests” protected by the statute. Id. The scope of
the zone of interests is not “especially demanding,” and
the plaintiff receives the “benefit of any doubt.” Id. at
1389. Because the Lanham Act contains an “unusual,
and extraordinarily helpful” purpose statement in
§ 45, identifying the statute’s zone of interests “requires no guesswork.” Id. Section 45 provides:
The intent of this chapter is to regulate commerce within the control of Congress by making actionable the deceptive and misleading
use of marks in such commerce; to protect registered marks used in such commerce from interference by State, or territorial legislation;
to protect persons engaged in such commerce

43a
against unfair competition; to prevent fraud
and deception in such commerce by the use
of reproductions, copies, counterfeits, or colorable imitations of registered marks; and
to provide rights and remedies stipulated by
treaties and conventions respecting trademarks, trade names, and unfair competition
entered into between the United States and
foreign nations.
Lanham Act § 45, 15 U.S.C. § 1127.5
The Supreme Court observed that “[m]ost of the
enumerated purposes are relevant to a false-association case,” while “a typical false-advertising case will
implicate only the Act’s goal of ‘protecting persons engaged in commerce within the control of Congress
against unfair competition.’ ” Lexmark, 134 S. Ct. at
1389. The Court concluded “that to come within the
zone of interests in a suit for false advertising under
[§ 43(a)], a plaintiff must allege an injury to a commercial interest in reputation or sales.” Id. at 1390.

In the same section, the Lanham Act defines “commerce” as
“all commerce which may lawfully be regulated by Congress.”
Lanham Act § 45, 15 U.S.C. § 1127. We have previously construed
this phrase to mean that the term is “coterminous with that commerce that Congress may regulate under the Commerce Clause
of the United States Constitution.” Int’l Bancorp, LLC v. Societe
des Bains de Mer et du Cercle des Etrangers a Monaco, 329 F.3d
359, 363-64 (4th Cir. 2003). “Commerce” in Lanham Act context
is therefore an expansive concept that “necessarily includes all
the explicitly identified variants of interstate commerce, foreign
trade, and Indian commerce.” Id. at 364 (citing U.S. Const. art. I,
§ 8, cl. 3); see also infra n.6.
5

44a
The second Lexmark background principle is that
“a statutory cause of action is limited to plaintiffs
whose injuries are proximately caused by violations of
the statute.” Id. The injury must have a “sufficiently
close connection to the conduct the statute prohibits.”
Id. In the § 43(a) context, this means “show[ing] economic or reputational injury flowing directly from the
deception wrought by the defendant’s advertising; and
that that occurs when deception of consumers causes
them to withhold trade from the plaintiff.” Id. at 1391.
The primary lesson from Lexmark is clear: courts
must interpret the Lanham Act according to what the
statute says. To determine whether a plaintiff, “falls
within the class of plaintiffs whom Congress has authorized to sue,” we “apply traditional principles of
statutory interpretation.” Id. at 1387. The outcome will
rise and fall on the “meaning of the congressionally enacted provision creating a cause of action.” Id. at 1388.
We now turn to apply these principles to the case
before us.
2.
a.
We first address the position, pressed by Belmora
and adopted by the district court, that a plaintiff must
have initially used its own mark in commerce within
the United States as a condition precedent to a § 43(a)
claim. In dismissing BCC’s § 43(a) claims, the district
court found dispositive that “Bayer failed to plead facts

45a
showing that it used the FLANAX mark in commerce
in [the] United States.” J.A. 487. Upon that ground, the
district court held “that Bayer does not possess a protectable interest in the [FLANAX] mark.” Id.
As noted earlier, such a requirement is absent
from § 43(a)’s plain language and its application in
Lexmark. Under the statute, the defendant must have
“use[d] in commerce” the offending “word, term, name,
[or] symbol,” but the plaintiff need only “believe[ ] that
he or she is or is likely to be damaged by such act.”
Lanham Act § 43(a), 15 U.S.C. § 1125(a).
It is important to emphasize that this is an unfair
competition case, not a trademark infringement case.
Belmora and the district court conflated the Lanham
Act’s infringement provision in § 32 (which authorizes
suit only “by the registrant,” and thereby requires the
plaintiff to have used its own mark in commerce) with
unfair competition claims pled in this case under
§ 43(a). Section 32 makes clear that Congress knew
how to write a precondition of trademark possession
and use into a Lanham Act cause of action when it
chose to do so. It has not done so in § 43(a). See Russello v. United States, 464 U.S. 16, 23 (1983) (“[W]here
Congress includes particular language in one section
of a statute but omits it in another section of the same
Act, it is generally presumed that Congress acts intentionally and purposely in the disparate inclusion or exclusion.”).
Given that Lexmark advises courts to adhere to the
statutory language, “apply[ing] traditional principles

46a
of statutory interpretation,” Lexmark, 134 S. Ct. at
1388, we lack authority to introduce a requirement
into § 43(a) that Congress plainly omitted. Nothing in
Lexmark can be read to suggest that § 43(a) claims
have an unstated requirement that the plaintiff have
first used its own mark (word, term, name, symbol, or
device) in U.S. commerce before a cause of action will
lie against a defendant who is breaching the statute.
The district court thus erred in requiring Bayer, as
the plaintiff, to have pled its prior use of its own mark
in U.S. commerce when it is the defendant’s use of a
mark or misrepresentation that underlies the § 43(a)
unfair competition cause of action. Having made this
foundational error, the district court’s resolution of the
issues requires reversal.6

Even though the district court’s error in transposing
§ 43(a)’s requirements for a defendant’s actions upon the plaintiff
skews the entire analysis, the district court also confused the issues by ill-defining the economic location of the requisite unfair
competition acts. As noted earlier, supra n.5, a defendant’s false
association or false advertising conduct under § 43(a) must occur
in “commerce within the control of Congress.” Such commerce is
not limited to purchases and sales within the territorial limits of
the United States as the district court seems to imply at times
with regard to § 43(a) and § 14(3) claims. See J.A. 483, 506 (as to
§ 14(3), stating that “Bayer did not use the FLANAX mark in the
United States”); J.A. 487 (as to § 43(a), stating that “Bayer failed
to plead facts showing that it used the FLANAX mark in commerce in [the] United States”). Instead, as we explained in International Bancorp, Lanham Act “commerce” includes, among other
things, “foreign trade” and is not limited to transactions solely
within the borders of the United States. Int’l Bancorp, 329 F.3d at
364. Of course, any such “foreign trade” must satisfy the Lexmark
6

47a
Admittedly, some of our prior cases appear to have
treated a plaintiff ’s use of a mark in United States
commerce as a prerequisite for a false association
claim. See Lamparello v. Falwell, 420 F.3d 309, 313 (4th
Cir. 2005) (“Both infringement [under § 32] and false
designation of origin [under § 43(a)] have [the same]
five elements.”); People for the Ethical Treatment of
Animals v. Doughney, 263 F.3d 359, 364 (4th Cir. 2001)
(same); Int’l Bancorp, 329 F.3d at 361 n.2 (“[T]he tests
for trademark infringement and unfair competition . . .
are identical.”); Lone Star Steakhouse & Saloon v. Alpha of Va., Inc., 43 F.3d 922, 930 (4th Cir. 1995) (“[T]o
prevail under §§ 32(1) and 43(a) of the Lanham Act for
trademark infringement and unfair competition, respectively, a complainant must demonstrate that it has
a valid, protectible trademark[.]”). However, none of
these cases made that consideration the ratio decidendi of its holding or analyzed whether the statute
in fact contains such a requirement. See, e.g., 5 J.
Thomas McCarthy, Trademarks and Unfair Competition § 29:4 (4th ed. 2002) (observing that International
Bancorp merely “assumed that to trigger Lanham Act
§ 43(a), the plaintiff ’s mark must be ‘used in commerce’ ”). Moreover, all of these cases predate Lexmark,
which provides the applicable Supreme Court precedent interpreting § 43(a). See U.S. Dep’t of Health &
Human Servs. v. Fed. Labor Relations Auth., 983 F.2d
578, 581 (4th Cir. 1992) (“A decision by a panel of this
court, or by the court sitting en banc, does not bind
“zone of interests” and “proximate cause” requirements to be cognizable for Lanham Act purposes.

48a
subsequent panels if the decision rests on authority
that subsequently proves untenable.”).
Although the plaintiffs’ use of a mark in U.S. commerce was a fact in common in the foregoing cases,
substantial precedent reflects that § 43(a) unfair competition claims come within the statute’s protectable
zone of interests without the preconditions adopted by
the district court and advanced by Belmora. As the
Supreme Court has pointed out, § 43(a) “goes beyond
trademark protection.” Dastar Corp., 539 U.S. at 29.
For example, a plaintiff whose mark has become generic – and therefore not protectable – may plead an
unfair competition claim against a competitor that
uses that generic name and “fail[s] adequately to identify itself as distinct from the first organization” such
that the name causes “confusion or a likelihood of confusion.” Blinded Veterans Ass’n v. Blinded Am. Veterans Found., 872 F.2d 1035, 1043 (D.C. Cir. 1989); see
also Kellogg Co. v. Nat’l Biscuit Co., 305 U.S. 111, 11819 (1938) (requiring the defendant to “use reasonable
care to inform the public of the source of its product”
even though the plaintiff ’s “shredded wheat” mark was
generic and therefore unprotectable); Singer Mfg. Co.
v. June Mfg. Co., 163 U.S. 169, 203-04 (1896) (same, for
“Singer” sewing machines).
Likewise, in a “reverse passing off ” case, the plaintiff need not have used a mark in commerce to bring
a § 43(a) action.7 A reverse-passing-off plaintiff must
Reverse passing off occurs when a “producer misrepresents
someone else’s goods or services as his own,” in other words, when
7

49a
prove four elements: “(1) that the work at issue originated with the plaintiff; (2) that origin of the work was
falsely designated by the defendant; (3) that the false
designation of origin was likely to cause consumer confusion; and (4) that the plaintiff was harmed by the defendant’s false designation of origin.” Universal
Furniture Int’l, Inc. v. Collezione Europa USA, Inc., 618
F.3d 417, 438 (4th Cir. 2010). Thus, the plaintiff in a
reverse passing off case must plead and prove only that
the work “originated with” him – not that he used the
work (which may or may not be associated with a
mark) in U.S. commerce. Id.
The generic mark and reverse passing off cases illustrate that § 43(a) actions do not require, implicitly
or otherwise, that a plaintiff have first used its own
mark in United States commerce. If such a use were a
condition precedent to bringing a § 43(a) action, the generic mark and reverse passing off cases could not exist.
In sum, the Lanham Act’s plain language contains
no unstated requirement that a § 43(a) plaintiff have
used a U.S. trademark in U.S. commerce to bring a Lanham Act unfair competition claim. The Supreme
Court’s guidance in Lexmark does not allude to one,
and our prior cases either only assumed or articulated
as dicta that such a requirement existed. Thus, the
the defendant is selling the plaintiff ’s goods and passing them off
as originating with the defendant. Universal Furniture Int’l, Inc.
v. Collezione Europa USA, Inc., 618 F.3d 417, 438 (4th Cir. 2010)
(quoting Dastar Corp., 539 U.S. at 28 n.1).

50a
district court erred in imposing such a condition precedent upon Bayer’s claims.8
As Bayer is not barred from making a § 43(a)
claim, the proper Lexmark inquiry is twofold. Did the
alleged acts of unfair competition fall within the Lanham Act’s protected zone of interests? And if so, did
Bayer plead proximate causation of a cognizable injury? We examine the false association and false advertising claims in turn.
b.
i.
As to the zone of interests, Lexmark advises that
“[m]ost of the [Lanham Act’s] enumerated purposes
are relevant to false-association cases.” 134 S. Ct. at
A plaintiff who relies only on foreign commercial activity
may face difficulty proving a cognizable false association injury
under § 43(a). A few isolated consumers who confuse a mark with
one seen abroad, based only on the presence of the mark on a
product in this country and not other misleading conduct by the
mark holder, would rarely seem to have a viable § 43(a) claim.
The story is different when a defendant, as alleged here, has
– as a cornerstone of its business – intentionally passed off its
goods in the United States as the same product commercially
available in foreign markets in order to influence purchases by
American consumers. See M. Kramer Mfg. Co. v. Andrews, 783
F.2d 421, 448 (4th Cir. 1986) (“[E]vidence of intentional, direct
copying establishes a prima facie case of secondary meaning sufficient to shift the burden of persuasion to the defendant on that
issue.”). Such an intentional deception can go a long way toward
establishing likelihood of confusion. See Blinded Veterans, 872
F.2d at 1045 (“Intent to deceive . . . retains potency; when present,
it is probative evidence of a likelihood of confusion.”).
8

51a
1389. One such enumerated purpose is “making actionable the deceptive and misleading use of marks” in
“commerce within the control of Congress.” Lanham
Act § 45, 15 U.S.C. § 1127; see also Two Pesos, Inc. v.
Taco Cabana, Inc., 505 U.S. 763, 784 n.19 (1992) (Stevens, J., concurring) (“Trademark law protects the
public by making consumers confident that they can
identify brands they prefer and can purchase those
brands without being confused or misled.”). As pled,
BCC’s false association claim advances that purpose.
The complaint alleges Belmora’s misleading association with BCC’s FLANAX has caused BCC customers to buy the Belmora FLANAX in the United States
instead of purchasing BCC’s FLANAX in Mexico. For
example, the complaint alleges that BCC invested
heavily in promoting its FLANAX to Mexican citizens or Mexican-Americans in border areas.9 Those
9

Bayer alleges in its complaint that:
11. [BCC] has sold hundreds of millions of dollars of
its FLANAX medicines in Mexico. This includes substantial sales in major cities near the U.S.-Mexico border.
12. [BCC] has spent millions of dollars promoting and
advertising the FLANAX brand in Mexico, including in
major cities near the U.S.-Mexico border.
13. As a result of [BCC’s] extensive sales and marketing, the FLANAX brand is extremely well known in
Mexico and to Mexican-American consumers in the
United States.
....
30. Defendants have marketed Belmora’s FLANAX
products by targeting Hispanic consumers likely to be
familiar with [BCC’s] FLANAX products and deliberately

52a
consumers cross into the United States and may purchase Belmora FLANAX here before returning to Mexico. And Mexican-Americans may forego purchasing
the FLANAX they know when they cross the border to
visit Mexico because Belmora’s alleged deception led
them to purchase the Belmora product in the United
States.
In either circumstance, BCC loses sales revenue
because Belmora’s deceptive and misleading use of
FLANAX conveys to consumers a false association
with BCC’s product. Further, by also deceiving distributors and vendors, Belmora makes its FLANAX more
available to consumers, which would exacerbate BCC’s
losses. See J.A. 196 (stating in a brochure for distributors that “Flanax is now made in the U.S.” and “acts as
a powerful attraction for Latinos”); J.A. 410 (noting a
distributor’s concern that the product “is legal to sell
in the US”). In each scenario, the economic activity
would be “within the control of Congress” to regulate.
Lanham Act § 45, 15 U.S.C. § 1127.
We thus conclude that BCC has adequately pled a
§ 43(a) false association claim for purposes of the zone
of interests prong. Its allegations reflect the claim furthers the § 45 purpose of preventing “the deceptive and
misleading use of marks” in “commerce within the control of Congress.”
attempting to deceive those consumers into believing
that Belmora’s FLANAX products are the same thing
as the FLANAX medicines they know and trust from
Mexico.
J.A. 156, 159 (Compl. ¶¶ 11-13, 30).

53a
ii.
Turning to Lexmark’s second prong, proximate
cause, BCC has also alleged injuries that “are proximately caused by [Belmora’s] violations of the [false
association] statute.” 134 S. Ct. at 1390. The complaint
can fairly be read to allege “economic or reputational
injury flowing directly from the deception wrought by
the defendant’s” conduct. Id. at 1391. As previously
noted, BCC alleges “substantial sales in major cities
near the U.S.-Mexico border” and “millions of dollars
promoting and advertising” its FLANAX brand in that
region. J.A. 156 (Compl. ¶¶ 11-12). Thus, BCC may
plausibly have been damaged by Belmora’s alleged deceptive use of the FLANAX mark in at least two ways.
As reflected in the zone of interests discussion, BCC
FLANAX customers in Mexico near the border may be
deceived into foregoing a FLANAX purchase in Mexico
as they cross the border to shop and buy the Belmora
product in the United States. Second, Belmora is alleged to have targeted Mexican-Americans in the
United States who were already familiar with the
FLANAX mark from their purchases from BCC in
Mexico. We can reasonably infer that some subset of
those customers would buy BCC’s FLANAX upon their
return travels to Mexico if not for the alleged deception
by Belmora. Consequently, BCC meets the Lexmark
pleading requirement as to proximate cause.
BCC may ultimately be unable to prove that Belmora’s deception “cause[d] [these consumers] to
withhold trade from [BCC]” in either circumstance,
Lexmark, 134 S. Ct. at 1391, but at the initial pleading

54a
stage we must draw all reasonable factual inferences
in BCC’s favor. Priority Auto Grp., 757 F.3d at 139.
Having done so, we hold BCC has sufficiently pled a
§ 43(a) false association claim to survive Belmora’s
Rule 12(b)(6) motion. The district court erred in holding otherwise.
c.
BCC and BHC both assert § 43(a)(1)(B) false advertising claims against Belmora. BHC’s claim represents a “typical” false advertising case: it falls within
the Act’s zone of interests by “protecting persons engaged in commerce within the control of Congress
against unfair competition.” Lexmark, 134 S. Ct. at
1389 (quoting 15 U.S.C. § 1127). As a direct competitor
to Belmora in the United States, BHC sufficiently alleges that Belmora engaged in Lanham Act unfair
competition by using deceptive advertisements that
capitalized on BCC’s goodwill. See J.A. 163 (Compl.
¶ 54) (asserting that Belmora was deceptive with
“claims in their marketing materials and communications with distributors”); Appellees’ Br. 77 (acknowledging that “BHC is a competitor of Belmora’s in the
United States naproxen sodium market” and “can in
theory bring a false advertising action against a competitor”). If not for Belmora’s statements that its
FLANAX was the same one known and trusted in
Mexico, some of its consumers could very well have
instead purchased BHC’s ALEVE brand. These lost
customers likewise satisfy Lexmark’s second prong:

55a
they demonstrate an injury to sales or reputation proximately caused by Belmora’s alleged conduct.
BCC’s false advertising claim is perhaps not “typical” as BCC is a foreign entity without direct sales
in the territorial United States. Nonetheless, BCC’s
claim advances the Act’s purpose of “making actionable
the deceptive and misleading use of marks.” Lanham
Act § 45, 15 U.S.C. § 1127. As alleged, Belmora’s advertising misrepresents the nature of its FLANAX product in that Belmora implies that product is the same
as consumers purchased in Mexico from BCC and can
now buy here.
To be sure, BCC’s false advertising claim overlaps
to some degree with its false association claim, but the
two claims address distinct conduct within the two
subsections of § 43(a). Belmora’s alleged false statements go beyond mere claims of false association; they
parlay the passed-off FLANAX mark into misleading
statements about the product’s “nature, characteristics, qualities, or geographic origin,” all hallmarks of a
false advertising claim. Lanham Act 43(a)(1)(B), 15
U.S.C. 1125(a)(1)(B).10
Belmora’s alleged false statements intertwine
closely with its use of the FLANAX mark. The
FLANAX mark denotes history: Belmora claims its
product has been “used [for] many, many years in
Because each of these claims is anchored as a factual matter to the FLANAX mark’s history “in the Latino American market,” we disagree with Belmora’s argument that the statements
amount to mere puffery. See J.A. 160.
10

56a
Mexico” and “Latinos have turned to” it “[f ]or generations.” J.A. 196. FLANAX also reflects popularity: Belmora says the product is “highly recognized [and] topselling.” Id. And FLANAX signifies a history of quality:
Belmora maintains that Latinos “know, trust and prefer” the product. Id. Each of these statements by Belmora
thus directly relates to the “nature, characteristics,
qualities, or geographic origin” of its FLANAX as being one and the same as that of BCC. Lanham Act
§ 43(a)(1)(B), 15 U.S.C. § 1125(a)(1)(B). Because these
statements are linked to Belmora’s alleged deceptive
use of the FLANAX mark, we are satisfied that BCC’s
false advertising claim, like its false association claim,
comes within the Act’s zone of interests. As we can comfortably infer that the alleged advertisements contributed to the lost border sales pled by BCC, the claim
also satisfies Lexmark’s proximate cause prong (for the
same reasons discussed above regarding the false association claim).
d.
We thus conclude that the Lanham Act permits
Bayer to proceed with its claims under § 43(a) – BCC
with its false association claim and both BCC and BHC
with false advertising claims. It is worth noting, as the
Supreme Court did in Lexmark, that “[a]lthough we
conclude that [Bayer] has alleged an adequate basis to
proceed under [§ 43(a)], it cannot obtain relief without
evidence of injury proximately caused by [Belmora’s alleged misconduct]. We hold only that [Bayer] is entitled
to a chance to prove its case.” 134 S. Ct. at 1395.

57a
In granting Bayer that chance, we are not concluding that BCC has any specific trademark rights to the
FLANAX mark in the United States. Belmora owns
that mark. But trademark rights do not include using
the mark to deceive customers as a form of unfair competition, as is alleged here. Should Bayer prevail and
prove its § 43(a) claims, an appropriate remedy might
include directing Belmora to use the mark in a way
that does not sow confusion. See Lanham Act § 34(a),
15 U.S.C. § 1116(a) (authorizing injunctions based on
“principles of equity”). Of course, the precise remedy
would be a determination to be made by the district
court in the first instance upon proper evidence.11 We
leave any potential remedy to the district court’s discretion should this case reach that point. We only note
that any remedy should take into account traditional
trademark principles relating to Belmora’s ownership
of the mark.
B.

Cancellation Under Section 14(3)

The TTAB ordered the cancellation of Belmora’s
FLANAX trademark under § 14(3), finding that the
For example, a remedy might include altering the font and
color of the packaging or the “ready remedy” of attaching the manufacturer’s name to the brand name. Blinded Veterans, 872 F.2d
at 1047. Another option could be for the packaging to display a
disclaimer – to correct for any deliberately created actual confusion. See id. (“The district court could, however, require [Blinded
American Veterans Foundation] to attach a prominent disclaimer
to its name alerting the public that it is not the same organization
as, and is not associated with, the Blinded Veterans Association.”).
11

58a
preponderance of the evidence “readily establishe[d]
blatant misuse of the FLANAX mark in a manner calculated to trade in the United States on the reputation
and goodwill of petitioner’s mark created by its use
in Mexico.” J.A. 142. In reversing that decision and
granting Belmora’s motion for judgment on the pleadings, the district court found that BCC, as the § 14(3)
complainant, “lack[ed] standing to sue pursuant to
Lexmark” under both the zone of interests and the
proximate cause prongs. J.A. 505. The district court
also reversed the TTAB’s holding that Belmora was using FLANAX to misrepresent the source of its goods
“because Section 14(3) requires use of the mark in
United States commerce and Bayer did not use the
FLANAX mark in the United States.” J.A. 505-06.
On appeal, Bayer argues that the district court
erred in overturning the TTAB’s § 14(3) decision because it “read a use requirement into the section that
is simply not there.” Appellants’ Br. 49. For reasons
that largely overlap with the preceding § 43(a) analysis, we agree with Bayer.
1.
Section 14(3) of the Lanham Act creates a procedure for petitioning to cancel the federal registration
of a mark that the owner has used to misrepresent the
source of goods:
A petition to cancel a registration of a mark,
stating the grounds relied upon, may . . . be
filed as follows by any person who believes

59a
that he is or will be damaged . . . by the registration of a mark . . .
....
(3) At any time . . . if the registered
mark is being used by, or with the permission of, the registrant so as to misrepresent the source of the goods or services on
or in connection with which the mark is
used.
Lanham Act § 14(3), 15 U.S.C. § 1064(3). The petitioner
must establish that the “registrant deliberately sought
to pass off its goods as those of petitioner.” See 3
McCarthy, § 20:30 (4th ed. 2002).
If successful, the result of a § 14(3) petition “is the
cancellation of a registration, not the cancellation of a
trademark.” Id. § 20:40. Cancellation of registration
strips an owner of “important legal rights and benefits”
that accompany federal registration, but it “does not
invalidate underlying common law rights in the trademark.” Id. § 20:68; see also B & B Hardware Inc. v. Hargis Indus., Inc., 135 S. Ct. 1293, 1300 (2015).
To determine what parties § 14(3) authorizes to
petition for cancellation, we again apply the Lexmark
framework. The relevant language in § 14(3) closely
tracks similar language from § 43(a) that the Supreme
Court considered in Lexmark: “[A]ny person who believes that he is or will be damaged” by the mark’s registration may petition for cancellation under § 14(3),
just as “any person who believes that he or she is or is
likely to be damaged” may bring an unfair competition

60a
action under § 43(a). The same two-prong inquiry from
Lexmark provides the mode of analysis.
To determine if a petitioner falls within the protected zone of interests, we note that § 14(3) pertains
to the same conduct targeted by § 43(a) false association actions – using marks so as to misrepresent the
source of goods. Therefore, “[m]ost of the [Lanham
Act’s] enumerated purposes are relevant” to § 14(3)
claims as well. See Lexmark, 134 S. Ct. at 1389. As for
proximate cause, we once again consider whether the
plaintiff has “show[n] economic or reputational injury
flowing directly from the deception wrought by the
defendant’s [conduct].”12 Id. at 1391. As with § 43(a),
neither § 14(3) nor Lexmark mandate that the plaintiff
have used the challenged mark in United States commerce as a condition precedent to its claim. See Empresa Cubana Del Tabaco v. Gen. Cigar Co., 753 F.3d
1270, 1278 (Fed. Cir. 2014) (“In the proceedings before
the Board, however, Cubatabaco need not own the mark
to cancel the Registrations under [Section 14(3)].”).

The USPTO suggests that § 14(3) might require a lesser
showing of causation because it sets forth an administrative remedy, whereas the Supreme Court based its Lexmark analysis on
common law requirements for judicial remedies. See Empresa
Cubana Del Tabaco v. Gen. Cigar Co., 753 F.3d 1270, 1275 (Fed.
Cir. 2014) (“A petitioner is authorized by statute to seek cancellation of a mark where it has both a real interest in the proceedings
as well as a reasonable basis for its belief of damage.”). We need
not resolve this issue for purposes of the current decision.
12

61a
2.
Applying the framework from Lexmark, we conclude that the Lanham Act authorizes BCC to bring its
§ 14(3) action against Belmora. BCC’s cancellation
claim falls within the Lanham Act’s zone of interests
because it confronts the “deceptive and misleading use
of marks.” Lanham Act § 45, 15 U.S.C. § 1127. And BCC
has also adequately pled a proximately caused injury
to survive Belmora’s Rule 12(c) motion for the same
reasons previously discussed for the false association
and false advertising claims. The district court thus
erred in reversing the TTAB’s decision cancelling the
registration of Belmora’s FLANAX mark.
III.
For the foregoing reasons, we conclude that Bayer
is entitled to bring its unfair competition claims under
Lanham Act § 43(a) and its cancellation claim under
§ 14(3). The district court’s judgment is vacated and
the case remanded for further proceedings consistent
with this opinion.
VACATED AND REMANDED

62a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
BELMORA, LLC.,

)
)
Plaintiff,
)
Civil Action No.
v.
)
) 1:14-cv-00847
BAYER CONSUMER
)
CARE AG, et al.,
)
Defendants-Consolidated )
Plaintiffs,
)
)
v.
)
BELMORA, LLC, JAMIE
)
BELCASTRO, & DOES 1-10, )
INCLUSIVE, et al.,
)
Consolidated Defendants. )
MEMORANDUM OPINION
(Filed Sep. 6, 2018)
THIS MATTER comes before the Court on PlaintiffConsolidated Defendant Belmora’s Motion for Summary Judgment and Defendant-Consolidated Plaintiff
Bayer’s Motion for Summary Judgment.
This case arises from Bayer’s claims that Belmora’s FLANAX trademark should be cancelled because Belmora deceived customers into thinking that
its FLANAX brand of pain relief medicine is the same
FLANAX brand under which Bayer has sold pain relief

63a
medicine in Mexico for decades. The Trademark Trial
and Appeal Board (“TTAB”) cancelled Belmora’s trademark. Judge Gerald Lee of the Eastern District of Virginia reversed the TTAB’s decision, which the Fourth
Circuit reviewed, vacated, and remanded. The case is
now remanded to this Court. The parties seek review
of the TTAB decision and bring additional causes of action.
I.

Background

Belmora is a limited liability company formed in
2002. It is owned and operated by Jamie Belcastro. Belmora operates in the United States and sells over-thecounter pain relief products under the FLANAX brand
name. Belmora began selling an analgesic naproxen
sodium tablet in the United States as FLANAX in
2004. On October 6, 2003, Belmora filed an application
with the United States Patent and Trademark Office
(“PTO”) to register the FLANAX mark for the analgesic tablets. The application was published for opposition on August 3, 2004, and the PTO issued the
registration for the FLANAX mark on February 1,
2005.
Bayer Consumer Care AG, a Swiss Corporation,
Bayer Healthcare LLC, a Delaware limited liability
company, and predecessors have sold analgesics, pharmaceutical products, and anti-inflammatories in Mexico under the Mexican-registered trademark FLANAX
since the 1970s. Bayer does not possess a trademark
for FLANAX in the United States.

64a
Bayer attempted to register FLANAX in the
United States in 2004 but the PTO rejected the application based on Belmora’s preexisting efforts to register the mark. Bayer has sold hundreds of millions of
dollars of FLANAX products in Mexico. Bayer promotes FLANAX in Mexico, including in major cities
near the United States-Mexico border. The FLANAX
brand is well-known in Mexico and other Latin American countries, as well as to Mexican-Americans and
other Hispanics in the United States, but was never
marketed or sold in the United States. Bayer has never
received approval from the FDA to market or sell
FLANAX in the United States.
Belmora’s early packaging closely mimicked
Bayer’s Mexican FLANAX packaging, including a similar color scheme, font size, and typeface.1 Belmora has
since changed its packaging, but this modified scheme
remains similar to that of Bayer’s FLANAX. In addition to similar packaging, Belmora made statements
implying that its FLANAX brand was the same
FLANAX product sold by Bayer in Mexico. Belmora’s
marketing messages often suggested a historical connection between its FLANAX and Latino customers.
As of the mid-2000s, no manufacturer had obtained FDA approval to produce naproxen sodium in
liquidgel form. As a result, naproxen sodium liquidgels
were not available to U.S. customers. In 2007, Banner
The TTAB found that Belmora copied the logo and trade
dress of Bayer’s FLANAX. See Bayer Consumer Care AG v. Belmora LLC, 110 U.S.P.Q.2d 1623, 2014 WL 1679146, at *11
(T.T.A.B. 2014).
1

65a
Pharmacaps (“Banner”) received approval from the
FDA to produce naproxen sodium liquidgels and entered into a supply agreement with Bayer. Bayer has
since marketed Banner-manufactured naproxen sodium liquidgels to consumers under the ALEVE brand.
In 2015, Banner sold its rights to the naproxen sodium
liquidgels to Bionpharma. Bionpharma, as Banner’s
successor, was the only FDA approved source for
naproxen sodium liquidgels. Bionpharma entered into
a supply agreement with Bayer in January 2017. In
addition to Bayer, Bionpharma supplies naproxen sodium liquidgels to national chains for private label
sale.
Belmora alleges that a third party, PL Developments, agreed to package naproxen sodium liquidgels
that Belmora would sell to consumers as a FLANAX
branded product. As the only source of naproxen sodium liquidgels, PL Developments needed to obtain
the liquidgels from Bionpharma. Belmora claims that
when PL Developments approached Bionpharma and
informed it that Belmora was the intended re-seller of
the product, Bionpharma refused to supply the product.
Belmora also alleges that Bayer is involved in grey
market product sales. Bayer de Mexico, which is not a
party to this lawsuit, lawfully sells FLANAX-branded
naproxen sodium products in Mexico. It licenses use of
the FLANAX trademark from Bayer Consumer Care
AG. As the basis for its trademark infringement, unfair
competition, and Tariff Act counterclaims, Belmora

66a
alleges that Bayer is involved in the importation and
sale of Mexican FLANAX in the United States.
PROCEDURAL HISTORY
On June 29, 2007, Bayer petitioned the TTAB to
cancel Belmora’s registration for the FLANAX mark.
Bayer argued that Belmora’s use and registration of
the FLANAX mark violated Article 6bis of the Paris
Convention as made applicable by sections 44(b) and
(h) of the Lanham Act, in addition to violating § 14(3)
of the Lanham Act. Under § 14(3) of the Lanham Act,
Bayer argued that Belmora used the FLANAX mark to
misrepresent the source of the goods on which the
mark was used.
The TTAB dismissed Bayer’s Article 6bis claim but
allowed the § 14(3) claim to proceed. In 2014, after discovery and a hearing, the TTAB issued a ruling canceling Belmora’s FLANAX registration pursuant to
Section 14(3) of the Lanham Act, 15 U.S.C. § 1064(3).
Bayer Consumer Care AG v. Belmora LLC, 2014 WL
1679146 (T.T.A.B. 2014). The TTAB concluded that Belmora had misrepresented the source of the FLANAX
goods and that the facts “d[id] not present a close case.”
Id. at 32. The TTAB went on to say that Belmora 1)
knew the favorable reputation of Bayer’s FLANAX
product, 2) “copied” Bayer’s packaging, and 3) “repeatedly invoked” that reputation when marketing its
product in the United States. Id. at 35
Following the TTAB’s ruling, Bayer filed suit in
the Southern District of California alleging violations

67a
of the Lanham Act as well as three claims under California state law. See Bayer Consumer Care AG v. Belmora, LLC, No. 3:14-cv-01395 (S.D. Cal.). Shortly after,
Bayer filed a notice of voluntary dismissal because the
“case was filed in the wrong district.” (Dkt. 37 at 3 n.2).
On June 9, 2014, Bayer refiled its complaint in the
Central District of California.
Belmora appealed the TTAB’s cancellation order
and elected to proceed with the appeal as a civil action
in the Eastern District of Virginia. Belmora argued
that the TTAB erred in concluding that Bayer had
standing and/or a cause of action under § 14(3) and in
finding that Belmora had misrepresented the source of
its goods. Belmora also sought a declaration that its
actions had not violated the false association and false
advertising provisions of Lanham Act § 43(a) as alleged in Bayer’s California lawsuit. Bayer filed a counterclaim challenging the TTAB’s dismissal of its Paris
Convention treaty claims.
The Central District of California case was transferred and consolidated with Belmora’s pending action
in the Eastern District of Virginia. Belmora then
moved to dismiss Bayer’s § 43(a) and § 14(3) claims. On
February 6, 2015, the district court issued an opinion
granting Belmora’s motion. The district court distilled
the case into a single question of:
Does the Lanham Act allow the owner of a foreign mark that is not registered in the United
States and further has never used the mark
in United States commerce to assert priority
rights over a mark that is registered in the

68a
United States by another party and used in
United States commerce?
Belmora LLC v. Bayer Consumer Care AG, 84
F.Supp.3d 490, 495 (E.D. Va., 2015).
The district court concluded that “[t]he answer is
no” based on its reading of the Supreme Court’s decision in Lexmark Int’l, Inc. v. Static Control Components, Inc., 134 S. Ct. 1377 (2014). The Court dismissed
Bayer’s false association and false advertising claims
for lack of standing and reversed the TTAB’s § 14(3)
cancellation order.
Following the district court’s ruling, Bayer filed a
timely notice of appeal to the Fourth Circuit. The
USPTO intervened to defend the TTAB’s decision to
cancel Belmora’s registration. The Fourth Circuit vacated and remanded Judge Lee’s decision, and found
that in applying the Lexmark framework, Bayer has
standing to bring its unfair competition claims under
the Lanham Act § 43(a) and its cancellation claim under § 14(3). The Court ruled that “the Lanham Act authorizes [Bayer] to bring its § 14(3) action against
Belmora” . . . and that “[Bayer’s] cancellation claim
falls within the Lanham Act’s zone of interests because
it confronts the ‘deceptive and misleading use of
marks’.” Belmora LLC v. Bayer Consumer Care AG,
819 F.3d 697, 715 (4th Cir. 2016). The Court went on to
say that “Bayer has also adequately pled a proximately
caused injury to survive Belmora’s Rule 12(c) motion”
and that “the district court thus erred in reversing the

69a
TTAB’s decision cancelling the registration of Belmora’s FLANAX mark.” Id.
Following remand from the 4th Circuit this case
came back to the Eastern District of Virginia, this time
in front of this Court following Judge Lee’s retirement.
On return to district court Belmora filed counterclaims
against Bayer’s claims that were consolidated from the
California case. The Court now considers both Belmora
and Bayer’s motions for summary judgment. Belmora
asks the Court to grant summary judgment and dismiss Bayer’s five (5) claims. Bayer asks the Court to
grant summary judgment and dismiss Belmora’s seven
(7) counterclaims, in addition to affirming the TTAB
decision cancelling Belmora’s FLANAX trademark
registration for misrepresentation.
Belmora brings counterclaims against Bayer for
(1)Registered Trademark Infringement under §§ 15
and 33(b) of the Lanham Act, 15 U.S.C. §§ 1065 and
115(b); (2) Common Law Trademark Infringement; (3)
Unfair Competition and False Designation of Origin in
violation of the Lanham Act 15 U.S.C. § 1125(a) and
common law; (4)Importation of Unauthorized Goods in
violation of § 526 of the Tariff Act of 1930 (as amended,
19 U.S.C. § 1526); (5) Importation of Infringing Goods
in violation of the Lanham Act 15 U.S.C. § 1124; (6) Monopolization under Section 2 of the Sherman Act; and
(7) Tortious Interference with Contract or Prospective
Economic Advantage. Bayer brings claims against Belmora for (1) unfair competition under § 43(A) of the
Lanham Act; (2) false advertising under § 43(a) of the
Lanham Act; (3) unfair competition under Cal.Bus. &

70a
Prof. Code § 17200, et seq.; (4) false advertising under
Cal.Bus. & Prof. Code § 17500, et seq.; and (5) unfair
competition under the common law of California.
II.

Standard of Review

With respect to both Belmora and Bayer’s claims
and counterclaims a summary judgment standard is
appropriate. Under Federal Rule of Civil Procedure 56,
a court should grant summary judgment if the pleadings and evidence show that there is no genuine dispute as to any material fact and that the moving party
is entitled to judgment as a matter of law. Fed. R. Civ.
P. 56(c); see Celotex Corp. v. Catrett, 477 U.S. 317, 322
(1986). In reviewing a motion for summary judgment,
the court views the facts in the light most favorable to
the non-moving party. See Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 255 (1986). Once a motion for summary judgment is properly made, the opposing party
has the burden to show that a genuine dispute of material fact exists. See Matsushita Elec. Indus. Co. v.
Zenith Radio Corp., 475 U.S. 574, 586-87 (1986).
TTAB DECISION
Section § 1071(b) of Title 15 of the Unites States
Code permits a party dissatisfied with a TTAB decision
to appeal to the United States Court of Appeals for the
Federal Circuit or to bring a civil action in federal
district court. See 15 U.S.C. § 1071(a), (b). In a 1071(b)
action, the district court reviews the record de novo
and acts as the finder of fact. However, in some

71a
situations consideration of the TTAB decision is permitted. Kappos v. Hyatt, 132 S.Ct. 1690, 1700 (2012), is
instructive on this issue and is the primary case interpreting the patent and trademark civil action statutes.
In Kappos, the Court adopted the Federal Circuit’s rule
that “the district court may, in its discretion, ‘consider
the proceedings before and findings of the Patent Office in deciding what weight to afford an applicant’s
newly-admitted evidence.’ ” Id. at 1700 (quoting Hyatt
v. Kappos, 625 F.3d 1320, 1335 (Fed.Cir.2010)).
In sum, any new evidence submitted to the court
on a disputed factual question is considered de novo,
Hyatt II, 132 S. Ct. at 1700, while factual findings
made by the Board which are untouched by new evidence presented to the court are reviewed under the
substantial evidence standard mandated by the Administrative Procedure Act, Hyatt I, 625 F.3d at 1336.
III.

Bayer’s Claims

Bayer brings five (5) claims against Belmora. They
include: 1) unfair competition under § 43(A) of the Lanham Act; (2) false advertising under § 43(a) of the Lanham Act; (3) unfair competition under Cal.Bus. & Prof.
Code § 17200, et seq.; (4) false advertising under
Cal.Bus. & Prof. Code § 17500, et seq.; and (5) unfair
competition under the common law of California. The
Court finds that each of these claims is barred by the
applicable statute of limitations period for the reasons
stated below.

72a
Because the Lanham Act does not contain an express statute of limitations, the Court follows the traditional practice of borrowing the most analogous
statute of limitations from state law. In this case,
Bayer’s Complaint was originally filed in federal court
in California and was transferred to this district under
§ 1404(a). Transfers under § 1404(a) are merely accommodations to efficiency and convenience and do not affect substantive rights. Van Dusen v. Barrack, 376 U.S.
612 (1964). Accordingly, Bayer’s claims are governed by
California law.
The Court turns first to Bayer’s unfair competition
claim under § 43(a)(1)(a) (count I). The limitations period runs from the time the [claimant] knew or should
have known about its Lanham Act claims. See, e.g.,
Karl Storz Endoscopy America v. Surgical Tech, 285
F.3d 848, 857 (9th Cir. 2002). Courts in the Ninth Circuit are split, however, over which “comparable” California statute applies to claims brought under the
Lanham Act. One recent decision applied a three-year
limitation based on the analogy to fraud. Small Axe
Enters. v. Amscan, Inc., Case No. 16-CV-981, 2017 WL
1479236, at *4, 2017 U.S. Dist. LEXIS 62900, at *10
(S.D. Cal. Apr. 24, 2017). Other decisions apply California’s four-year period for state trademark infringement and unfair competition claims. See, e.g., Internet
Specialties W., Inc. v. Milon-DiGiorgio Enters., 559 F.3d
985, 990 n.2 (9th Cir. 2009).
Whether a three or four-year statute of limitations
is applied in this case is immaterial. That is because
Bayer’s filing of this action misses the statute of

73a
limitations by almost a decade. There are at least six
different dates that establish that Bayer knew or
should have known of its Lanham Act rights. These include:
•

The USPTO’s issuance of a suspension letter
on September 19, 2004 to Bayer’s predecessorin-interest citing Belmora’s earlier ’029 application;

•

On May 16, 2005, the USPTO mailed Bayer’s
predecessor-in-interest an office action refusal
of its ’157 Application, citing Belmora’s thenissued ’440 Registration for the FLANAX
mark.

•

On June 13, 2006 Bayer’s in-house counsel
was aware of Belmora’s use of the FLANAX
mark in commerce as noted in Bayer’s interrogatory responses;

•

In February 2009 the USPTO registered Belmora’s trademark for FLANAX;

•

Email’s between Bayer’s in-house counsel on
July 30, 2009; and

•

On August 19, 2009 there was a TTAB deposition of Jamie Belcastro, at some point before
which Bayer independently discovered a version of Exhibit B to their Complaint that contained the statements on which their Lanham
Act claims are premised.

The Bayer Complaint was filed more than four years
later then the time in which Bayer knew or should
have known about its claims. Count I fails.

74a
Bayer’s claim for false advertising under
§ 43(a)(1)(b) (count II) is also barred under the statute
of limitations. Federal courts apply California’s threeyear statute of limitations for fraud under Cal. Civ.
Prooc. Code § 338(d). See Baby Trend, Inc. v. Playtex
Prods., LLC, 2013 WL 4039451, 2013 U.S. Dist. LEXIS
113558 (C.D. Cal. 2013). For the same reasons set forth
above, Bayer’s second cause of action fails.
Turning to Bayer’s California state law and common law claims for unfair competition and false advertising (counts III, IV, V), the Court finds that these
claims fail. These claims are based on the same set of
facts as Bayer’s federal claims.
Bayer’s third cause of action seeks relief for unfair
competition under Cal. Bus. & Prof. Code § 17200. Under Cal. Bus. & Prof. Code § 17208, such an unfair competition claim is governed by a four-year statute of
limitations. Bayer waited far more than four years after receiving notice – legal, constructive or actual – before seeking relief under this statute.
Similarly, Bayer’s fourth cause of action, for false
advertising under Cal. Bus. & Prof. Code § 17500 is
also barred, being subject to a three-year statute of
limitations. See Free Kick Master LLC v. Apple Inc.,
2016 U.S. Dist. LEXIS 25478, at *22 (N.D. Cal. 2016).
Finally, while courts are in disagreement as to
whether California’s limitation period for common-law
unfair competition claims is two years or four years,
there is no dispute that any such claim accrued more

75a
than four years before Bayer filed its Complaint in
2014.
For these reasons, the Court finds that Bayer’s
claims fail.
IV.

Belmora’s Counterclaims

Belmora brings seven (7) counterclaims against
Bayer. They are: (1) Registered Trademark Infringement under §§ 15 and 33(b) of the Lanham Act, 15
U.S.C. §§ 1065 and 115(b); (2) Common Law Trademark Infringement; (3) Unfair Competition and False
Designation of Origin in violation of the Lanham Act
15 U.S.C. § 1125(a) and common law; (4) Importation
of Unauthorized Goods in violation of § 526 of the Tariff Act of 1930 (as amended, 19 U.S.C. § 1526); (5) Importation of Infringing Goods in violation of the
Lanham Act 15 U.S.C. § 1124; (6) Monopolization under Section 2 of the Sherman Act; and (7) Tortious Interference with Contract or Prospective Economic
Advantage. The Court finds that Bayer is entitled to
summary judgement on all of Belmora’s counterclaims.
Belmora’s first through fifth counterclaims –
for trademark infringement, unfair competition, and
Tariff Act violations – are based on the same set of
allegations – that Bayer allegedly facilitated and is responsible for the unlawful importation and sale of its
Mexican FLANAX in the United States.
To hold Bayer liable for trademark infringement or unfair competition (first, second, and third

76a
counterclaims), Belmora must show that Bayer used
FLANAX in a manner likely to cause consumer confusion. Belmora, 819 F.3d at 708.
To hold Bayer contributorily liable, Belmora must
show that Bayer intentionally induced others to sell
Bayer’s Mexican FLANAX in the U.S., or continued to
supply its product to someone whom it knew or had
reason to know was unlawfully selling it here. See Inwood Labs., Inc. v. Ives Labs., Inc., 456 U.S. 844, 854
(1982).
Belmora has not presented any evidence that
Bayer has offered Mexican FLANAX for sale in the
U.S., that it has induced others to sell the product in
the U.S., or that it has continued to supply the product
to a party with knowledge or reason to know that party
was selling it in the U.S. Belmora merely speculates
that Bayer must have facilitated the sale of its Mexican FLANAX because Bayer lawfully sells FLANAX in
Mexico and the product has made its way across the
border. Mere speculation is insufficient to survive a
motion for summary judgment. Counterclaims I, II,
and III fail.
The Court now turns to the fourth and fifth counterclaims. To prevail under § 526 of the Tariff Act
(fourth counterclaim), or § 1124 of the Lanham Act
(fifth counterclaim), Belmora must show that Bayer
imported foreign products bearing the FLANAX mark
without Belmora’s permission, or that Bayer knowingly or with willful blindness induced one or more
third parties to import Bayer’s Mexican FLANAX, or

77a
provided resources enabling them to do so. 19 U.S.C.
§ 1526; 15 U.S.C. § 1124.
As noted in the preceding section, Belmora has no
evidence linking Bayer to the importation of Mexican
FLANAX into the U.S. Belmora simply alleges without
any evidence regarding when, how, where, or what
Bayer allegedly imported, or to whom it provided assistance. Mere conjecture is insufficient to survive a
motion for summary judgment. Counts IV and V fail.
Belmora’s sixth counterclaim is for monopolization under Section 2 of the Sherman Act. This claim
revolves around Belmora’s inability to obtain a supply
of naproxen sodium liquidgels from Bionpharma, the
sole FDA-approved U.S. source. Belmora claims that
Bayer has monopoly power in the market for branded
naproxen sodium and asserted pressure on Bionpharma not to sell the liquidgels to Belmora. Based on
these allegations, Belmora asserts that Bayer has monopolized and maintained its monopoly in the market
for branded naproxen sodium in violation of Section 2.
To prevail on a claim for monopolization under
Section 2, a plaintiff must prove (1) the defendant’s
“possession of monopoly power in the relevant market,”
and (2) the defendant’s “willful acquisition or maintenance of that power as distinguished from growth or
development as a consequence of a superior product,
business acumen, or historic accident. United States v.
Grinnell Corp., 384 U.S. 563, 570-71 (1966); Cavalier
Telephone, LLC v. Verizon Va., Inc., 330 F.3d 176, 183
(4th Cir. 2003).

78a
Monopoly power is the “power to control prices or
exclude competition,” United States v. E.I. du Pont de
Nemours & Co., 351 U.S. 377, 391 (1956), and normally
requires the defendant to possess a market share of
70% or more. R.J. Reynolds Tobacco Co. v. Philip Morris
Inc., 199 F.Supp.2d 362, 394 (M.D.N.C. 2002), aff ’d, 67
F. App’x 810 (4th Cir. 2003) (per curiam). Thus, to prove
that the defendant possesses monopoly power, the
plaintiff must prove that there is a relevant market in
which they possess 70% or more market share. See,
Berlyn Inc. v. Gazette Newspapers, Inc., 73 F.App’x
576, 582 (4th Cir. 2003).
Defining markets for antitrust analysis is an extremely complex task. Berlyn, Inc, v. Gazette Newspapers, Inc., 223 F.Supp.2d 718, 727 (D.Md.2002),
aff ’d, 73 F.App’x 576 (4th Cir. 2003). It is beyond the
knowledge of a layperson to know whether a set of
products compete with each other in a single market.
That determination requires economic expertise. The
Fourth Circuit has recognized that the proponent of
an antitrust claim must present expert testimony to
establish its proposed market definition and that,
without such testimony, the claim fails for lack of competent evidence on an essential element. See, Military
Servs. Realty, Inc. v. Realty Consultants of Va, Ltd., 823
F.2d 829, 832 (4th Cir 1987) (affirming summary judgment where plaintiff ’s experts could not “adequately
identify the relevant market”).
Here, Belmora alleges that the relevant market
consists of “branded naproxen sodium.” It alleges that
this market only includes Bayer’s Aleve and Belmora’s

79a
FLANAX, and excludes branded non-naproxen sodium products. Belmora’s only economics expert, Dr.
Rausser, stated that his opinions do not include any
opinion about the identification of the relevant market
in this case. He also stated that he was not aware of
what definition of the relevant market Belmora offered
in its counterclaim. In the absence of expert testimony
establishing the relevant market, Count VI fails.
Belmora’s seventh counterclaim alleges tortious
interference with contract or prospective economic advantage. This claim rests on the same allegations as
the Section 2 claim that because Belmora could not
obtain naproxen sodium liquidgels from Bionpharma,
Belmora was unable to fill and had to cancel retail orders for FLANAX product.
To assert a claim for tortious interference with a
contract a party must (1) demonstrate the existence of
a business relationship or expectancy, with a probability of future economic benefit; (2) prove [the defendant’s] knowledge of the relationship or expectancy;
(3) show that it was reasonably certain that absent intentional misconduct, the claimant would have continued in the relationship or realized the expectancy; and
(4) show that it suffered damages from the interference. Commerce Funding Corp. v. Worldwide Security
Servs. Corp., 249 F.3d 204, 213 (4th Cir. 2001).
Count VII fails for a few reasons. First, there is no
admissible evidence that Belmora had “orders” for
FLANAX branded naproxen sodium liquidgels or a
reasonable expectation of receiving any. Belmora’s

80a
owner never had direct communications between Belmora and a prospective customer about orders, rather
mere conversations with middlemen. Second, there is
no evidence that Bayer knew about the supposed orders, or was aware of Belmora’s interest in entering the
naproxen sodium liquidgel category. Finally, there is no
evidence that Bayer used “improper methods” to interfere with Belmora’s prospective economic advantage.
Improper methods include “violations of statutes [or]
regulations,” and “violence, threats, or intimidation.”
Commerce Funding, F.3d at 214. There is simply no
evidence to adduce interference in this case. Claim VII
fails.
V.

TTAB Decision

On April 17, 2014, the TTAB ordered that Belmora’s FLANAX trademark registration be cancelled
based on misrepresentation of source in violation of
§ 14(3) of the Trademark Act. The Board made three
findings that were critical to its decision.
First, the Board found that “[Belmora] was aware
that the FLANAX trademark was in use in Mexico in
association with naproxen sodium-based analgesics
when it adopted the FLANAX mark in the United
States.” Ex. 8, p.22. Second, the Board found that Belmora copied Bayer’s Mexican FLANAX packaging.
Lastly, the Board found that “[Belmora’s] owner and
agents repeatedly invoked the reputation of [Bayer’s]
FLANAX mark when marketing [Belmora’s] FLANAX
products in the United States. Id. at 24.

81a
Belmora has not adduced any new evidence that
would require this Court to review the underlying evidence de novo. Belmora has not produced any credible
new evidence that allow this Court to find that Mr.
Belcastro was unaware of Bayer’s Mexican FLANAX
when he adopted the mark for his own company, that
the parties’ respective FLANAX packages did not actually look the way the Board said they did, or that the
numerous examples of Belmora and its agents attempting to use Bayer’s Mexican FLANAX goodwill
were never published or used. Because Belmora has
not offered any new evidence, and the Court finds that
the Board’s decision was not arbitrary, capricious, or
otherwise not in accordance with law, this Court affirms the TTAB decision.
VI.

Conclusion

For the reasons mentioned, the Court concludes
that Bayer’s claims against Belmora fail but the TTAB
decision is affirmed. Belmora’s counterclaims against
Bayer also fail. Summary judgement is granted for
both parties and this case will be dismissed. An appropriate order shall issue.
/s/ Claude M. Hilton
CLAUDE M. HILTON
UNITED STATES
DISTRICT JUDGE
Alexandria, Virginia
September 6, 2018

82a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
ALEXANDRIA DIVISION
BELMORA, LLC.,

)
)
Plaintiff,
)
v.
)
)
BAYER CONSUMER
)
CARE AG & BAYER
)
HEALTHCARE LLC,
)
Defendants-Consolidated ) Case No.
Plaintiffs,
) 1:14-cv-00847) GBL-JFA
v.
)
BELMORA, LLC,
)
JAMIE BELCASTRO,
)
& DOES 1-10, INCLUSIVE,
)
Consolidated Defendants. )
MEMORANDUM OPINION AND ORDER
(Filed Feb. 6, 2015)
THIS MATTER is before the Court on Belmora
LLC’s (“Belmora”) Motion to Dismiss Bayer Consumer
Care AG and Bayer Healthcare’s Complaint (“Motion
to Dismiss Complaint”) (Doc. 36), Belmora’s Motion to
Dismiss Bayer CC AG’s Counterclaim (“Motion to Dismiss Counterclaim”) (Doc. 45), and Belmora’s Motion
for Judgment on the Pleadings (Doc. 55). This case
arises from Bayer Consumer Care AG and Bayer
Healthcare’s (collectively “Bayer”) claims that Belmora’s

83a
FLANAX trademark should be cancelled because
Belmora deceives consumers into thinking that its
FLANAX brand of pain relief medicine is the same
FLANAX brand under which Bayer has sold pain relief
medicine in Mexico for decades. The Trademark Trial
and Appeal Board (“TTAB”) cancelled Belmora’s trademark. The parties seek review of that decision and
bring additional causes of action.
There are six issues before the Court. The first
issue is whether the Court should dismiss Count I of
Bayer’s Complaint, alleging that Belmora violated
Section 43(a)(1)(A) of the Lanham Act, 15 U.S.C.
§ 1125(a)(1)(A), which prohibits the false designation
of origin, because Bayer lacks standing to bring the
statutory cause of action. The second issue is whether
the Court should dismiss Count II of Bayer’s Complaint,
alleging that Belmora violated Section 43(a)(1)(B) of the
Lanham Act, 15 U.S.C. § 1125(a)(1)(B), which prohibits
false advertising, because Bayer lacks standing to
bring the statutory cause of action. The third issue is
whether the Court should dismiss Bayer’s California
state law claims. The fourth issue is whether the Court
should dismiss Bayer’s Article 6bis counterclaim and
affirm the TTAB’s dismissal of Bayer’s Article 6bis
claim because Section 44(b) of the Lanham Act, 15
U.S.C. § 1126(b), which implements the Paris Convention, does not protect foreign mark owners beyond the
protections already afforded by the Lanham Act. The
fifth issue is whether the Court should grant Belmora’s
Motion for Judgment on the Pleadings and affirm the
TTAB’s holding that Bayer had standing to bring a
misrepresentation of source action under Section 14(3)

84a
of the Lanham Act, 15 U.S.C. § 1064(3), because Bayer
is not within the class of plaintiffs Congress sought to
protect under Section 14(3). The sixth issue is whether
the Court should grant Belmora’s Motion for Judgment
on the Pleadings and affirm the TTAB’s holding that
Belmora misrepresented the source of FLANAX under
Section 14(3) because there is a use requirement in a
misrepresentation of source action.
This may be a case of first impression which presents novel questions about the reach of the Lanham
Act. Belmora’s FLANAX, trademarked and sold in the
United States, has a similar trade dress to Bayer’s
FLANAX and is marketed in a way that capitalizes
on the goodwill of Bayer’s FLANAX, which is trademarked and sold in Mexico. The Court has grappled
with whether Belmora’s FLANAX mark deceives the
public in a manner prohibited by the Lanham Act. The
issues in this case can be distilled into one single question: Does the Lanham Act allow the owner of a foreign
mark that is not registered in the United States and
further has never used the mark in United States
commerce to assert priority rights over a mark that is
registered in the United States by another party and
used in United States commerce? The answer is no.
Accordingly, the TTAB’s decision cancelling the registration of Belmora’s FLANAX mark is REVERSED
and Belmora’s Motion to Dismiss Complaint, Motion to
Dismiss Bayer’s Counterclaim, and Motion for Judgment on the Pleadings are GRANTED.
The Court GRANTS Belmora’s Motion to Dismiss
Complaint for two reasons. First, the Court GRANTS

85a
Belmora’s Motion to Dismiss the false designation of
origin claim because Bayer lacks standing to sue under
Section 43(a)(1)(A) of the Lanham Act pursuant to
Lexmark Int’l, Inc. v. Static Control Components, Inc.,
134 S. Ct. 1377 (2014), as Bayer’s interests do not fall
within the zone of interests Congress intended to protect under Section 43(a)(1)(A) and Bayer did not sufficiently plead economic injury or an injury to business
reputation proximately caused by Belmora’s use of the
FLANAX mark. Second, the Court GRANTS Belmora’s
Motion to Dismiss the false advertising claim because
Bayer lacks standing to sue under Section 43(a)(1)(B)
of the Lanham Act as Bayer did not sufficiently plead
an injury to commercial interest in sales or business
reputation proximately caused by Belmora’s alleged
misrepresentations as required by Lexmark. Furthermore, the Court DISMISSES Bayer’s state law claims
because they have no federal claim to attach to as both
of the federal claims are dismissed.
The Court GRANTS Belmora’s Motion to Dismiss
Bayer’s Counterclaim and AFFIRMS the TTAB’s dismissal of Bayer’s Article 6bis claim because Bayer’s
claim that it can bring an action under Article 6bis
against Belmora is implausible as the Paris Convention is not self-executing and Sections 44(b) and (h) of
the Lanham Act, 15 U.S.C. § 1126(b) and (h), do not
make Article 6bis of the Paris Convention a ground for
contesting trademark registration.
The Court GRANTS Belmora’s Motion for Judgment on the Pleadings for two reasons. First, the Court
GRANTS Belmora’s Motion for Judgment on the

86a
Pleadings and REVERSES the TTAB’s holding that
Bayer had standing to seek cancellation of the registration of Belmora’s FLANAX mark under Section
14(3) because Bayer lacks standing to sue pursuant to
Lexmark as Bayer’s interests do not fall within the
zone of interests Congress intended to protect under
Section 14(3) and Bayer did not sufficiently plead economic injury or an injury to business reputation proximately caused by Belmora’s use of the FLANAX mark.
Second, the Court GRANTS Belmora’s Motion for
Judgment on the Pleadings and REVERSES the
TTAB’s holding that Belmora was using the FLANAX
mark to misrepresent source because Section 14(3) requires use of the mark in United States commerce and
Bayer did not use the FLANAX mark in the United
States.
I.

BACKGROUND

Belmora is a Virginia limited liability company
formed in 2002. It is owned and operated by Jamie
Belcastro. (Doc. 1 ¶¶ 9–10.) Belmora operates in the
United States and sells over-the-counter pain relief
products under the FLANAX brand name. (Id. ¶ 10.)
FLANAX was originally an “analgesic tablet that contained naproxen sodium as its active ingredient,” but
the brand has since grown to encompass liniment and
lozenges. (Id. ¶¶ 11–12.) On October 6, 2003, Belmora
filed an application with the United States Patent and
Trademark Office (“PTO”) to register the FLANAX
mark for the analgesic tablets. (Id. ¶ 13.) This application was published for opposition on August 3, 2004,

87a
and the PTO issued the registration for the FLANAX
mark on February 1, 2005. (Id. ¶¶ 14–15.) Belmora has
used the FLANAX mark in interstate commerce in the
United States since March 1, 2004. (Id. ¶ 17.)
Bayer Consumer Care AG, a Swiss corporation,
Bayer Healthcare LLC, a Delaware limited liability
company, and predecessors have sold analgesics in
Mexico under the Mexican-registered trademark
FLANAX since the 1970s. Bayer Compl. ¶¶ 1–2, 9, 14.
Bayer does not possess a trademark for FLANAX in
the United States. (Id. ¶¶ 26–31.) Bayer attempted to
register FLANAX in the United States in 2004 but the
PTO rejected the application based on Belmora’s
preexisting efforts to register the mark. (Doc. 35
¶¶ 32–36.) Bayer has sold hundreds of millions of dollars of FLANAX products in Mexico. Bayer Compl.
¶ 11. Bayer promotes FLANAX in Mexico, including in
major cities near the United States-Mexico border, but
has never marketed or sold FLANAX in the United
States. (Id. ¶ 12; Doc. 35 ¶¶ 56–57.) Bayer has never
received approval from the FDA through a New Drug
Application to market or sell FLANAX in the United
States. (Doc. 35 ¶¶ 53–61.)
Belmora’s early packaging of FLANAX was “virtually identical” to that of Bayer’s FLANAX, including a
similar color scheme, font size, and typeface.1 Bayer
Compl. ¶¶ 21–25. Belmora has since changed its
The TTAB found that Belmora copied the logo and trade
dress of Bayer’s FLANAX. See Bayer Consumer Care AG v. Belmora LLC, 110 U.S.P.Q.2d 1623, 2014 WL 1679146, at *11
(T.T.A.B. 2014).
1

88a
packaging, but this modified scheme remains similar
to that of Bayer’s FLANAX. (Id. ¶ 26.) Belmora’s marketing messages often suggested a historical connection between its FLANAX and Latino customers. (Id.
¶¶ 30–35.)
On June 29, 2007, Bayer petitioned the TTAB to
cancel the registration of Belmora’s FLANAX mark.
(Doc. 37 at 2.) After several years of litigation, on April
14, 2014, the TTAB issued a ruling canceling Belmora’s
FLANAX registration pursuant to Section 14(3) of the
Lanham Act, 15 U.S.C. § 1064(3). Bayer Consumer
Care AG v. Belmora LLC, 110 U.S.P.Q.2d 1623, 2014
WL 1679146 (T.T.A.B. 2014). On June 3, 2014, Belmora
filed a Notice of Appeal to the Federal Circuit with the
TTAB; however, on June 13, 2014, Bayer filed its Notice
of Election to Have Review by Civil Action with the
TTAB. (Doc. 37 at 3–4.)
On June 6, 2014, Bayer sued Belmora in the
United States District Court for the Southern District
of California. See Bayer Consumer Care AG v. Belmora,
LLC, No. 3:14-cv-01395 (S.D. Cal.). Shortly thereafter,
Bayer filed a notice of voluntary dismissal because “the
case was filed in the wrong district.” (Doc. 37 at 3 n.2.)
On June 9, 2014, Bayer refiled its complaint in the
Central District of California. See Bayer Consumer
Care AG v. Belmora, LLC, No. 2:14-cv-04433 (C.D.
Cal.). On June 12, 2014, the United States District
Court for the Central District of California issued an
order to show cause as to why the case should not be
transferred either to the District of New Jersey or the
Eastern District of Virginia. (Doc. 37 at 3–4.) The

89a
Central District of California case was eventually
transferred and consolidated with the present action.
(Id. at 4.)
II.

DISCUSSION

A. Standards of Review
1. Motion to Dismiss
Federal Rule of Civil Procedure 12(b)(6) enables a
defendant to move for dismissal by challenging the
sufficiency of the plaintiff ’s complaint. FED. R. CIV. P.
12(b)(6). A Rule 12(b)(6) motion should be granted
where the plaintiff has failed to “state a plausible claim
for relief ” under Rule 8(a). Walters v. McMahen, 684
F.3d 435, 439 (4th Cir. 2012) (internal quotation marks
omitted) (quoting Ashcroft v. Iqbal, 556 U.S. 662, 679
(2009)). To be facially plausible, a claim must contain
“factual content that allows the court to draw the reasonable inference that the defendant is liable for the
misconduct alleged.” Clatterbuck v. City of Charlottesville, 708 F.3d 549, 554 (4th Cir. 2013) (quoting
Iqbal, 556 U.S. at 678). To survive a Rule 12(b)(6) motion, a complaint must contain sufficient factual allegations, which if taken as true, “raise a right to relief
above the speculative level” and “nudg[e] [the] claims
across the line from conceivable to plausible.” Vitol,
S.A. v. Primerose Shipping Co., 708 F.3d 527, 543 (4th
Cir. 2013) (quoting Bell Atl. Corp. v. Twombly, 550 U.S.
544, 555, 570 (2007)).
The requirement for plausibility does not mandate
a showing of probability but merely that there is more

90a
than a possibility of the defendant’s unlawful acts.
Francis v. Giacomelli, 588 F.3d 186, 193 (4th Cir. 2009)
(quoting Iqbal, 556 U.S. at 678). As a result, a complaint must contain more than “naked assertions” and
“unadorned conclusory allegations” and requires some
“factual enhancement” in order to be sufficient. Id. (citing Iqbal, 556 U.S. at 678; Twombly, 550 U.S. at 557).
In addition to the complaint, the court will also examine “documents incorporated into the complaint by reference,” as well as those matters properly subject to
judicial notice. Clatterbuck, 708 F.3d at 557 (citations
omitted); Matrix Capital Mgmt. Fund, LP v. BearingPoint, Inc., 576 F.3d 172, 176 (4th Cir. 2009) (quoting
Tellabs, Inc. v. Makor Issues & Rights, Ltd., 551 U.S.
308, 322 (2007)).
A court’s Rule 12(b)(6) review involves separating
factual allegations from legal conclusions. Burnette v.
Fahey, 687 F.3d 171, 180 (4th Cir. 2012). In considering
a Rule 12(b)(6) motion, a court must give all reasonable
inferences to the plaintiff and accept all factual allegations as true. E.I. du Pont de Nemours & Co. v. Kolon
Indus., Inc., 637 F.3d 435, 440 (4th Cir. 2011) (citations
omitted). Though a court must accept the truthfulness
of all factual allegations, it does not have to accept the
veracity of bare legal conclusions. Burnette, 687 F.3d at
180 (citing Aziz v. Alcolac, Inc., 658 F.3d 388, 391 (4th
Cir. 2011)).
A court must grant a Rule 12(b)(6) motion where
a complaint fails to provide sufficient nonconclusory
factual allegations to allow the court to draw the
reasonable inference of the defendant’s liability.

91a
Giacomelli, 588 F.3d at 196–97 (citing Iqbal, 556 U.S.
at 678–79; Gooden v. Howard County, 954 F.2d 960,
969–70 (4th Cir. 1992) (en banc)).
2. Motion for Judgment on the Pleadings
Rule 12(c) provides that, “After the pleadings are
closed—but early enough not to delay trial—a party
may move for judgment on the pleadings.” FED. R. CIV.
P. 12(c). “A Rule 12(c) motion tests only the sufficiency
of the complaint and does not resolve the merits of the
plaintiff ’s claims or any disputes of fact.” Drager v.
PLIVA USA, Inc., 741 F.3d 470, 474 (4th Cir. 2014) (citing Butler v. United States, 702 F.3d 749, 752 (4th Cir.
2012)). “A motion for judgment on the pleadings under
Rule 12(c) is assessed under the same standards as a
motion to dismiss under Rule 12(b)(6).” Occupy Columbia v. Haley, 738 F.3d 107, 115 (4th Cir. 2013) (citing
Edwards v. City of Goldsboro, 178 F.3d 231, 243 (4th
Cir. 1999)). A court must accept all well-pleaded allegations in the complaint as true and draw all reasonable inferences in the plaintiff ’s favor. See Massey v.
Ojaniit, 759 F.3d 343, 353 (4th Cir. 2014) (citations
omitted). However, a court is not required to “accept
allegations that represent unwarranted inferences,
unreasonable conclusions or arguments, or that contradict matters properly subject to judicial notice or by
exhibit.” Id. (internal quotation marks omitted) (citing
Blankenship v. Manchin, 471 F.3d 523, 529 (4th Cir.
2006)).

92a
3. De Novo Review of TTAB Decision
15 U.S.C. § 1071(b)(1) “permits a party in a trademark suit to initiate a civil action in the place of an
appeal of the TTAB’s determination to the Federal Circuit.” Swatch AG v. Beehive Wholesale, LLC, 739 F.3d
150, 155 (4th Cir. 2014). “In a § 1071(b) action, the district court reviews the record de novo and acts as the
finder of fact. The district court has authority independent of the PTO to grant or cancel registrations and
to decide any related matters such as infringement
and unfair competition claims.” Id. (citing 15 U.S.C.
§ 1071(b)(1); Durox Co. v. Duron Paint Mfg. Co., 320
F.2d 882, 883–84 (4th Cir. 1963)).
B. Analysis
The Court GRANTS Belmora’s Motion to Dismiss
Complaint for two reasons. First, the Court GRANTS
Belmora’s Motion to Dismiss the false designation of
origin claim because Bayer lacks standing to sue under
Section 43(a)(1)(A) of the Lanham Act, 15 U.S.C.
§ 1125(a)(1)(A), pursuant to Lexmark Int’l, Inc. v. Static
Control Components, Inc., 134 S. Ct. 1377 (2014), as
Bayer’s interests do not fall within the zone of interests
Congress intended to protect under Section 43(a)(1)(A)
and Bayer did not sufficiently plead economic injury or
an injury to business reputation proximately caused
by Belmora’s use of the FLANAX mark. Second, the
Court GRANTS Belmora’s Motion to Dismiss the false
advertising claim because Bayer lacks standing to sue
under Section 43(a)(1)(B) of the Lanham Act, 15 U.S.C.

93a
§ 1125(a)(1)(B), as Bayer did not sufficiently plead an
injury to commercial interest in sales or business reputation proximately caused by Belmora’s alleged misrepresentations as required by Lexmark. Furthermore,
the Court DISMISSES Bayer’s state law claims because they have no federal claim to attach to as both of
the federal claims are dismissed.
The Court GRANTS Belmora’s Motion to Dismiss
Bayer’s Counterclaim and AFFIRMS the TTAB’s dismissal of Bayer’s Article 6bis claim because Bayer’s
claim that it can bring an action under Article 6bis
against Belmora is implausible as the Paris Convention is not self-executing and Sections 44(b) and (h) of
the Lanham Act, 15 U.S.C. § 1126(b) and (h), do not
make Article 6bis of the Paris Convention a ground for
contesting trademark registration.
The Court GRANTS Belmora’s Motion for Judgment on the Pleadings for two reasons. First, the Court
GRANTS Belmora’s Motion for Judgment on the
Pleadings and REVERSES the TTAB’s holding that
Bayer had standing to seek cancellation of the registration of Belmora’s FLANAX mark under Section
14(3) of the Lanham Act, 15 U.S.C. § 1064(3), because
Bayer lacks standing to sue pursuant to Lexmark as
Bayer’s interests do not fall within the zone of interests
Congress intended to protect under Section 14(3) and
Bayer did not sufficiently plead economic injury or an
injury to business reputation proximately caused by
Belmora’s use of the FLANAX mark. Second, the Court
GRANTS Belmora’s Motion for Judgment on the
Pleadings and REVERSES the TTAB’s holding that

94a
Belmora was using the FLANAX mark to misrepresent
source because Section 14(3) requires use of the mark
in United States commerce and Bayer did not use the
FLANAX mark in the United States.
A. False Designation of Origin
The Court GRANTS Belmora’s Motion to Dismiss
the false designation of origin claim because Bayer
lacks standing to sue under Section 43(a)(1)(A) of the
Lanham Act, 15 U.S.C. § 1125(a)(1)(A). The Supreme
Court’s decision in Lexmark Int’l, Inc. v. Static Control
Components, Inc., 134 S. Ct. 1377 (2014), provides this
Court with guidance in determining whether a plaintiff has standing to bring a claim under the Lanham
Act. In Lexmark, supplier Static Control alleged that
manufacturer Lexmark engaged in false advertising in
violation of the Lanham Act. Static Control supplied
remanufacturers with a microchip that allowed them
to refurbish and resell Lexmark toner cartridges. Id. at
1383. Static Control claimed that Lexmark “disparaged its business and products by asserting that
Static Control’s business was illegal,” and that it designed, manufactured, and sold microchips whose
only use/purpose was to refurbish Lexmark toner cartridges. Id. at 1393–94. The Court held that Static Control had standing because it “alleged an adequate basis
to proceed under § 1125(a).” Id. at 1395 (emphasis in
original). In so doing, the Court created a two-pronged
test to determine whether a plaintiff has standing to
bring a statutory cause of action.

95a
In Lexmark, the Supreme Court “establish[ed] the
zone-of-interests test and proximate causality requirement as the proper analysis for analyzing standing to
allege a claim under the Lanham Act.” Syngenta
Seeds, Inc. v. Bunge N. Am., Inc., 773 F.3d 58, 64 (8th
Cir. 2014). First, the plaintiff ’s allegations must
demonstrate that the plaintiff is in the statute’s zone
of interests. Second, the complaint must allege injuries
tying the harm suffered to the defendant’s conduct.
Under the zone-of-interests test, a statutory cause
of action extends only to plaintiffs whose interests fall
within the zone of interests protected by the law invoked. This test is not “especially demanding.”
Lexmark, 134 S. Ct. at 1389 (citations and internal
quotation marks omitted). When applying the zone of
interests test, the plaintiff receives the “benefit of any
doubt.” Id. (emphasis added). Furthermore, the zoneof-interests test “forecloses suit only when a plaintiff ’s
interests are so marginally related to or inconsistent
with the purposes implicit in the statute that it cannot
reasonably be assumed that Congress authorized that
plaintiff to sue.” Id. (citations and internal quotation
marks omitted). Lost sales and damage to business
reputation are “injuries to precisely the sorts of commercial interests the [Lanham] Act protects.” Id. at
1393; see also Tire Eng’g & Distrib., LLC v. Shandong
Linglong Rubber Co., 682 F.3d 292, 310 (4th Cir. 2012)
(quoting Nintendo of Am., Inc. v. Aeropower Co., 34 F.3d
246, 250 (4th Cir. 1994) (“[W]e have reasoned that the
archetypal injury contemplated by the Act is harm to

96a
the plaintiff ’s ‘trade reputation in United States markets.’ ”)).
The proximate cause requirement requires a
plaintiff bringing a claim under Section 43(a) to show
“economic or reputational injury flowing directly” from
the defendant’s alleged violation of the statute.
Lexmark, 134 S. Ct. at 1391. The Supreme Court identified injuries flowing from an audience’s belief in disparaging remarks and equating a product with an
inferior product as examples of reputational harm. Id.
at 1393 (citing McNeilab, Inc. v. Am. Home Prods. Corp.,
848 F.2d 34, 38 (2d Cir. 1988) (disparaging statements);
Camel Hair & Cashmere Inst. of Am., Inc. v. Associated
Dry Goods Corp., 799 F.2d 6, 7–8, 11–12 (1st Cir. 1986)
(equating with inferior product); PPX Enters., Inc. v.
Audiofidelity, Inc., 746 F.2d 120, 122, 125 (2d Cir. 1984)
(same)); see also PBM Prods., LLC v. Mead Johnson &
Co., 639 F.3d 111, 127 (4th Cir. 2011) (observing that a
mailer deterring consumers from using a manufacturer’s product damaged the manufacturer’s reputation); Ga. Pac. Consumer Prods., LP v. Von Drehle Corp.,
618 F.3d 441, 453 (4th Cir. 2010) (citing Polo Fashions,
Inc. v. Craftex, Inc., 816 F.2d 145 (4th Cir. 1987))
(“[P]laintiffs reputation would suffer damage if the
shirt appeared to be of poor quality.”).
1. Zone of Interests
The Court holds that Bayer’s interests do not fall
within the zone of interests Congress intended to protect under Section 43(a) of the Lanham Act because

97a
Bayer does not possess a protectable interest in the
FLANAX mark in the United States. Whether a plaintiff comes within “the zone of interests” is an issue that
requires the Court to interpret the statute to determine “whether a legislatively conferred cause of action
encompasses a particular plaintiff ’s claim.” Lexmark,
134 S. Ct. at 1387 (citations and internal quotation
marks omitted). Section 43(a)(1)(A) imposes civil liability on:
[a]ny person who, on or in connection with any
goods or services, . . . uses in commerce any
word . . . [or] name . . . , or any false designation of origin, false or misleading description
of fact, or false or misleading representation
of fact, which is likely to cause confusion, or to
cause mistake, or to deceive as to the affiliation, connection, or association of such person
with another person, or as to the origin, sponsorship, or approval of his or her goods, services, or commercial activities by another
person.
15 U.S.C. § 1125(a)(1)(A). Congress described the purposes of the Lanham Act as follows:
The intent of this chapter is to regulate commerce within the control of Congress by making actionable the deceptive and misleading
use of marks in such commerce; to protect
registered marks used in such commerce from
interference by State, or territorial legislation; to protect persons engaged in such commerce against unfair competition; to prevent
fraud and deception in such commerce by

98a
the use of reproductions, copies, counterfeits,
or colorable imitations of registered marks;
and to provide rights and remedies stipulated by treaties and conventions respecting
trademarks, trade names, and unfair competition entered into between the United States
and foreign nations.
Lanham Act § 45, 15 U.S.C. § 1127. The Supreme Court
observed that “[m]ost of the enumerated purposes are
relevant to false-association cases.”2 Lexmark, 134
S. Ct. at 1389. The Supreme Court has previously explained that the Lanham Act “provides national protection of trademarks in order to secure to the owner of
the mark the goodwill of his business and to protect the
ability of consumers to distinguish among competing
producers.” Park ‘N Fly, Inc. v. Dollar Park & Fly, Inc.,
469 U.S. 189, 198 (1985) (emphasis added).
Congress, the Fourth Circuit, and the Supreme
Court have all recognized that a key purpose of the
Lanham Act is to protect the interests of those with a
protectable interest in a mark. See 15 U.S.C. § 1127;
Park ‘N Fly, 469 U.S. at 198; Am. Petroleum Inst. v.
Cooper, 718 F.3d 347, 359 (4th Cir. 2013); Mobil Oil
Corp. v. Va. Gasoline Marketers & Auto. Repair Ass’n,
Inc., 34 F.3d 220, 226 (4th Cir. 1994). Furthermore, in
In Lexmark, the Supreme Court referred to 15 U.S.C.
§ 1125(a)(1)(A) actions as “false association” cases. The Fourth
Circuit refers to these actions as “false designation of origin”
cases. See, e.g., Universal Furniture Int’l, Inc. v. Collezione Europa USA, Inc., 618 F.3d 417 (4th Cir. 2010); Lamparello v. Falwell, 420 F.3d 309 (4th Cir. 2005). This Court follows the lead of
our circuit and uses the term “false designation of origin.”
2

99a
order to prevail under a false designation of origin
cause of action, the trademark holder must prove:
(1) that it possesses a mark; (2) that the [opposing party] used the mark; (3) that the [opposing party’s] use of the mark occurred “in
commerce”; (4) that the [opposing party] used
the mark “in connection with the sale, offering
for sale, distribution, or advertising” of goods
or services; and (5) that the [opposing party]
used the mark in a manner likely to confuse
consumers.
Lamparello v. Falwell, 420 F.3d 309, 313 (4th Cir. 2005)
(emphasis added); Lone Star Steakhouse & Saloon, Inc.
v. Alpha of Va., 43 F.3d 922 (4th Cir. 1995) (noting that
a plaintiff must first prove it has a protectable mark in
prevail in a Section 43(a) claim).
The Court holds that Bayer does not possess a
protectable interest in the FLANAX mark. Section
43(a)(1)(A) of the Lanham Act protects “qualifying” unregistered trademarks. Two Pesos, Inc. v. Taco Cabana,
Inc., 505 U.S. 763, 768 (1992); S. REP. NO. 100-515, at
40 (1988), 1988 U.S.C.C.A.N. 5577, 5603 (explaining
that the aim of the 1988 amendments to the Act was to
extend the protections given to registered marks under
Section 43(a) to unregistered marks). However, that
unregistered mark must be used in commerce in the
United States. See Two Pesos, 505 U.S. at 768 (citing 15
U.S.C. § 1127); Int’l Bancorp, LLC v. Societe des Bains
de Mer et du Cercle des Estrangers a Monaco, 329 F.3d
359, 363–64 (4th Cir. 2003); Ale House Mgmt., Inc. v.
Raleigh Ale House, Inc., 205 F.3d 137, 140 (4th Cir.

100a
2000). Here, Bayer failed to plead facts showing that it
used the FLANAX mark in commerce in United States.
See Bayer Compl. ¶¶ 9, 43 (explaining that Bayer
Consumer Care AG has a Mexican trademark for
FLANAX); (Doc. 35 ¶ 26) (“Bayer admits that Bayer
Healthcare LLC does not own any trademark rights for
the mark FLANAX in any country.” (emphasis added)).
Consequently, the Court holds that Bayer does not possess a protectable interest in the mark.
Possession of a protectable interest in a trademark
is a dispositive issue in false designation of origin
claims and Bayer lacks this key element. After reviewing Congress’ statutory pronouncement regarding the
purposes of the Lanham Act, as well as both Fourth
Circuit and Supreme Court case law analyzing the Act,
the Court holds that Bayer is not “within the class of
plaintiffs whom Congress has authorized to sue under”
Section 43(a)(1)(A) of the Lanham Act, 15 U.S.C.
§ 1125(a)(1)(A), for false designation of origin because
it does not own a protectable interest in the FLANAX
mark in the United States. Lexmark, 134 S. Ct. at
1387. Because Bayer is not within the class of plaintiffs
Congress sought to protect under Section 43(a)(1)(A),
the Court holds that Bayer fails the zone-of-interests
test.
2. Proximate Cause
Even if Bayer had satisfied the zone-of-interests
test prong, the Court finds that Bayer failed to sufficiently plead facts showing that Belmora’s alleged

101a
violation of Section 43(a)(1)(A) was the proximate
cause of Bayer’s economic or reputational injury.
a. Economic Injury
First, the Court finds that Bayer failed to sufficiently plead facts showing that Belmora’s acts were
the proximate cause of any economic injury. Although
never explicitly stated in its Complaint, Bayer makes
several allegations suggesting that it lost sales in the
United States as it was not able to convert immigrating Mexican FLANAX consumers to American consumers of ALEVE, Bayer’s American counterpart to its
Mexican FLANAX brand. See, e.g., Bayer Compl.
¶¶ 14–17.
It must again be emphasized that a core purpose
of the Lanham Act is to “help assure a trademark’s
owner that it will reap the financial and reputational
rewards associated with having a desirable name or
product.” Tire Eng’g & Distrib., LLC v. Shandong
Linglong Rubber Co., 682 F.3d 292, 310 (4th Cir. 2012)
(citation and internal quotation marks omitted).
Bayer’s argument that it suffered cognizable economic
loss under the Lanham Act because it could not convert
immigrating consumers from its Mexican-trademarked brand of FLANAX to its United States-trademarked brand of ALEVE would require the Court to
extend Lanham Act protections to an international
mark that was not used in United States commerce.
Doing so would run contrary to the purposes of the
Lanham Act as the economic losses the Lanham Act

102a
seeks to prevent are those emanating from infringement of a mark protected in the United States. See id.;
Synergistic Int’l, LLC v. Korman, 470 F.3d 162, 167 n.3
(4th Cir. 2006); Int’l Bancorp, LLC v. Societe des Bains
de Mer et du Cercle des Estrangers a Monaco, 329 F.3d
359, 363–66 (4th Cir. 2003) (affording Lanham Act protections to a foreign mark that was used in United
States commerce).
There are two exceptions to this general rule, neither of which have been adopted by the Fourth Circuit.
First, there is the famous marks doctrine. In De Beers
LV Trademark Ltd. v. DeBeers Diamond Syndicate,
Inc., the district court described the famous marks doctrine as follows:
The famous marks doctrine is a controversial
common-law exception to the principle that
the use of a mark overseas cannot form the
basis for a holding of priority trademark use.
Under the doctrine, a foreign mark is protectable despite its lack of use in the United
States where the mark is so well known or famous as to give rise to a risk of consumer confusion if the mark is used subsequently by
someone else in the domestic marketplace.
440 F. Supp. 2d 249, 269 (S.D.N.Y. 2006) (citations and
internal quotation marks omitted). The Fourth Circuit
has not yet recognized the famous marks doctrine and
appears inclined to reject its application.3 See Int’l
The Ninth Circuit is the only circuit court that has recognized the famous marks doctrine. See Grupo Gigante SA De CV v.
Dallo & Co., 391 F.3d 1088 (9th Cir. 2004).
3

103a
Bancorp, 329 F.3d at 389 n.9 (Motz, J., dissenting);
Maruti.com v. Maruti Udyog Ltd., 447 F. Supp. 2d 494,
500 (D. Md. 2006). Consequently, the Court holds that
it does not apply.
Second, there is the diversion-of-sales theory. The
diversion-of-sales theory allows extraterritorial conduct
to be brought under the purview of the Lanham Act if
courts find a significant effect on United States commerce as sales to foreign consumers may jeopardize
the income of an American company. See McBee v.
Delica Co., 417 F.3d 107, 126 (1st Cir. 2005). The diversion-of-sales theory is inapplicable here because: (1)
the Fourth Circuit has not recognized the diversion-ofsales theory; and (2) even if it did, Belmora is selling
products under the FLANAX mark to consumers in the
United States and not foreign consumers—thus the extraterritorial application of the Lanham Act in that
sense is not at issue.4 See Tire Eng’g & Distrib., LLC v.
Shandong Linglong Rubber Co., 682 F.3d 292, 310–11
(4th Cir. 2012).
Because neither exception to the general rule regarding the economic losses suffered by the person or
entity with a protectable interest in a trademark
There are several instances where courts have considered
sales diverted from American companies in foreign countries in
determining whether American commerce was affected by alleged
trademark infringement. See, e.g., Totalplan Corp. of Am. v. Colborne, 14 F.3d 824 (2d Cir. 1994); Am. Rice, Inc. v. Ark. Rice Growers Coop. Ass’n, 701 F.2d 408 (5th Cir. 1983). However, those
cases are easily distinguished from this case as the plaintiffs
there owned United States trademarks while Bayer does not. See
Totalplan, 14 F.3d at 826; Am. Rice, 701 F.2d at 411.
4

104a
applies, the Court expressly declines to find that the
loss of potential sales to immigrating consumers is the
type of economic loss recognized by the Lanham Act
as they are speculative. See Natural Answers, Inc. v.
SmithKline Beecham Corp., 529 F.3d 1325, 1332 (11th
Cir. 2008) (declaring as speculative allegations that defendant’s conduct “might” cause the value of plaintiff ’s
mark to weaken in the future if plaintiff were to reintroduce the mark into the market); Time Warner Cable,
Inc. v. DIRECTV, Inc., 497 F.3d 144, 162 (2d Cir. 2007)
(“[S]ome indication of actual injury and causation is
necessary to satisfy Lanham Act standing requirements and to ensure the plaintiffs injury is not speculative.” (internal citations and quotation marks
omitted)); Brother Records, Inc. v. Jardine, 318 F.3d
900, 910 (9th Cir. 2003) (stating that speculative damages are not sufficient to state claim under Lanham
Act), overruled on other grounds by Toyota Motor Sales,
U.S.A., Inc. v. Tabari, 610 F.3d 1171 (9th Cir. 2010);
Joint Stock Soc’y v. UDV N. Am., Inc., 266 F.3d 164, 184
(3d Cir. 2001) (finding that alleged damages—“the
profits that Joint Stock would have made if it had sold
its vodka in the United States without using the
Smirnov name and had not faced the defendants’ allegedly false designation of origin and false advertising”—were “extremely speculative” and were thus not
cognizable under the Lanham Act). Accordingly, because Bayer did not plead sufficient facts showing that
it suffered an economic loss cognizable under the Lanham Act, the Court finds that Bayer failed to sufficiently plead facts showing that Belmora’s acts were
the proximate cause of any cognizable economic injury.

105a
b. Reputational Injury
Second, the Court finds that Bayer failed to sufficiently plead facts showing that Belmora’s acts were
the proximate cause of any cognizable injury to its reputation. Mere confusion by itself does not amount to
reputational injury—there must also be evidence of
harm resulting from the use of the allegedly infringing
product.5 See Louis Vuitton Malletier S.A. v. Haute
Diggity Dog, LLC, 507 F.3d 252, 268 (4th Cir. 2007)
(concluding that there was no evidence in the record
demonstrating that the reputation of LOUIS VUITTON’s mark was harmed because there was no
In trademark infringement cases, a plaintiff must demonstrate both that they have a valid and protectable trademark and
that that the defendant’s use of a “reproduction, counterfeit, copy,
or colorable imitation” thereof creates a likelihood of confusion.
See 15 U.S.C. § 1114(1); Swatch AG v. Beehive Wholesale, LLC,
739 F.3d 150, 158 (4th Cir. 2014) (citing Petro Stopping Ctrs., L.P.
v. James River Petroleum, Inc., 130 F.3d 88, 91 (4th Cir. 1997)).
In cases like this case, that confusion/likelihood of confusion exists is an inherent prerequisite in determining whether a party’s
reputation has been harmed. Indeed, it would be illogical for a
mark holder to claim that its reputation was harmed by the acts
of another business if there was not any potential confusion due
to the use of the marks. See Swatch, 739 F.3d at 158 (“A likelihood
of confusion exists between two marks if the defendant’s actual
practice is likely to produce confusion in the minds of consumers
about the origin of the goods or services in question.” (emphasis
added) (citations and internal quotation marks omitted)).
What Haute Diggity Dog and Beacon Mutual represent is the
idea that for a court to find that a party’s reputation has been
harmed, there must be some showing of something about the
alleged infringer’s use of a mark other than confusion, be it blatantly negative or deleterious, such that a mark owner’s business
or reputation would be harmed as a result of such use.
5

106a
evidence that any dogs choked on a “Chewy Vuiton” toy
made by alleged-infringer Haute Diggity Dog); Beacon
Mut. Ins. Co. v. OneBeacon Ins. Grp., 376 F.3d 8, 17 (1st
Cir. 2004) (recognizing that evidence of misdirected
premium payments, claims forms, and communications on behalf of OneBeacon harm Beacon Mutual’s
reputation).
Bayer suggests that its reputation was harmed because Belmora’s alleged deceptive marketing caused
actual confusion among consumers. See Bayer Compl.
¶¶ 38–39, 43. In its Complaint, Bayer explained how
Belmora’s marketing strategy confused distributors,
vendors, and others. For example, Bayer claimed that
telemarketers hired by Belmora called potential distributors and suggested to them that Belmora’s
FLANAX products were the same as those offered by
Bayer in Mexico. (Id. ¶ 33.) Furthermore, in a different
marketing effort Belmora allegedly tried to link itself
with Bayer’s FLANAX by saying that Belmora’s
FLANAX was a brand that Latinos had turned to “for
generations,” and that “FLANAX acts as a powerful attraction for Latinos by providing them with products
they know, trust, and prefer.” (Id. ¶ 32.)
Despite these allegations of confusion, Bayer
failed to plead sufficient facts showing any cognizable
injury to its reputation resulting from Belmora’s use of
the FLANAX mark. Here, Bayer pleaded no facts
showing harm analogous to the “choking dog” referenced in Haute Diggity Dog, or the evidence of misdirected premium payments and claims forms presented
in Beacon Mutual. See Haute Diggity Dog, LLC, 507

107a
F.3d at 268; Beacon Mut. Ins. Co., 376 F.3d at 17. Without more, mere confusion by itself does not constitute
reputational injury.
Additionally, Bayer’s contention that its reputation is harmed because it cannot control the quality of
goods sold under the FLANAX brand demonstrates a
fundamental misapprehension of the protections of the
Lanham Act. In a classic trademark infringement case
brought under a predecessor to the Lanham Act, Judge
Learned Hand explained the idea that trademark law
gives mark owners the right to control the quality of
goods produced thereunder:
However, it has of recent years been recognized that a merchant may have a sufficient
economic interest in the use of his mark outside the field of his own exploitation to justify
interposition by a court. His mark is his authentic seal; by it he vouches for the goods
which bear it; it carries his name for good or
ill. If another uses it, he borrows the owner’s
reputation, whose quality no longer lies within
his own control This is an injury, even though
the borrower does not tarnish it, or divert any
sales by its use; for a reputation, like a face, is
the symbol of its possessor and creator, and another can use it only as a mask. And so it has
come to be recognized that, unless the borrower’s use is so foreign to the owner’s as to
insure against any identification of the two, it
is unlawful.
Yale Elec. Corp. v. Robertson, 26 F.2d 972, 974 (2d Cir.
1928) (emphasis added). Courts have long since

108a
adhered to this doctrine and agree that the Lanham
Act protects the ability of trademark holders to control
the quality of their goods. See Ga. Pac. Consumer
Prods., LP v. Von Drehle Corp., 618 F.3d 441, 455 (4th
Cir. 2010) (citing Zino Davidoff SA v. CVS Corp., 571
F.3d 238, 243 (2d Cir. 2009); Shell Oil Co. v. Commercial Petroleum, Inc., 928 F.2d 104, 107 (4th Cir. 1991)).
The Court finds that this doctrine is inapplicable here
as the “quality control” injury is typically actionable as
a trademark infringement claim. See Lone Star Steakhouse & Saloon, Inc. v. Alpha of Va., Inc., 43 F.3d 922,
939 (4th Cir. 1995) (“[W]e have recognized that . . .
trademark infringement primarily represents an injury to reputation.”); see also, e.g., Ga. Pac. Consumer
Prods., 618 F.3d 441; Shell Oil Co., 928 F.2d 104. Here,
Bayer did not bring a trademark infringement claim,
which includes a requirement that the plaintiff owns a
valid mark. See Rosetta Stone Ltd. v. Google, Inc., 676
F.3d 144, 152 (4th Cir. 2012) (citing 15 U.S.C. § 1114(a);
Louis Vuitton Malletier S.A. v. Haute Diggity Dog, LLC,
507 F.3d 252, 259 (4th Cir. 2007); PETA v. Doughney,
263 F.3d 359, 364 (4th Cir. 2001)).
Thus, in order to assert its Lanham Act right to
control the quality of its goods, Bayer must not only
plead facts showing actual reputational injury under
Lexmark, but Bayer must also show that it has a protectable interest in a mark. Here, the Court finds that
Bayer did not plead facts sufficient to satisfy either requirement. Instead, Bayer simply asserted that there
was confusion among consumers and vendors. That is
not enough. Consequently, the Court finds that Bayer

109a
failed to sufficiently plead facts showing that it suffered economic injury due to Belmora’s use of the
FLANAX mark.
3. Bayer Lacks Standing to Sue Under Section
43(a)(1)(A) of the Lanham Act
The Court holds that Bayer lacks standing to sue
under Section 43(a)(1)(A) of the Lanham Act, 15 U.S.C.
§ 1125(a)(1)(A), because it fails the zone-of-interests
test and fails to meet the proximate cause requirement
under Lexmark. Bayer fails the zone-of-interests test
because its lack of a protectable mark renders it outside of the class of plaintiffs Congress sought to protect
under Section 43(a)(1)(A). Bayer fails to meet the proximate cause requirement because it failed to sufficiently plead facts showing that it suffered economic or
reputational injury resulting from Belmora’s use of the
FLANAX mark. Accordingly, because Bayer lacks
standing to sue for false designation of origin under
Section 43(a)(1)(A), Belmora’s Motion to Dismiss the
false designation of origin claim must be GRANTED.
B. False Advertising
The Court GRANTS Belmora’s Motion to Dismiss
the false advertising claim because Bayer lacks standing to sue under Section 43(a)(1)(B) of the Lanham Act,
15 U.S.C. § 1125(a)(1)(B), as Bayer did not sufficiently
plead an injury to commercial interest in sales or business reputation proximately caused by Belmora’s alleged misrepresentations as required by Lexmark. The

110a
Lanham Act “creates a federal remedy ‘that goes beyond trademark protection’ ” by allowing competitors
to sue for false advertising. POM Wonderful LLC v.
Coca-Cola Co., 134 S. Ct. 2228, 2234 (2014) (quoting
Dastar Corp. v. Twentieth Century Fox Film Corp., 539
U.S. 23, 29 (2003)). The Lanham Act imposes civil liability for false advertising on any person who:
uses in commerce any word, term, name,
symbol, or device, or any combination thereof,
or any false designation of origin, false or
misleading description of fact, or false or
misleading representation of fact, which . . .
misrepresents the nature, characteristics,
qualities, or geographic origin of his or her or
another person’s goods, services, or commercial activities.
Lanham Act § 43(a)(1)(B), 15 U.S.C. § 1125(a)(1)(B).
However, “the private remedy may be invoked only by
those who ‘allege an injury to a commercial interest in
reputation or sales.’ ” POM Wonderful, 134 S. Ct. at
2234 (quoting Lexmark Int’l, Inc. v. Static Control Components, Inc., 134 S. Ct. 1377, 1390 (2014)); see also
Made in the USA Found. v. Phillips Foods, Inc., 365
F.3d 278, 281 (4th Cir. 2004) (“[T]he Lanham Act is a
private remedy [for a] commercial plaintiff who meets
the burden of proving that its commercial interests
have been harmed by a competitor’s false advertising.”
(citations and internal quotation marks omitted)). As
discussed above in the false designation of origin
analysis (Part A), Bayer failed to sufficiently plead
these elements. Accordingly, the Court holds that

111a
Bayer lacks standing to sue for false advertising under
Section 43(a)(1)(B) of the Lanham Act, 15 U.S.C.
§ 1125(a)(1)(B), and Belmora’s Motion to Dismiss the
false advertising claim must be GRANTED.
C. Counts III-V: The California Claims
The Court DISMISSES Bayer’s state law claims
because the Court declines to exercise supplemental
jurisdiction since the underlying federal claims are
dismissed. Bayer’s remaining claims are state law
claims. Bayer alleges that Belmora violated the California Business and Professions Code § 17200 et seq.
(unfair competition) and § 17500 et seq. (false advertising), as well as California common law prohibiting unfair competition.
28 U.S.C. § 1367(c) provides that a district court
may decline to exercise jurisdiction over a state law
claim after dismissing all claims over which it had
original jurisdiction. See Shanaghan v. Cahill, 58 F.3d
106, 109 (4th Cir. 1995). In deciding whether to exercise supplemental jurisdiction, a federal court should
consider “the values of judicial economy, convenience,
fairness, and comity.” Carnegie–Mellon Univ. v. Cohill,
484 U.S. 343, 350 (1988) (internal citations omitted).
“When the balance of these factors indicates that a
case properly belongs in state court, as when the federal-law claims have dropped out of the lawsuit in its
early stages and only state-law claims remain, the federal court should decline the exercise of jurisdiction by
dismissing the case. . . .” Id. (emphasis added).

112a
Here, upon consideration of the Cohill factors, the
Court declines to exercise jurisdiction over Bayer’s
state law claims of unfair competition and false advertising. Since the Court dismisses Bayer’s federal
claims under Sections 43(a)(1)(A) and (a)(1)(B) of the
Lanham Act, 15 U.S.C. § 1125(a)(1)(A) and (a)(1)(B),
Bayer’s state law claims cannot attach to any federal
claim. Therefore, the Court DISMISSES Bayer’s state
law claims.
D. Article 6bis Counterclaim
The Court GRANTS Belmora’s Motion to Dismiss
Bayer’s Counterclaim and AFFIRMS the TTAB’s dismissal of Bayer’s Article 6bis claim because Bayer’s
claim is implausible as the Paris Convention is not
self-executing and Sections 44(b) and (h) of the Lanham Act, 15 U.S.C. § 1126(b) and (h), do not render
Article 6bis of the Paris Convention a ground for contesting trademark registration.
On June 29, 2007, Bayer petitioned the TTAB to
cancel the registration of Belmora’s FLANAX mark
registration. Belmora moved to dismiss Bayer’s petition for cancellation, arguing that Bayer did not have
standing to bring a claim under Section 14(3) of the
Lanham Act, 15 U.S.C. § 1064(3), because it had made
no use of the mark in commerce. On April 26, 2009, the
TTAB issued an order granting the motion in part, and
denying the motion in part. The motion was granted as
to Bayer’s Section 2(d), Article 6bis, and fraud claims,
and was denied as to the Section 14(3) claim.

113a
Regarding the Article 6bis claim, the TTAB held
that Article 6bis does not afford an independent cause
of action for parties in TTAB proceedings. Bayer Consumer Care AG v. Belmora LLC, 110 U.S.P.Q.2d 1623,
2014 WL 1679146, at *2 (T.T.A.B. 2014) (citation omitted). The TTAB further held that Section 44 of the Lanham Act does not “provide the user of an assertedly
famous foreign trademark with an independent basis
for cancellation in a [TTAB] proceeding, absent the
use of the mark in the United States.” Id. (citation and
internal quotation marks omitted). In its Answer to
Belmora’s Complaint (Doc. 35), Bayer asserted a counterclaim seeking judicial review of the TTAB’s ruling
on Belmora’s alleged violation of Article 6bis.
The Paris Convention for the Protection of Industrial Property established “a Union for the protection
of industrial property.” Paris Convention for the Protection of Industrial Property, Sept. 5, 1970, art. 1, 21
U.S.T. 1583, T.I.A.S. No. 6923 (“Paris Convention”). Under Article 6bis of the Paris Convention, members
must:
ex officio if their legislation so permits, or at
the request of an interested party, to refuse or
to cancel the registration, and to prohibit the
use, of a trademark which constitutes a reproduction, an imitation, or a translation, liable
to create confusion, of a mark considered by
the competent authority of the country of registration or use to be well known in that country as being already the mark of a person
entitled to the benefits of this Convention and
used for identical or similar goods. These

114a
provisions shall also apply when the essential
part of the mark constitutes a reproduction of
any such well-known mark or an imitation liable to create confusion therewith.
Paris Convention art. 6bis (providing statutory basis for
the “famous marks” or “world mark” exception/doctrine).
Section 44(b) of the Lanham Act is titled “Benefits
of section to persons whose country of origin is a party
to convention or treaty,” and provides:
Any person whose country of origin is a party
to any convention or treaty relating to trademarks, trade or commercial names, or the repression of unfair competition, to which the
United States is also a party, or extends reciprocal rights to nationals of the United States
by law, shall be entitled to the benefits of this
section under the conditions expressed herein
to the extent necessary to give effect to any
provision of such convention, treaty or reciprocal law, in addition to the rights to which
any owner of a mark is otherwise entitled by
this chapter.
15 U.S.C. § 1126(b) (emphasis added). Section 44(h) of
the Lanham Act “Protection of foreign national against
unfair competition,” and provides:
Any person designated in subsection (b) of
this section as entitled to the benefits and
subject to the provisions of this chapter shall
be entitled to effective protection against unfair competition, and the remedies provided in
this chapter for infringement of marks shall

115a
be available so far as they may be appropriate
in repressing acts of unfair competition.
15 U.S.C. § 1126(h).
1. The Paris Convention is Not Self-Executing
First, the Court holds that Article 6bis of the Paris
Convention is not self-executing and that Congress implemented the Paris Convention by enacting Section
44 of the Lanham Act. The Supreme Court “has long
recognized the distinction between treaties that automatically have effect as domestic law, and those that—
while they constitute international law commitments—do not by themselves function as binding federal law.” Medellin v. Texas, 552 U.S. 491, 504 (2008).
Although treaties “may comprise international commitments . . . they are not domestic law unless Congress has either enacted implementing statutes or the
treaty itself conveys an intention that it be ‘self-executing’ and is ratified on these terms.” Id. at 505 (emphasis
added) (quoting Igartua-De La Rosa v. United States,
417 F.3d 145, 150 (1st Cir. 2005) (internal quotation
marks omitted)); see also Bond v. United States, 134
S. Ct. 2077, 2084 (2014). A treaty may contain both
self-executing and non-self-executing provisions.
ESAB Grp., Inc. v. Zurich Ins. PLC, 685 F.3d 376, 387
(4th Cir. 2012) (citations and internal quotation marks
omitted). The Supreme Court has recognized that some
of the provisions of the Paris Convention dealing with
patents are self-executing. See Medellin, 552 U.S. at
574. Other courts and scholars have found that the

116a
Paris Convention is not at all self-executing and was
implemented by Congress with the enactment of Section 44 of the Lanham Act. See In re Rath, 402 F.3d
1207, 1209 (Fed. Cir. 2005) (“[T]he Paris Convention is
not a self-executing treaty and requires congressional
implementation.”); Barcelona.com, Inc. v. Excelentisimo Ayuntamiento De Barcelona, 330 F.3d 617, 628
(4th Cir. 2003); Mattel, Inc. v. MCA Records, Inc., 296
F.3d 894, 907–08 (9th Cir. 2002); Int’l Cafe, S.A.L. v.
Hard Rock Cafe Int’l (U.S.A.), Inc., 252 F.3d 1274,
1277–78 (11th Cir. 2001); BP Chems. Ltd. v. Formosa
Chem. & Fibre Corp., 229 F.3d 254, 259 n.1 (3d Cir.
2000); Havana Club Holding, S.A. v. Galleon S.A., 203
F.3d 116, 134 (2d Cir. 2000); Weil Ceramics & Glass,
Inc. v. Dash, 878 F.2d 659, 679 (3d Cir. 1989) (“The
Paris Convention is the law in the United States by
virtue of Article VI of the Constitution and is explicitly
implemented by the Lanham Act in section 44(b). . . .”);
Yasuko Kawai v. Metlesics, 480 F.2d 880, 884 (C.C.P.A.
1973); Anne Gilson LaLonde, Don’t I Know You from
Somewhere? Protection in the United States of Foreign
Trademarks That Are Well Known but Not Used There,
98 TRADEMARK REP. 1379, 1391–92 (2008). Based on the
overwhelming weight of authority the Court similarly
holds that Article 6bis of the Paris Convention is not
self-executing and that Congress implemented the
Paris Convention by enacting Section 44 of the Lanham Act.

117a
2. Article 6bis, Through Section 44 of the Lanham
Act, Does Not Create an Independent Cause of
Action
Second, the Court holds that to the extent Congress implemented the Paris Convention, Article 6bis
does not confer additional substantive rights to international mark holders through Sections 44(b) and (h)
of the Lanham Act because Congress did not explicitly
implement Article 6bis when it enacted Section 44. The
enactment of Section 44 of the Lanham Act incorporates the Paris Convention into United States law but
only “to provide foreign nationals with rights under
United States law which are coextensive with the
substantive provisions of the treaty involved.” Barcelona.com, Inc. v. Excelentisimo Ayuntamiento De Barcelona, 330 F.3d 617, 628 (4th Cir. 2003) (quoting Scotch
Whisky Ass’n v. Majestic Distilling Co., 958 F.2d 594,
597 (4th Cir. 1992)); see Int’l Cafe, S.A.L. v. Hard Rock
Cafe Int’l (U.S.A.), Inc., 252 F.3d 1274, 1278 (11th Cir.
2001) (“[T]he rights articulated in the Paris Convention do not exceed the rights conferred by the Lanham
Act”); Maruti.com v. Maruti Udyog Ltd., 447
F. Supp. 2d 494, 501 (D. Md. 2006). Bayer’s argument
that its Mexican FLANAX mark should be afforded the
protection of a “well-known” or “famous” mark6 under
Article 6bis has been rejected by the Fourth Circuit.
See Barcelona.com, 330 F.3d at 628 (“[T]he Paris Convention creates nothing that even remotely resembles
a ‘world mark’ or an ‘international registration.’ ”
The Court shall refer to the doctrine describing this term
as the “famous marks exception.”
6

118a
(citation omitted)). The Second Circuit reached a similar conclusion in Punchgini. ITC Ltd. v. Punchgini, 482
F.3d 135 (2d Cir. 2007).
In Punchgini, ITC, an Indian corporation, began
operating a restaurant in New Delhi, India, called “Bukhara” in 1977. Id. at 143. Bukhara acquired “a measure of international renown.” Id. ITC obtained a
registered United States trademark for restaurant services for the Bukhara mark in 1987 and operated restaurants in the United States under that mark until
1997. Id.
In 1999, Punchgini, Inc. (“Punchgini”), opened a
restaurant in New York City called “Bukhara Grill.” Id.
at 144. After some success, Punchgini later opened a
second restaurant in New York City. Id. It appeared
that the Punchgini restaurants in New York City copied the Bukhara restaurants in New Delhi. See id.
(“Quite apart from the obvious similarity in name, defendants’ restaurants mimic the ITC Bukharas’ logos,
decor, staff uniforms, wood-slab menus, and red-checkered customer bibs.”).
In 2003, ITC sued Punchgini for unfair competition under Section 43(a)(1)(A) of the Lanham Act. Id.
at 145. Punchgini asserted that ITC had abandoned
the Bukhara mark and filed a counterclaim seeking
cancellation of ITC’s registration of the mark. Id. The
district court found that the defendants successfully
established abandonment as a matter of law, “warranting both summary judgment in their favor and cancellation of ITC’s registered mark.” Id. at 146. The Second

119a
Circuit affirmed. Rejecting the argument that the
plain language of Sections 44(b) and (h) incorporated
Article 6bis into the Lanham Act as a valid ground for
cancellation, the court first discussed the territoriality
principle. Id. at 154.
Under the territoriality principle, “trademark rights
exist in each country solely according to that country’s
statutory scheme.” Person’s Co., Ltd. v. Christman, 900
F.2d 1565, 1568–69 (Fed. Cir. 1990). Explaining the territoriality principle, the Second Circuit in Punchgini
noted that “United States trademark rights are acquired by, and dependent upon, priority of use.” 482
F.3d at 155; see 15 U.S.C.A. § 1057(b) (“A certificate of
registration [arms the registrant with] prima facie evidence of the validity of the registered mark and of the
registration of the mark, of the [registrant’s] ownership of the mark, and of the [registrant’s] exclusive
right to use the registered mark. . . .”). It follows that
“absent some use of its mark in the United States, a
foreign mark holder generally may not assert priority
rights under federal law, even if a United States competitor has knowingly appropriated that mark for his
own use.” Punchgini, 482 F.3d at 156 (citing Person’s
Co. v. Christman, 900 F.2d 1565, 1569–70 (Fed. Cir. 1990));
see also Paleteria La Michoacana, Inc. v. Productos
Lacteos Tocumbo S.A. De C.V., No. CV 11-1623 (RC),
2014 WL 4759945, at *12 (D.D.C. Sept. 25, 2014) (“It
also is a basic tenet of American trademark law that
foreign use of a mark creates no cognizable right to use
that mark within the United States.” (citation omitted)).

120a
In Punchgini the Second Circuit went on to examine the language of Section 44 to determine Congress’
intent. The court held that Congress did not intend to
incorporate a famous marks exception into federal law.
Punchgini, 482 F.3d at 163. The court explained that
“we do not ourselves discern in the plain language of
sections 44(b) and (h) a clear Congressional intent to
incorporate a famous marks exception into federal unfair competition law.” Id. The court looked to Congress’
amendments to the Lanham Act in an effort to ascertain congressional intent, stating that “Congress has
not hesitated to amend the Lanham Act to effect its
intent with respect to trademark protection, having
done so thirty times since the statute took effect in
1947. . . .” Id. at 164. The absence of a statutory provision incorporating either the famous mark doctrine or
Article 6bis, as well as the long-standing territoriality
principle, were important factors in the court holding
that “Congress has not incorporated the substantive
protections of the famous marks doctrine set forth in
the Paris Convention Article 6bis . . . into the relevant
federal law. . . .” Id. at 163–64, 172.
This Court similarly holds that Article 6bis does
not confer additional substantive rights to international mark holders through Sections 44(b) and (h) and
that there is no cause of action under Article 6bis because Congress has not acted to implement it through
amendments or other statutory provisions. See Fleischmann Distilling Corp. v. Maier Brewing Co., 386 U.S.
714, 720 (1967) (finding that the Lanham Act did not
allow for counsel fees because the original text did not

121a
provide for them, nor did any subsequent amendments
to the statute); cf. Dastar Corp. v. Twentieth Century
Fox Film Corp., 539 U.S. 23, 34 (2003) (“When Congress
has wished to create such an addition to the law of
copyright, it has done so with much more specificity
than the Lanham Act’s ambiguous use of ‘origin.’ ”).
Furthermore, this case is distinguishable from The
Last Best Beef, LLC v. Dudas, 506 F.3d 333 (4th Cir.
2007).
One issue in Last Best Beef was whether Congress
created an irreconcilable conflict between the Lanham
Act and Section 206 of the Science, State, Justice, Commerce, and Related Agencies Appropriations Act of
2006. Id. at 339. In holding that Congress had created
such a conflict, the Fourth Circuit pointed out that Section 206, by its plain language, directly contradicted
the Lanham Act as it prohibited one very specific
phrase from being trademarked. Id. In upholding the
challenged statute, the court found that Congress intended to enact a “discrete and narrow exception to the
Lanham Act. . . .” Id.
Although this case does not involve two irreconcilable statutes, Last Best Beef is still instructive when
looking at the scope of the exception being presented.
Here, Bayer is asking the Court to infer, from uncertain terms in the Lanham Act, a declaration from Congress adopting the famous marks exception captured
in Article 6bis, thus creating a cause of action therein.
That exception is not the same type of “narrow and discrete” exception presented by the conflict between Section 206 and the Lanham Act in Last Best Beef. See id.

122a
Instead it is an exception that would eviscerate the territoriality principle of trademark law; a principle that
has been accepted by the Supreme Court for nearly one
hundred years and remains essentially unassailable in
each circuit court except for the Ninth Circuit. See
Grupo Gigante SA De CV v. Dallo & Co., 391 F.3d 1088
(9th Cir. 2004). Without a more definite statement from
Congress, the Court declines to interpret the Lanham
Act in that fashion. See Barcelona.com, Inc. v. Excelentisimo Ayuntamiento De Barcelona, 330 F.3d 617, 628
(4th Cir. 2003) (“It follows from incorporation of the
doctrine of territoriality into United States law
through Section 44 of the Lanham Act that United
States courts do not entertain actions seeking to enforce trademark rights that exist only under foreign
law.”); cf. J. Thomas McCarthy, Lanham Act § 43(a):
The Sleeping Giant Is Now Wide Awake, 59 LAW & CONTEMP. PROBS. 45, 49 (1996) (“These other circuits reasoned that if Congress really intended to make such a
far-reaching change as to make a federal question of
any and all acts of unfair competition in interstate
commerce, it would have done so in plain and unequivocal language, which admittedly it did not do.” (emphasis added)).
Consequently, the protections provided by Article
6bis remain coextensive with, not supplemental to,
those of the Lanham Act. See In re Rath, 402 F.3d 1207,
1211 (Fed. Cir. 2005) (“ . . . Congress generally intended section 44 of the Lanham Act to implement
the Paris Convention. But this does not mean that
Congress intended to do so in every respect or that it

123a
actually accomplished that objective in all respects. . . .”). Again, such a stark departure from the
well-established principle of territoriality would require a much clearer expression of congressional intent
mandating such a departure than is present before the
Court here. See Almacenes Exito S.A. v. El Gallo Meat
Mkt., Inc., 381 F. Supp. 2d 324, 327 n.3 (S.D.N.Y. 2005)
(“[T]he [territoriality] principle was long established
before enactment of the Lanham Act in 1946 and was
already so basic to trademark law that it may be presumed to be implied in the Lanham Act.”); 5 J. THOMAS
MCCARTHY, MCCARTHY ON TRADEMARKS AND UNFAIR
COMPETITION § 29:51 (4th ed. 2014) (observing that in
A. Bourjois & Co. v. Katzel, 260 U.S. 689, 691 (1923),
the Supreme Court accepted the principle of “territoriality” and moved away from the principle of “universality” with trademarks). Accordingly, the Court holds
that there is no cause of action under Article 6bis because Congress has not acted to implement it.
3. Bayer’s Counterclaim Must Be Dismissed
The Court GRANTS Belmora’s Motion to Dismiss
Bayer’s Counterclaim AFFIRMS the TTAB’s dismissal
of Bayer’s Article 6bis claim because Bayer has failed
to plead facts showing that its claim that Sections
44(b) and (h) of the Lanham Act incorporate Article
6bis is plausible. The Paris Convention is not selfexecuting and Congress has not amended the Lanham
Act to make Article 6bis a ground for contesting a
trademark registration. The lack of a legal foundation
for such a claim renders it implausible. See Ashcroft v.

124a
Iqbal, 556 U.S. 662, 678 (2009). Accordingly, Belmora’s
Motion to Dismiss Bayer’s Counterclaim is GRANTED
and the TTAB’s dismissal of Bayer’s Article 6bis claim
is AFFIRMED.7
E. Belmora’s Motion for Judgment on the Pleadings
The Court GRANTS Belmora’s Motion for Judgment on the Pleadings for two reasons. First, the Court
GRANTS Belmora’s Motion for Judgment on the
Pleadings and REVERSES the TTAB’s holding that
Bayer had standing to seek cancellation of the registration of Belmora’s FLANAX mark under Section
14(3) because Bayer lacks standing to sue pursuant to
Lexmark as Bayer’s interests do not fall within the
zone of interests Congress intended to protect under
Section 14(3) and Bayer did not sufficiently plead economic injury or an injury to business reputation proximately caused by Belmora’s use of the FLANAX mark.
Second, the Court GRANTS Belmora’s Motion for
Judgment on the Pleadings and REVERSES the
TTAB’s holding that Belmora was using the FLANAX
mark to misrepresent source because Section 14(3) requires use of the mark in United States commerce and
Bayer did not use the FLANAX mark in the United
States.

Because the Court finds that there is no independent cause
of action under Article 6bis, the Court does not reach the parties’
arguments concerning whether Bayer has sufficiently plead priority, or the requisite level of fame, prior to 2003.
7

125a
Belmora moved the TTAB to dismiss Bayer’s second amended petition, which sought, among other
things the cancellation of the registration of Belmora’s
FLANAX mark. On April 26, 2009, the TTAB issued an
order granting the motion in part, and denying the
motion in part. The motion was granted as to Bayer’s
Section 2(d), Article 6bis, and fraud claims, and was denied as to the Section 14(3) claim. Regarding the Section 14(3) claim, first the TTAB found that Bayer had
standing to bring the claim because Bayer alleged injury stemming from Belmora’s use of “strikingly similar packaging.” Bayer Consumer Care AG v. Belmora
LLC, 110 U.S.P.Q.2d 1623, 2014 WL 1679146, at *2
(T.T.A.B. 2014). Second, the TTAB found that Bayer
had sufficiently pleaded the claim because Bayer “alleged clearly and specifically that respondent copied
petitioner’s mark, including its particular display, and
virtually all elements of its packaging, in order to ‘misrepresent to consumers, including especially consumers familiar with Petitioner’s FLANAX mark,’ that
respondent’s product is from the same source as petitioner’s product.” Id. (citation and internal quotation
marks omitted).
1. Bayer Does Not Have Standing to Assert a
Misrepresentation of Source Claim
The Court GRANTS Belmora’s Motion for Judgment on the Pleadings and REVERSES the TTAB’s
holding that Bayer had standing to seek cancellation
of the registration of Belmora’s mark under Section
14(3) of the Lanham Act, 15 U.S.C. § 1064(3), because

126a
Bayer lacks standing to sue pursuant to Lexmark as
Bayer’s interests do not fall within the zone of interests
Congress intended to protect under Section 14(3) and
Bayer did not sufficiently plead economic injury or an
injury to business reputation proximately caused by
Belmora’s use of the FLANAX mark.
The TTAB cancelled Belmora’s registration pursuant to Section 14(3) of the Lanham Act. Section 14(3)
provides, in pertinent part, that:
A petition to cancel a registration of a mark,
stating the grounds relied upon, may, upon
payment of the prescribed fee, be filed as follows by any person who believes that he is or
will be damaged, including as a result of dilution under section 1125(c), by the registration
of a mark on the principal register established
by this Act, or under the Act of March 3, 1881,
or the Act of February 20, 1905:
(3) . . . if the registered mark is being used by,
or with the permission of, the registrant so as
to misrepresent the source of the goods or services on or in connection with which the mark
is used. . . .
15 U.S.C. § 1064(3) (emphasis added). As discussed
earlier, the Supreme Court’s decision in Lexmark Int’l,
Inc. v. Static Control Components, Inc., 134 S. Ct. 1377
(2014), provides this Court with guidance in determining whether a plaintiff has standing to bring a misrepresentation of source claim under the Lanham Act. The

127a
TTAB’s analysis of standing did not apply Lexmark.8
Accordingly, the Court conducts the standing analysis
with the benefit of that decision.
The Court holds that Bayer fails the zone-of-interests-test as Bayer is not within the class of plaintiffs
Congress sought to protect in the misrepresentation of
source provision of the Lanham Act because Bayer
never used the FLANAX mark in United States commerce. See H.H. Scott, Inc. v. Annapolis Electroacoustic
Corp., 195 F. Supp. 208 (D. Md. 1961) (ruling in favor
of plaintiff in misrepresentation of source action who
possessed a mark and used it in commerce); see also
Willis v. Can’t Stop Prods., Inc., 497 F. App’x. 975, 978
(Fed. Cir. 2012) (affirming dismissal of misrepresentation of source claim because defendant “at all times
owned the marks at issue”); Hill Holliday Connors
Cosmopulos, Inc. v. Greenfield, 433 F. App’x. 207, 218
(4th Cir. 2011) (citing Gen. Healthcare Ltd. v. Qashat,
The TTAB’s legal framework for standing analysis is set
forth below:
“The Federal Circuit has enunciated a liberal threshold
for determining standing. Alcatraz Media Inc. v. Chesapeake Marine Tours Inc., 107 U.S.P.Q.2d 1750, 1760
(T.T.A.B. 2013). To establish standing, petitioner must
prove that it has a “real interest” in this cancellation
proceeding and a “reasonable basis” for its belief in
damage. To prove a “real interest” in this case, petitioner must show that it has a “direct and personal
stake” in the outcome herein and is more than a “mere
intermeddler.” See Ritchie v. Simpson, 170 F.3d 1092,
50 U.S.P.Q.2d 1023, 1026–27 (Fed. Cir. 1999).”
Bayer Consumer Care AG v. Belmora LLC, 110 U.S.P.Q.2d 1623,
2014 WL 1679146, at *9 (T.T.A.B. 2014).
8

128a
364 F.3d 332, 335 (1st Cir. 2004)) (finding that plaintiff
“failed to establish the necessary factual predicate for
his trademark-cancellation claim” because he had never
used the challenged mark in commerce).9 Second, for
the reasons set forth earlier in this opinion, the Court
holds that Bayer cannot meet the proximate cause requirement of Lexmark. Accordingly, the Court holds
that Bayer lacks standing to pursue a misrepresentation of source claim under Section 14(3) of the Lanham
Act, 15 U.S.C. § 1064(3), and that Belmora’s Motion for
Judgment on the Pleadings as to the TTAB’s decision
regarding this claim must be GRANTED. The Court
further holds that the TTAB’s holding as to Bayer’s
standing to bring a Section 14(3) claim must be REVERSED.
2. Section 14(3) Requires Use of the Mark in
United States Commerce
The Court GRANTS Belmora’s Motion for Judgment on the Pleadings and REVERSES the TTAB’s
holding that Belmora was using the FLANAX mark to
misrepresent source because Section 14(3) requires
use of the mark in United States commerce and Bayer
did not use the FLANAX mark in the United States.
A party may, pursuant to Section 14(3) of the Lanham Act, petition to cancel a registration of a mark if
the mark “is being used by, or with the permission of,
the respondent so as to misrepresent the source of the
See infra Part E(1) for a discussion of the inherent “use requirement” of Section 14(3).
9

129a
goods or services on or in connection with which the
mark is used.” 15 U.S.C. § 1064(3). The term “misrepresentation of source,” as used in Section 14(3), “refers
to situations where it is deliberately misrepresented
by or with the consent of the respondent that goods
and/or services originate from a manufacturer or other
entity when in fact those goods and/or services originate from another party.” Osterreichischer Molkereiund Kasereiverband Registriete GmbH v. Marks &
Spencer Ltd., 203 U.S.P.Q. 793, 1979 WL 25355, at *1
(T.T.A.B. 1979) (citation omitted); see also Global Maschinen GmbH v. Global Banking Sys., Inc., 227 U.S.P.Q.
862, 864 n.3, 1985 WL 71943, at *2 n.3 (T.T.A.B. 1985).
According to the TTAB, in order to prevail a petitioner must show that respondent took steps to deliberately pass off its goods as those of petitioner. That is,
petitioner must establish “blatant misuse of the mark
by respondent in a manner calculated to trade on the
goodwill and reputation of petitioner.” Otto Int’l Inc. v.
Otto Kern GmbH, 83 U.S.P.Q.2d 1861, 1863, 2007 WL
1577524, at *3 (T.T.A.B. 2007). See generally 3 J.
THOMAS MCCARTHY, MCCARTHY ON TRADEMARKS & UNFAIR COMPETITION § 20:60 (4th ed. 2014); Theodore H.
Davis, Jr., Cancellation Under Section 14(3) for Registrant Misrepresentation of Source, 85 TRADEMARK REP.
67 (1995). Thus, in reviewing the record, courts look for
evidence reflecting respondent’s deliberate misrepresentation of the source of its product, “blatant misuse”
of the mark, or conduct amounting to the deliberate
passing-off of respondent’s goods. Willful use of a confusingly similar mark is insufficient. McDonnell

130a
Douglas Corp. v. Nat’l Data Corp., 228 U.S.P.Q. 45, 47,
1985 WL 71955, at *2–4 (T.T.A.B. 1985).
The parties dispute whether a Section 14(3) claim
requires that petitioner bringing an action to cancel a
registration actually use a trademark in commerce.
Belmora argues that Section 14(3) imposes a trademark use requirement “because there cannot be a
source represented without at least one trademark recognized by United States law.” (Doc. 56 at 11.) Bayer
contends that use is not required because of the plain
language of the statute and because such a reading is
consistent with other provisions of the Lanham Act
prohibiting registration of deceptive marks. (Doc. 64 at
4.) The Court finds that Section 14(3) contains a use
requirement based on case law and a comparison of
similar Lanham Act provisions.
The TTAB cited three cases in defining the rule for
misrepresentation of source: (1) Otto Int’l Inc. v. Otto
Kern GmbH, 83 U.S.P.Q.2d 1861, 1863, 2007 WL
1577524, at *3 (T.T.A.B. 2007); (2) Global Maschinen
GmbH v. Global Banking Sys., Inc., 227 U.S.P.Q. 862,
864 n.3, 1985 WL 71943, at *2 n.3 (T.T.A.B. 1985); and
(3) Osterreichischer Molkerei-und Kasereiverband Registriete GmbH v. Marks & Spencer Ltd., 203 U.S.P.Q.
793, 794, 1979 WL 25355, at *1 (T.T.A.B. 1979). See
Bayer Consumer Care AG v. Belmora LLC, 110 U.S.P.Q.2d
1623, 2014 WL 1679146, at *10 (T.T.A.B. 2014). In Otto
Int’l, the petitioner owned several marks and moved to
cancel respondent’s mark through a misrepresentation
of source claim but the allegation was insufficiently
plead as to “blatant misuse.” 2007 WL 1577524, at *3

131a
(citing E.E. Dickinson Co. v. T.N. Dickinson Co., 221
U.S.P.Q. 713, 715, 1984 WL 63740, at *2–3 (T.T.A.B.
1984) (finding plaintiff had properly pleaded a claim of
misrepresentation of source where it pleaded that registrant marked its goods in a way that imitated petitioner’s mark)). In Global, the petitioner “established
ownership rights in the mark” and the respondent’s
registration was cancelled on other grounds. 1985 WL
71943, at *5. Ownership rights in a mark were present
in two of the cases for misrepresentation of source and
the TTAB was silent on whether the petitioner in
Marks & Spencer owned or used a mark in commerce.
See Marks & Spencer, 203 U.S.P.Q. 793, 1979 WL
25355.
Furthermore, Bayer’s reliance on Empresa Cubana
Del Tabaco v. Gen. Cigar Co., 753 F.3d 1270 (Fed. Cir.
2014), for the idea that Section 1064(3) has no use requirement is misplaced because of the unique nature
of that case. Empresa involved a dispute over the
COHIBA mark between the Cuban company Cubatabaco,
which owned the mark in Cuba, and the American
company General Cigar, which owned the mark in the
United States. Id. at 1271. One issue before the Federal Circuit was whether Cubatabaco had standing to
initiate a cancellation proceeding before the TTAB. Id.
at 1274. Reversing the TTAB, the Federal Circuit held
that Cubatabaco had standing. See id. First, the court
emphasized that 31 C.F.R. § 515.527 specifically authorizes Cuban entities to engage in transactions “related to the registration and renewal” of trademarks
in the [PTO] and “may be relied on . . . to petition to

132a
cancel a prior registration of a trademark where these
actions relate to the protection of a trademark in which
Cuba or a Cuban national general license has an interest.” Id. at 1275 (citation omitted). The court further
reasoned that this regulation, and the related proceedings at the TTAB, gave Cubatabaco a “legitimate commercial interest” in the COHIBA mark such that a
finding of standing before the TTAB was appropriate.
Id.
The existence of 31 C.F.R. § 515.527 renders Empresa
easily distinguishable from this case as there is no
regulatory or statutory pronouncement conferring
standing upon plaintiffs who possess a foreign mark
but do not use it in United States commerce like Bayer.
Moreover, the Court finds that the regulation at issue
in Empresa specifically confers standing on Cuban entities for matters at the PTO and the United States
Copyright Office (“Copyright Office”). See 31 C.F.R.
§ 515.527. Though the Second Circuit’s earlier decision
in the Empresa case was silent on the issue of whether
the regulation would similarly confer standing before
an Article III tribunal, see Empresa Cubana del Tabaco
v. Culbro Corp., 399 F.3d 462 (2d Cir. 2005), a plain
reading of its language leads this Court to find that
§ 515.527’s grant of standing is limited only to matters
before the PTO and Copyright Office. See Crespo v.
Holder, 631 F.3d 130, 133 (4th Cir. 2011) (“When interpreting statutes we start with the plain language. It is
well established that when the statute’s language is
plain, the sole function of the courts—at least where
the disposition required by the text is not absurd—is

133a
to enforce it according to its terms.” (citations and internal quotation marks omitted)). Accordingly, the
Court finds that Empresa is not persuasive authority
on this issue.
Belmora sought to distinguish Bayer’s argument
that Section 14(3) “imposes no use requirement” in two
ways: (1) by pointing out that Bayer relied on Section
2(d), which unlike Section 14(3), explicitly requires domestic use of a mark, see 15 U.S.C. § 1052(d) (“Consists
of or comprises a mark which so resembles a mark registered in the Patent and Trademark Office, or a mark
or trade name previously used in the United States by
another and not abandoned. . . .”); and (2) stating that
although Section 43(a)(1)(A) has no reference to use, in
Lamparello the Fourth Circuit held that to establish a
claim under that section a party must, among other
things, prove that it “possesses a mark.” (Doc. 56 at 11)
(citing Lamparello v. Falwell, 420 F.3d 309, 313 (4th
Cir. 2005)). A further analysis of Section 43(a)(1)(A) is
warranted.10

The Court must look to other statutes because of the
sparse number of Section 14(3) actions brought in federal courts.
“As a vehicle for canceling federal registrations, Section 14(3)’s
misrepresentation of source prong has been invoked infrequently,
much less successfully used.” Theodore H. Davis, Cancellation
Under Section 14(3) for Registrant Misrepresentation of Source,
85 TRADEMARK REP. 67, 88 (1995). This may be due, in part, to the
expansion of the meaning of “origin” in Section 43(a) false designation of origin claim to include “origin of source, sponsorship, or
affiliation. . . .” J. Thomas McCarthy, Lanham Act § 43(a): The
Sleeping Giant Is Now Wide Awake, 59 LAW & CONTEMP. PROBS.
45, 58 (1996) (emphasis added) (citing Federal-Mogul-Bower
10

134a
Section 43(a)(1)(A) prohibits false designations of
origin and false descriptions. It provides that a civil action may be brought by:
[a]ny person who, on or in connection with any
goods or services, or any container for goods,
uses in commerce any word, term, name, symbol, or device, or any combination thereof, or
any false designation of origin, false or misleading description of fact, or false or misleading representation of fact, which is likely to
cause confusion, or to cause mistake, or to deceive as to the affiliation, connection, or association of such person with another person, or
as to the origin, sponsorship, or approval of
his or her goods, services, or commercial activities by another person. . . .
15 U.S.C. § 1125(a)(1)(A). Although not explicitly
stated in the plain language of the statute, courts have
consistently found that plaintiff ’s use of a trademark
Bearings, Inc. v. Azoff, 313 F.2d 405 (6th Cir. 1963)). As offered
by McCarthy:
This seemingly simple new spin put on the word
“origin” raised the curtain on a whole new chapter in
federal unfair competition law. It heralded the beginning of a new dimension of section 43(a) as a vehicle to
assert in federal court a traditional case of infringement of an unregistered mark, name, or trade dress.
McCarthy, supra at 58; see, e.g., Vuitton Et Fils, S.A. v. Crown
Handbags, 492 F. Supp. 1071, 1077 (S.D.N.Y. 1979) (stating that
Section 43(a) was enacted “to protect consumers and competitors
alike against all forms of misdescription or misrepresentation of
products and services in commerce”); Davis, supra at 86 (declaring that a “confused” body of case law has arisen from misrepresentation of source claims).

135a
in United States commerce is a threshold element of
any Section 43(a)(1)(A) claim.
In Punchgini, the Second Circuit held that a plaintiff cannot be successful on a Section 43(a)(1)(A) claim
without first demonstrating its “own right to use the
mark” in question. 482 F.3d 135, 154 (2d Cir. 2007). Because ITC had abandoned its mark and Punchgini was
thereafter using the Bukhara mark in United States
commerce, the court found that ITC did not have a “priority right” to use the mark because it had abandoned
the mark and thus could not succeed on a Section
43(a)(1)(A) claim.
In International Bancorp, the Fourth Circuit
found that a foreign entity had a protectable interest
in its foreign mark related to casino services and could
thus bring a trademark infringement claim under Section 43(a) against a domestic actor because it used the
mark in United States commerce when it advertised
its foreign casino in the United States. Int’l Bancorp,
LLC v. Société des Bains de Mer et du Cercle des
Éstrangers a Monaco, 329 F.3d 359, 361 (4th Cir. 2003);
see also Larsen v. Terk Techs. Corp., 151 F.3d 140, 146
(4th Cir. 1998) (stating that to receive protection under
Section 43(a) a trademark must be used in commerce);
Lone Star Steakhouse & Saloon, Inc. v. Alpha of Va.,
Inc., 43 F.3d 922, 930 (4th Cir. 1995) (declaring that
trademark infringement under Section 43(a) requires
that plaintiff prove it has a protectable mark that is
used in commerce).

136a
These cases make it is clear to the Court that although Section 43(a)(1)(A), by its terms, does not require use of the mark, courts have consistently
required a plaintiff to use the mark in United States
commerce in order to state a claim under that statute.
“The intent of [the Lanham Act] is to regulate commerce within the control of Congress by making actionable the deceptive and misleading use of marks in such
commerce. . . .” 15 U.S.C. § 1127 (emphasis added).
With that in mind, after comparing the language of
Sections 14(3) and 43(a), and reviewing both TTAB decisions and case law, this Court finds it appropriate to
read a use requirement into Section 14(3). Accordingly,
because Bayer did not use the FLANAX mark in the
United States, its Section 14(3) action must fail and
Belmora’s Motion for Judgment on the Pleadings as to
misrepresentation of source is GRANTED. Further,
the TTAB’s holding as to misrepresentation of source
must be REVERSED.
III.

CONCLUSION

The Court GRANTS Belmora’s Motion to Dismiss
Complaint for two reasons. First, the Court GRANTS
Belmora’s Motion to Dismiss the false designation of
origin claim because Bayer lacks standing to sue under
Section 43(a)(1)(A) of the Lanham Act, 15 U.S.C.
§ 1125(a)(1)(A), pursuant to Lexmark Int’l, Inc. v. Static
Control Components, Inc., 134 S. Ct. 1377 (2014), as
Bayer’s interests do not fall within the zone of interests
Congress intended to protect under Section 43(a)(1)(A)

137a
and Bayer did not sufficiently plead economic injury or
an injury to business reputation proximately caused by
Belmora’s use of the FLANAX mark. Second, the Court
GRANTS Belmora’s Motion to Dismiss the false advertising claim because Bayer lacks standing to sue under
Section 43(a)(1)(B) of the Lanham Act, 15 U.S.C.
§ 1125(a)(1)(B), as Bayer did not sufficiently plead an
injury to commercial interest in sales or business reputation proximately caused by Belmora’s alleged misrepresentations as required by Lexmark. Furthermore,
the Court DISMISSES Bayer’s state law claims because they have no federal claim to attach to as both of
the federal claims are dismissed.
The Court GRANTS Belmora’s Motion to Dismiss
Bayer’s Counterclaim and AFFIRMS the TTAB’s dismissal of Bayer’s Article 6bis claim because Bayer’s
claim that it can bring an action under Article 6bis
against Belmora is implausible as the Paris Convention is not self-executing and Sections 44(b) and (h) of
the Lanham Act, 15 U.S.C. § 1126(b) and (h), do not
make Article 6bis of the Paris Convention a ground for
contesting trademark registration.
The Court GRANTS Belmora’s Motion for Judgment on the Pleadings for two reasons. First, the Court
GRANTS Belmora’s Motion for Judgment on the
Pleadings and REVERSES the TTAB’s holding that
Bayer had standing to seek cancellation of the registration of Belmora’s FLANAX mark under Section
14(3) of the Lanham Act, 15 U.S.C. § 1064(3), because
Bayer lacks standing to sue pursuant to Lexmark as
Bayer’s interests do not fall within the zone of interests

138a
Congress intended to protect under Section 14(3) and
Bayer did not sufficiently plead economic injury or an
injury to business reputation proximately caused by
Belmora’s use of the FLANAX mark. Second, the Court
GRANTS Belmora’s Motion for Judgment on the
Pleadings and REVERSES the TTAB’s holding that
Belmora was using the FLANAX mark to misrepresent
source because Section 14(3) requires use of the mark
in United States commerce and Bayer did not use the
FLANAX mark in the United States.
The TTAB decision found that Belmora not only
copied the logo and trade dress of Bayer’s FLANAX,
but also made statements inferring an association
between Bayer’s FLANAX and Belmora’s FLANAX.
See Bayer Consumer Care AG v. Belmora LLC, 110
U.S.P.Q.2d 1623, 2014 WL 1679146, at *11–12 (T.T.A.B.
2014) (“I’m with Belmora LLC, we’re the direct producers of FLANAX in the US. FLANAX is a wellknown medical product in the Latino American market, for FLANAX is sold successfully in Mexico, Centre
[sic] and South America.” (emphasis in original) (citation and internal quotation marks omitted)). The
TTAB found that retail customers and consumers exposed to Belmora’s statements “would draw the logical
conclusion that [Belmora’s] U.S. product is licensed or
produced by the source of the same type of product sold
under the FLANAX brand for decades south of the border.” Id. at *12 (citations omitted).
Assuming these facts to be true, the Court notes
that Belmora applied to register the FLANAX mark
in 2003. Bayer asserts that it has been using the

139a
FLANAX mark in Mexico since the 1970’s. Bayer attempted to register FLANAX in the United States in
2004 but the PTO rejected the application based on
Belmora’s preexisting efforts to register the mark.
(Doc. 35 ¶¶ 32–36.) The PTO issued Belmora the registration for the FLANAX mark on February 1, 2005.
By registering the FLANAX mark and using it in
United States commerce, Belmora established priority
rights over the mark. Bayer, an entity that possesses a
foreign FLANAX mark but has never used that mark
in United States commerce, cannot usurp these rights.
In sum, the Court holds that the Lanham Act does
not permit Bayer, the owner of a foreign FLANAX
mark that is not registered in the United States and
further has never used the mark in United States
commerce, to assert priority rights over Belmora’s
FLANAX mark that is registered in the United States
and used in United States commerce. Though Belmora’s practices may seem unfair, the Lanham Act
“does not regulate all aspects of business morality.”
Selfway, Inc. v. Travelers Petroleum, Inc., 579 F.2d 75,
79 (C.C.P.A. 1978). Consequently, the TTAB’s decision
cancelling the registration of Belmora’s FLANAX
mark must be reversed.
Accordingly, it is hereby
ORDERED that Belmora LLC’s Motion to Dismiss
Bayer Consumer Care AG and Bayer Healthcare’s
Complaint (Doc. 36) is GRANTED; it is further
ORDERED that Belmora LLC’s Motion to Dismiss
Bayer CC AG’s Counterclaim (Doc. 45) is GRANTED

140a
and that the TTAB’s dismissal of Bayer’s Article 6bis
claim is AFFIRMED; it is further
ORDERED that Belmora’s Motion for Judgment
on the Pleadings (Doc. 55) is GRANTED and that the
TTAB’s holdings that (1) Bayer had standing to bring
a misrepresentation of source claim, and (2) that Belmora misrepresented the source of FLANAX under
Section 14(3) are REVERSED; and it is further
ORDERED that the TTAB’s April 17, 2014, decision cancelling the registration of Belmora’s FLANAX
mark, Registration No. 2924440, is REVERSED and
the mark is ORDERED to be reinstated.
IT IS SO ORDERED.
ENTERED this 6th day of February, 2015.
Alexandria, Virginia
2/6/2015
/s/
Gerald Bruce Lee
United States District Judge

141a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-----------------------------------------------------------------------

No. 18-2183 (L)
(1:14-cv-00847-CMH-JFA)
-----------------------------------------------------------------------

(Filed Mar. 16, 2021)
BELMORA LLC
Plaintiff – Appellee
v.
BAYER CONSUMER CARE AG, a Swiss Corporation;
BAYER HEALTHCARE LLC, a Delaware Limited
Liability Company
Defendants – Consolidated Plaintiffs –
Appellants
v.
BELMORA LLC, a Virginia Limited Liability
Company; JAMIE BELCASTRO, an individual;
Consolidated Defendants – Appellees
and
DOES, 1-10, inclusive
Consolidated Defendants
-------------------------------------UNITED STATES OF AMERICA
Amicus Supporting Appellant

142a
-----------------------------------------------------------------------

No. 18-2232
(1:14-cv-00847-CMH-JFA)
-----------------------------------------------------------------------

BELMORA LLC
Plaintiff – Appellant
v.
BAYER CONSUMER CARE AG, a Swiss Corporation;
BAYER HEALTHCARE LLC, a Delaware Limited
Liability Company
Defendants – Consolidated Plaintiffs –
Appellees
v.
BELMORA LLC, a Virginia Limited Liability
Company; JAMIE BELCASTRO, an individual
Consolidated Defendants – Appellants
and
DOES 1-10, inclusive
Consolidated Defendants
-----------------------------------------------------------------------

ORDER
-----------------------------------------------------------------------

The petition for rehearing en banc was circulated
to the full court. No judge requested a poll under Fed.

143a
R. App. P. 35. The court denies the petition for rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

144a
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 15-1335
(1:14-cv-00847-GBL-JFA)
(Filed May 23, 2016)
BELMORA LLC, Plaintiff-Appellee,
v.
BAYER CONSUMER CARE AG, a Swiss corporation;
Bayer Healthcare LLC, a Delaware Limited Liability
Company, Defendants-Consolidated Plaintiffs-Appellants,
v.
Belmora LLC, a Virginia Limited Liability Company;
Jamie Belcastro, an individual; Does, 1-10, inclusive,
Consolidated Defendants-Appellees,
and
Michelle K. Lee, Undersecretary for Intellectual Property and Director of the United States Patent and
Trademark Office (Director), Intervenor.
ORDER
The petition for rehearing en banc was circulated to
the full court. No judge requested a poll under Fed. R.

145a
App. P. 35. The court denies the petition for rehearing
en banc.
For the Court
/s/ Patricia S. Connor, Clerk

146a
APPENDIX G
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF VIRGINIA
Alexandria Division
)
)
Plaintiff,
)
) Consolidated No.
v.
)
1:14-cv-847
BAYER CONSUMER CARE AG )
CMH/JFA
and BAYER HEALTHCARE )
LLC,
)
Defendants-Consolidated
)
Plaintiffs,
)
)
v.
)
BELMORA, LLC, JAMIE
)
BELCASTRO, and DOES
)
1-10, inclusive,
)
Consolidated Defendants.
)
BELMORA LLC,

ORDER
(Filed Mar. 29, 2021)
This matter is before the Court on plaintiff ’s unopposed motion for entry of an order staying this action
while plaintiff petitions for a writ of certiorari. Upon
consideration whereof, for good cause shown, and there
being no opposition to the relief sought, it is hereby
ORDERED that the motion is GRANTED; and it
is further

147a
ORDERED that this action is STAYED pending
the disposition of plaintiff ’s petition for a writ of certiorari, and the parties are directed to advise the Court
forthwith once the petition has been acted upon.
ENTERED this 29th day of Mar.

2021.

Alexandria, Virginia
/s/ Claude M. Hilton
Hon. Claude M. Hilton
United States District Judge

148a
APPENDIX H
THIS OPINION IS A
PRECEDENT OF THE TTAB
Hearing:
October 23, 2013

Mailed:
April 17, 2014

UNITED STATES PATENT AND
TRADEMARK OFFICE
-----------------------------------------------------------------------

Trademark Trial and Appeal Board
-----------------------------------------------------------------------

Bayer Consumer Care AG
v.
Belmora LLC
-----------------------------------------------------------------------

Cancellation No. 92047741
-----------------------------------------------------------------------

Bradley L. Cohn, Phillip Barengolts, Alexis E.
Payne, Ian J. Block, Scott T. Lonardo, Seth I. Appel, and
Jeffrey A. Wakolbinger, Pattishall, McAuliffe, Newbury,
Hilliard & Geraldson LLP, for Bayer Consumer Care
AG.
Marsha G. Gentner, Philip L. O’Neill, and Leesa N.
Weiss, Jacobson Holman PLLC, for Belmora LLC.
-----------------------------------------------------------------------

Before Seeherman, Taylor, and Hightower, Administrative Trademark Judges. Opinion by Hightower,
Administrative Trademark Judge:

149a
Bayer Consumer Care AG petitions to cancel Belmora LLC’s registration for the mark FLANAX, in
standard characters, for “orally ingestible tablets of
Naproxen Sodium for use as an analgesic” in International Class 5.1 Petitioner alleges that the registered
mark is being used by the respondent to misrepresent
the source of the goods on or in connection with which
the mark is used pursuant to Section 14(3) of the
Trademark Act, 15 U.S.C. § 1064(3).
We grant the petition to cancel.
Summary of Proceeding
Petitioner filed a petition to cancel on June 29,
2007,2 asserting a likelihood of confusion. After respondent moved to dismiss for failure to state a claim
under FED. R. CIV. P. 12(b)(6), asserting that petitioner had not properly alleged standing or prior use
in the United States, petitioner amended its pleading
to allege that its mark FLANAX had been used in the
United States,3 and respondent’s motion to dismiss

Registration No. 2924440, issued February 1, 2005. A declaration of use pursuant to Section 8 of the Trademark Act, 15
U.S.C. § 1058, was accepted December 16, 2010.
2
This proceeding thus was not subject to the modified disclosure and conferencing regime applicable to inter partes proceedings commenced after November 1, 2007. See Trademark Trial
and Appeal Board Manual of Procedure (TBMP) § 401 (3d ed. rev.
2 June 2013).
3
As discussed infra, petitioner has not used the FLANAX
mark in the United States.
1

150a
was denied as moot.4 In addition to a Section 2(d)
claim, the amended petition also asserted as grounds
for cancellation that the registration violated Article 8
of the General Inter-American Convention for Trademark and Commercial Protection of Washington, 1929
(“Pan American Convention”), and Article V of the Convention for the Protection of Commercial, Industrial
and Agricultural Trademarks and Commercial Names
of Santiago, 1923 (“Santiago Convention”). In lieu of a
responsive pleading, respondent moved to dismiss the
amended petition, again alleging that petitioner failed
to state a claim and lacked standing. The Board
granted respondent’s motion to dismiss but allowed petitioner time to replead.5 Petitioner filed a second
amended pleading.
For a third time, respondent moved to dismiss the
amended petition for failure to state a claim pursuant
to FED. R. CIV. P. 12(b)(6). The Board granted the motion in part in the precedential decision Bayer Consumer Care AG v. Belmora LLC, 90 USPQ2d 1587
(TTAB 2009).6 The four claims in the second amended
petition, and their disposition, were as follows:
1. Likelihood of confusion under Section
2(d): Dismissed with prejudice for failure to
Board Order of September 26, 2007, 10 TTABVUE. Citations to the record include the TTABVUE number of the public
(and English-language) entry where available, and, where relevant, to the electronic page number where a cited document or
testimony appears.
5
Board Order of July 29, 2008, 17 TTABVUE.
6
Board Order of April 6, 2009, 25 TTABVUE.
4

151a
allege that goods bearing petitioner’s
FLANAX mark were manufactured or distributed in the United States prior to respondent’s filing date by petitioner or on its behalf.
Id. at 1591.
2. Violation of Article 6bis of the Paris Convention for the Protection of Industrial Property (“Paris Convention”), as made applicable
by Sections 44(b) and (h) of the Trademark
Act: Dismissed with prejudice. The Board
stated that Article 6bis does not afford an independent cause of action for parties in Board
proceedings, and that Trademark Act Section
44 does not “provide the user of an assertedly
famous foreign trademark with an independent basis for cancellation in a Board proceeding, absent use of the mark in the United
States.” Id.7
3. Misrepresentation of source under Section 14(3) of the Trademark Act: Motion to dismiss denied. The Board found that petitioner
had “alleged clearly and specifically that respondent copied petitioner’s mark, including
its particular display, and virtually all elements of its packaging, in order to ‘misrepresent to consumers, including especially
consumers
familiar
with
Petitioner’s
FLANAX mark,’ that respondent’s product is
Cf. Fiat Group Automobiles S.p.A. v. ISM Inc., 94 USPQ2d
1111, 1115 (TTAB 2010) (“We must, however, at least recognize
the possibility that, in an unusual case, activity outside the
United States related to a mark could potentially result in the
mark becoming well-known within the United States, even without any form of activity in the United States.”).
7

152a
from the same source as petitioner’s product.”
Id. at 1592. The claim was therefore sufficiently pled. Furthermore:
While respondent argues that petitioner
does not have “standing” to bring a misrepresentation of source claim given its
failure to allege use in the United States,
petitioner has alleged that it is damaged
by respondent’s use of strikingly similar
packaging “to misrepresent the source of
respondent’s goods. This is enough to sufficiently allege petitioner’s standing in
this proceeding. Although existing case
law does not address whether petitioner’s
alleged use is sufficient to support a claim
of misrepresentation of source, we find
that at a minimum the claim is pled sufficiently to allow petitioner to argue for
the extension of existing law. Moreover,
respondent’s focus solely on petitioner’s
extra-territorial use fails to take account
of the fact that respondent’s use is in the
United States and to the extent such use
may be misrepresenting to consumers
making purchases in the United States
that petitioner is the source of respondent’s products, the misrepresentation is
alleged by petitioner to be occurring in
the United States. The Lanham Act provides for the protection of consumers as
well as the property rights of mark owners.
Id.

153a
4. Fraud: Dismissed with prejudice. Because
petitioner did not sufficiently allege prior use
of its mark in the United States, it also did not
sufficiently allege that it had legal rights superior to respondent’s; therefore, petitioner’s
claim that respondent falsely declared that no
other person, firm, corporation, or association
had the right to use the FLANAX mark in
commerce was untenable. Id. at 1592-93.
Thus, after the Board’s order of April 6, 2009, petitioner’s only remaining claim was misrepresentation of
source pursuant to Trademark Act Section 14(3).
Respondent filed an answer denying petitioner’s
allegations and asserting several affirmative defenses
on June 5, 2009, then moved for summary judgment
three months later, asserting that petitioner lacked
standing and that respondent had not misrepresented
the source of its products as a matter of law. The Board
denied respondent’s motion for summary judgment on
petitioner’s standing and granted petitioner’s crossmotion for discovery pursuant to FED. R. CIV. P. 56(f ),
deferring consideration of respondent’s motion for
summary judgment on the merits.8 Respondent’s motion for summary judgment on the merits of petitioner’s misrepresentation of source claim was denied

Board Order of February 2, 2010, 43 TTABVUE. The rule
governing discovery in response to a summary judgment motion
is now found at FED. R. CIV. P. 56(d).
8

154a
on January 10, 2011, and the parties proceeded to
trial.9
The case is fully briefed, and an oral hearing was
held on October 23, 2013.
Evidence and Objections
Each party has moved to strike evidence proffered
by the other party. Because of the volume of objections,
we address only the objections to the evidence on which
the parties relied and that may be relevant to the claim
before us. We also discuss only in general terms the
portions of the record that the parties have submitted
under seal and have not disclosed in their public briefs.
A.

Respondent’s Motion to Strike Exhibits to
Petitioner’s Notice of Reliance10

Respondent moves to strike Exhibit B, Parts I and
II, to petitioner’s notice of reliance, i.e., excerpts from
the Dictionary of Pharmaceutical Specialties of Mexico
and advertisements for Petitioner’s FLANAX products
from printed publications circulated in Mexico on the
Board Order of January 10, 2011, 60 TTABVUE. Discussion of various other discovery and trial motions not before us on
final decision is omitted. Also, because respondent did not brief
its affirmative defenses as such at trial, they are deemed waived.
See, e.g., Miller v. Miller, 105 USPQ2d 1615, 1616 n.3 (TTAB
2013). However, to the extent they serve to amplify respondent’s
defense – including its assertion that petitioner lacks standing –
they have been considered.
10
90 and 97 TTABVUE; Corrected Appendix 1 to Respondent’s Brief, Exhibits A and B, 128 TTABVUE 7-21.
9

155a
basis that they were not shown to be in general circulation in the United States, and also that the advertisements were insufficiently identified and may be
made of record only through witness testimony.11 Respondent’s motion is denied. The documents are admissible by notice of reliance pursuant to Trademark Rule
2.122(e), 37 C.F.R. § 2.122(e), for petitioner’s stated
purpose of showing the FLANAX mark and packaging
in Mexico. In addition, the sources of the materials in
Exhibit B, Part II are sufficiently identified.
B. Petitioner’s Objections and Motion to Strike
Respondent’s Evidence12
1. Counter-Designations from Belcastro Deposition (Exhibit C to Respondent’s Amended Notice of Reliance)13
Petitioner objects to respondent’s proffered counter-designated excerpts from the discovery deposition
of respondent’s owner, Jamie Belcastro, on the ground
that respondent has failed to sufficiently explain why
it needs to rely on each additional excerpt. Respondent
does not address its 26 non-consecutive pages of counter-designations individually, but states that they “are
offered pursuant to Fed. R. Civ. P. 32(a)(6), which
80 TTABVUE 216-37 and 238-46.
115, 117, and 122 TTABVUE; Appendix to Petitioner’s
Brief, 125 TTABVUE; Appendix to Petitioner’s Reply Brief, 132
TTABVUE.
13
112 TTABVUE 87-124. Respondent also filed an amended
notice of reliance, without exhibits, on December 10, 2012. See
116 TTABVUE.
11
12

156a
allows an adverse party to offer other parts of a deposition that in fairness should be considered with the
parts already introduced,” to provide context to the
“snippets” of testimony designated by petitioner.14
Petitioner’s objection is governed by Trademark
Rule 2.120(j)(4):15
If only part of a discovery deposition is submitted and made part of the record by a party,
an adverse party may introduce under a notice of reliance any other part of the deposition which should in fairness be considered so
as to make not misleading what was offered
by the submitting party. A notice of reliance
filed by an adverse party must be supported by
a written statement explaining why the adverse party needs to rely upon each additional
part listed in the adverse party’s notice, failing
which the Board, in its discretion, may refuse
to consider the additional parts. (emphasis
added).
We agree with petitioner that respondent’s blanket statements fail to explain why respondent needs to
rely on each additional proffered excerpt. Nonetheless,
in our discretion, we have reviewed the excerpts and
find that each introduces new testimony rather than
makes the testimony designated by petitioner not
Respondent’s notice of reliance, 116 TTABVUE 4-6.
Inter partes proceedings before the Board are governed, in
part, by the Federal Rules of Civil Procedure, except as otherwise
provided in the Trademark Rules of Practice. Trademark Rule
2.116(a).
14
15

157a
misleading. We therefore grant petitioner’s motion to
strike Exhibit C to respondent’s notice of reliance.
2. Counter-Designations from Belcastro Declaration (Exhibit D to Respondent’s Corrected Amended
Notice of Reliance)16
Petitioner attempted to submit by notice of reliance portions of a declaration by respondent’s owner in
support of respondent’s motion for summary judgment,
arguing that these statements from Mr. Belcastro’s
declaration are admissible as statements by a partyopponent pursuant to FED. R. EVID. 801(d)(2). Declarations are not among the types of evidence admissible
by notice of reliance. Trademark Rule 2.122(e). Respondent, however, did not object on this basis, but rather submitted the entire declaration with all exhibits
as an exhibit to its own notice of reliance. Respondent
argues that petitioner effectively consented to submission of the full declaration into evidence; failing that,
respondent argues that the declaration is admissible
in the interests of justice under the “residual” hearsay
exception embodied in FED. R. EVID. 807(a).
Because both parties submitted (in whole or in
part) Mr. Belcastro’s declaration, we deem them to
have stipulated the declaration into the record, and we
hereby consider the entire declaration for whatever evidentiary value it may have and deny petitioner’s motion to strike respondent’s Exhibit D.

16

111 TTABVUE 9-67 (redacted).

158a
3. Testimony of Expert Witness Benjamin L.
England17
Petitioner objects to the testimony deposition of
Benjamin L. England, offered by respondent as an expert witness, because Mr. England was not timely disclosed and did not submit a written report. Although
this case predates the Board’s pretrial and expert witness disclosure requirements, petitioner’s Interrogatory No. 20 sought disclosure of any expert on whose
opinion respondent intended to rely pursuant to FED.
R. CIV. P. 26(a)(2)(A) and (B). Respondent responded
during discovery that it “has not yet identified any expert witness that it expects to call to testify on its behalf.”18
General discovery closed February 9, 2011. Respondent states that it “determined to elicit Mr. England’s testimony only after reviewing the record
following the close of Petitioner’s testimony period” in
response to petitioner’s decision not to introduce a paragraph of the Belcastro Declaration.19 However, petitioner’s testimony period closed on October 14, 2012,
and respondent did not identify Mr. England as a
119-21 TTABVUE.
Annex 1 to Petitioner’s Brief, 124 TTABVUE 55 (redacted).
It appears that respondent identified Mr. England in a supplemental answer to Interrogatory No. 20 in the text of an email to
petitioner on December 3, 2012, during respondent’s testimony
period. Appendix 1 to Respondent’s Brief, 127 TTABVUE 51.
19
Appendix 1 to Respondent’s Brief, respondent’s opposition
to petitioner’s objections to its evidence, at 1-2, 127 TTABVUE 34.
17
18

159a
potential witness until November 28, 2012, approximately halfway through its testimony period.20 Moreover, petitioner’s notice of reliance introducing portions
of the Belcastro Declaration was filed more than a year
before respondent identified Mr. England, on August
24, 2011. We also point out that, although respondent
states that it identified Mr. England “shortly after he
was engaged,” Mr. England testified that he was contacted during the first or second week of November
2012 and agreed to testify shortly thereafter, well before he was identified on November 28.21
We find that respondent’s failure to promptly
identify and disclose its expert witness and provide a
written report was neither substantially justified nor
harmless, and petitioner’s objection is sustained. We
therefore strike the England testimony due to untimely disclosure pursuant to FED. R. CIV. P. 37(c)(1).
See also Trademark Trial and Appeal Board Manual of
Procedure (TBMP) § 414(7) (2d ed. rev. 2004)22 (“A
party need not, in advance of trial, specify in detail the
evidence it intends to present, or identify the witnesses
it intends to call, except that the names of expert witnesses intended to be called are discoverable.”); TBMP
§ 414(7) & n.13 (3d ed. rev. 2 June 2013) (“For proceedings commenced prior to November 1, 2007, a party
need not, in advance of trial, identify the witnesses it
England Transcript at 33:22-34:25, 119 TTABVUE 36-37.
This was the operative edition of the TBMP at the time
this proceeding commenced.
22
This was the operative edition of the TBMP at the time
this proceeding commenced.
20
21

160a
intends to call, except that the names of expert witnesses intended to be called are discoverable.”). We
point out, however, that the entire Belcastro Declaration has been admitted into evidence, obviating respondent’s rationale for the England testimony.
4. Cross-Examination
Burgin23

Testimony

of

Pascal

We sustain petitioner’s objections to cross-examination questions six through 57 and Exhibits A
through E from the deposition on written questions of
petitioner’s witness Pascal Burgin, on the ground that
the cross-examination exceeded the scope of the direct
examination pursuant to FED. R. EVID. 611(b).
5. Exhibits G and H to Respondent’s Amended
Notice of Reliance24
Finally, for the sake of completeness, we note that
previous orders of the Board in the same proceeding
(including respondent’s Exhibit G) are automatically of
record. Also, because the document in Exhibit H – displaying respondent’s annotations to the operative
pleading – is not admissible by notice of reliance, we
grant petitioner’s motion to strike it.
We hasten to add that consideration of any of the
excluded evidence would not have affected the outcome.
109 TTABVUE 9-24 (testimony) and 133-84 (exhibits) (redacted).
24
112 TTABVUE 159-77.
23

161a
C.

Description of the Record

The file of the subject registration for FLANAX is
automatically of record. Trademark Rule 2.122(b). Pursuant to the evidentiary rulings supra, a summary of
the evidence made of record by the parties follows.
1. Petitioner’s Evidence
Petitioner introduced testimony depositions, with
exhibits, of the following six individuals:
•

Karla Fernandez Parker, president and CEO
of K. Fernandez & Associates, a Hispanic and
multicultural marketing and advertising
agency in San Antonio, Texas that did work
for respondent in 2007;25

•

Eduardo Gonzalez Machado, a former contractor for K. Fernandez & Associates who
performed work for respondent;26

•

Paul Currao, an account executive of packaging firm Disc Graphics, which produces cartons and labels for respondent;27

•

Lisa Halprin Fleisher, former global brand director for petitioner’s naproxen sodium
brands, including FLANAX and ALEVE;28

78 TTABVUE.
94 TTABVUE.
27
99 TTABVUE (Exhibit 29 filed under seal at 100
TTABVUE 54).
28
91 TTABVUE.
25
26

162a
•

Pascal Burgin, head of law and compliance for
petitioner, who was deposed on written questions;29 and

•

Juan Jose Bandera, marketing director for
Bayer de Mexico, S.A. de C.V.30

Petitioner submitted the following evidence by notice of reliance:
•

Publications showing the FLANAX mark and
packaging in Mexico;31

•

Printouts from the website of the Department
of Homeland Security showing data on numbers of Mexican immigrants to the United
States;32

•

Printouts from websites accessible in the
United States, including

•

YouTube.com and Google.com, showing petitioner’s FLANAX mark;33

•

Excerpts
books;34

•

Printouts from the Aleve.com website and
electronic records of the ALEVE trademark

from

pharmacology

reference

106 and 109 TTABVUE. Mr. Burgin’s business address is
in Basel, Switzerland.
30
92 TTABVUE (filed under seal).
31
Petitioner’s Exhibit B, 80 TTABVUE 216-46.
32
Exhibit C, 80 TTABVUE 247-75.
33
Petitioner’s Exhibit D, 80 TTABVUE 276 to 81 TTABVUE
69.
34
Exhibit E, 81 TTABVUE 70-151.
29

163a
registration from the U.S. Patent and Trademark Office database;35
•

A copy of petitioner’s second set of requests for
admission and respondent’s responses, admitting the authenticity of certain documents
produced by respondent in response to petitioner’s discovery requests and identified as
Exhibits 1 through 420;36

•

Printouts from the electronic records of the
U.S. Patent and Trademark Office showing:
○

the current status and title of respondent’s Registration No. 3094431 (DAYAMINERAL);37

○

the current status and title of respondent’s Registration No. 2712285 (GOYA),
and electronic records from the

Petitioner’s Exhibit F, 81 TTABVUE 152-65.
Exhibit G, 84 TTABVUE 127 through 88 TTABVUE 102
(redacted). It should be noted that, although documents produced
in response to document production requests generally cannot be
made of record by notice of reliance, see Trademark Rule
2.120(j)(3)(ii), serving requests for admission as to the authenticity of the documents on the producing party, and then submitting
those admissions by notice of reliance, is a proper way to make
the documents of record. See TBMP § 704.11(1). We further note
that the parties stipulated that these exhibits could be made of
record during each party’s testimony period by notice of reliance.
Although petitioner could make the documents of record pursuant
to Trademark Rule 2.120(j)(3)(i) without such a stipulation because they were respondent’s responses to petitioner’s requests
for admission, the stipulation also allowed respondent to submit
the responses/documents, even if petitioner had elected not to
submit them.
37
Exhibit H(1), 82 TTABVUE 14-46.
35
36

164a
Trademark Trial and Appeal Board concerning Goya Foods, Inc.’s petition to cancel that registration;38 and
○

the current status and title of respondent’s Registration No. 3243061 (ANADENT TODO DOLOR);39

•

A Spanish-language printout from GrupoTeramed.com relating to the analgesic ANADENT;40

•

Certain of respondent’s responses to petitioner’s interrogatories, requests for admission, and requests for production (the latter
indicating that no documents responsive to
those requests exist);41

•

Documents showing respondent’s FLANAX
mark on its goods, including printouts from
respondent’s current and former websites
(FlanaxUSA.com and ElMedicoFlanax.com,
respectively) and Facebook page42 and thirdparty
websites
showing
respondent’s
FLANAX products offered for sale;43

Exhibit H(3), 82 TTABVUE 55-99.
Exhibit H(4), 82 TTABVUE 100-43.
40
Exhibit H(5), 82 TTABVUE 144-45.
41
Exhibit “I,” 88 TTABVUE 235 to 89 TTABVUE 12 (filed
under seal).
42
Exhibit J, 82 TTABVUE 201-39.
43
Exhibit K, 82 TTABVUE 240-53.
38
39

165a
•

Excerpts from the discovery deposition of respondent’s owner Jamie Belcastro, with exhibits and errata sheet;44 and

•

Excerpts from a declaration of Mr. Belcastro
submitted with respondent’s reply in support
of its motion for summary judgment on August 10, 2010.45

Petitioner also filed a supplemental notice of reliance containing (1) a certified copy of the file for
Bayer’s Mexican Trademark Registration No. 224,435
for FLANAX, admissible as an official record under
Trademark Rule 2.122(e),46 and (2) printouts from the
website of Abbott Laboratories translated from Spanish to English identifying DAYAMINERAL as one of its
products offered for sale outside the United States in
the Dominican Republic and the Caribbean.47
2. Respondent’s Evidence
Respondent made the following evidence of record
by notice of reliance:

Exhibit L, 89 TTABVUE 76-173 (filed under seal; certain
exhibits also at 82 TTABVUE 254-74).
45
Exhibit M, 89 TTABVUE 174-90 (redacted), the admissibility of which is discussed supra.
46
Exhibit “O,” 96 TTABVUE 5-208 (previously submitted as
Exhibit A to petitioner’s notice of reliance).
47
Exhibit P, 96 TTABVUE 209-19.
44

166a
•

Certain of petitioner’s responses to respondent’s interrogatories and requests for admission;48

•

Declaration of Jamie Belcastro, with exhibits;49 and

•

U.S. Food and Drug Administration regulations regarding labeling of over-the-counter
drugs.50

Both parties also attempted to introduce samples
of packaging for respondent’s FLANAX products via
notice of reliance. Although product packaging is not
among the types of documents admissible by notice of
reliance under Trademark Rule 2.122(e), because both
parties treated such packaging as being of record, we
deem the parties to have stipulated it into the record.
We also note that examples of respondent’s original
and redesigned packaging are in evidence by other
means, including as exhibits to the Belcastro Deposition and the Belcastro Declaration.
Parties
Respondent Belmora LLC was formed in 2002 by
Virginia pharmacist Jamie Belcastro, its sole employee.51 Its original product, and the one at issue in
Exhibit A, 112 TTABVUE 10-61.
Respondent’s Exhibit D, 111 TTABVUE 9-67 (redacted),
the admissibility of which is discussed supra.
50
Respondent’s Exhibit F, 112 TTABVUE 152-58.
51
Exhibit L, Belcastro Transcript at 18, 89 TTABVUE 89;
Exhibit M, Belcastro Decl. ¶ 9, 89 TTABVUE 178.
48
49

167a
this case, is an analgesic tablet containing 220 mg. of
naproxen sodium sold over the counter. Respondent began offering this product under the mark FLANAX in
2003 or 2004.52 Mr. Belcastro states in part that:
Belmora’s business model is to provide a userfriendly menu of OTC drug products for common ailments to U.S. residents of Hispanic
background. When I refer to Hispanics, I
mean persons in the U.S. whose personal or
family backgrounds involve either a Spanishspeaking culture or a Spanish-speaking country.53
According to Mr. Belcastro, there are more than 48
million Hispanics in the United States, constituting
the country’s largest and most rapidly growing minority ethnic group.54 Respondent’s packaging is bilingual,
in Spanish and English, and its original website
ElMedicoFlanax.com was in Spanish.55
The evidence in the trial record does not permit us to make
a finding as to the date of first sale. Respondent’s FLANAX Registration, No. 2924440, identifies the date of first use as on or before March 1, 2004. Some evidence, designated confidential,
indicates that marketing began in 2003, while there is other evidence that sales started in “mid-2004.” See also Respondent’s
Brief, 126 TTABVUE at 5 (first use in commerce was on or before
March 1, 2004), 9 (respondent commenced use of the mark on
March 1, 2004); but see id. at 4, 24, 25 (indicating that marketing
and sales began in mid-2004).
53
Exhibit M, Belcastro Decl. ¶ 10, 89 TTABVUE 179.
54
Id. at ¶ 12, 89 TTABVUE 180.
55
See Exhibit L, Belcastro Transcript at 21-22, 89 TTABVUE
90-91; id., deposition exhibit 5, 82 TTABVUE 262-66; 82
TTABVUE 206-34 (website printouts).
52

168a
Petitioner Bayer Consumer Care AG owns a Mexican registration for the trademark FLANAX for
pharmaceutical products, analgesics and antiinflammatories.56 The registration issued to a company
named Syntex in 1978 and was renewed November 9,
2003.57 Syntex was purchased by Hoffman-la Roche AG
in 1994, and petitioner took over OTC businesses from
Roche in 2005.58 The FLANAX registration was assigned from Syntex to petitioner in September 2005.59
FLANAX brand analgesic has been sold in Mexico
since 1976.60 Bayer de Mexico, S.A. de C.V., distributes
FLANAX products in Mexico via a licensing agreement
with petitioner.61 Sales and advertising figures are
designated confidential, but petitioner presented evidence that FLANAX is the top-selling pain reliever in
Mexico and the number one brand for Bayer de Mexico.62 Although the dosages differ from respondent’s
FLANAX analgesic, petitioner’s Mexican FLANAX
contains the same active ingredient: naproxen sodium.

Burgin Transcript ¶ 9 and Trial Exhibit 23, 106
TTABVUE 7, 31; see also Exhibit O, 96 TTABVUE 5-208.
57
Burgin Transcript, Trial Exhibit 23, 106 TTABVUE 38-39.
58
Id., ¶¶ 10-11, 106 TTABVUE 7.
59
Id., Trial Exhibit 23, 106 TTABVUE 41, 45.
60
Bandera Transcript 8:8-9:3, 92 TTABVUE 12-13. Respondent’s objections to this answer as hearsay and lacking foundation are denied.
61
Burgin Transcript ¶¶ 13, 19, 106 TTABVUE 7-8.
62
Bandera Transcript 12:19-15:9, 92 TTABVUE 16-19; see
also Petitioner’s Brief at 7.
56

169a
Petitioner’s FLANAX analgesic is not sold in the
United States. However, an affiliate of petitioner,
Bayer Healthcare LLC, sells a naproxen sodium-based
analgesic in the United States under the brand name
ALEVE.63 The same employee of Bayer Healthcare,
based in Morristown, New Jersey, was, until eight days
before her deposition, global brand director for both
the ALEVE product and the FLANAX product in Mexico.64
Analysis
Section 14 of the Trademark Act allows for cancellation of a registration on the Principal Register “by
any person who believes that he is or will be damaged
. . . by the registration.” 15 U.S.C. § 1064. The party
seeking cancellation must prove two elements: (1) that
it has standing, and (2) that there are valid grounds for
canceling the registration. Cunningham v. Laser Golf
Corp., 222 F.3d 943, 55 USPQ2d 1842, 1844 (Fed. Cir.
2000).
A. Petitioner’s Standing
The Federal Circuit has enunciated a liberal
threshold for determining standing. Alcatraz Media
Inc. v. Chesapeake Marine Tours Inc., 107 USPQ2d
1750, 1760 (TTAB 2013). To establish standing,
See Petitioner’s Brief at 9, 125 TTABVUE 14; Fleisher
Transcript 4:15-5:23, 91 TTABVUE 7-8; Exhibit F, 81 TTABVUE
152-65.
64
Fleisher Transcript 7:25-8:24, 91 TTABVUE 11-12.
63

170a
petitioner must prove that it has a “real interest” in
this cancellation proceeding and a “reasonable basis”
for its belief in damage. To prove a “real interest” in
this case, petitioner must show that it has a "direct and
personal stake” in the outcome herein and is more than
a “mere intermeddler.” See Ritchie v. Simpson, 170 F.3d
1092, 50 USPQ2d 1023, 1026-27 (Fed. Cir. 1999).
Respondent has contested petitioner’s standing at
every stage of this proceeding, including trial. In its
brief, respondent makes several arguments why petitioner allegedly lacks standing to bring this proceeding, grounded in the fact that petitioner does not own
a registration for the mark FLANAX in the United
States, has not used that mark in this country, and
does not plan to use the mark here. Respondent argues
that “[g]oodwill exists only in connection with actual
commercial use, and Petitioner admits that it does not
conduct business in or earn profits from sales in the
U.S.”65 Respondent contends that:
In short, the parties’ respective uses of the
mark are two ships passing in the night: an
international border completely walls off their
respective spheres of economic activity, and
neither party has any motive or intention to
sell its product on both sides of that border.
Thus, the territorial principle of U.S. trademark law is dispositive of standing: “Trademark rights under the Lanham Act arise
solely out of use of the mark in U.S. commerce.” Person’s Co. v. Christman, 900 F.2d
65

Respondent’s Brief at 15, 126 TTABVUE 23.

171a
1565, 1570, [14 USPQ2d 1477] (Fed. Cir. 1990)
(citations omitted).66
Petitioner, in turn, argues that Section 14 of the Trademark Act imposes no use requirement, distinguishing
it (and other provisions of the Trademark Act) from
Section 2(d).67
As we noted in both Bayer Consumer Care AG, 90
USPQ2d at 1592, and the Board’s Order of February 2,
2010, respondent’s focus solely on petitioner’s commercial activities within the United States overlooks the
fact that respondent’s own use is in the United States.
Petitioner has established that it owns a registration
for the mark FLANAX for pain relievers in Mexico and
licenses its corporate affiliate to sell pain relievers containing the active ingredient naproxen sodium under
that mark in Mexico. The registration petitioner seeks
to cancel is for the identical mark for identical goods,
namely, “Orally ingestible tablets of Naproxen Sodium
for use as an analgesic.” Thus, in terms of standing, petitioner has shown that it has an interest in protecting
its Mexican FLANAX mark. If respondent is using the
FLANAX mark in the United States to misrepresent
to U.S. consumers the source of respondent’s products
as petitioner’s Mexican products, it is petitioner who
loses the ability to control its reputation and thus suffers damage. As we will explore in the next section, the
record in this case clearly establishes that the reputation of the Mexican FLANAX mark does not stop at the
66
67

Id.
Petitioner’s Reply Brief at 8, 132 TTABVUE 11.

172a
Mexican border.68 Cf. Steele v. Bulova Watch Co., 344
U.S. 280, 95 USPQ 391, 394 (1952) (stating that infringing goods bearing the BULOVA mark made in
Mexico “could well reflect adversely on Bulova Watch
Company’s trade reputation in markets cultivated by
advertising here as well as abroad”).
Petitioner therefore is no mere intermeddler, but
has a real interest in this proceeding and a reasonable
basis for its belief that it is or will be damaged by the
registration. Thus, it has satisfied the relatively low
threshold to establish its standing. See Cunningham,
55 USPQ2d at 1844.
B. Misrepresentation of Source
A party may, pursuant to Section 14(3) of the
Trademark Act, petition to cancel a registration of a
mark if the mark “is being used by, or with the permission of, the respondent so as to misrepresent the source
of the goods or services on or in connection with which
the mark is used.” The term “misrepresentation of
source,” as used in Section 14(3), “refers to situations
where it is deliberately misrepresented by or with the
consent of the respondent that goods and/or services
originate from a manufacturer or other entity when in
fact those goods and/or services originate from another
This case is thus distinguishable from Person’s Co., 14
USPQ2d 1477, on which respondent relies. In that case, the Japanese mark PERSON’S was neither used nor known in the United
States: “The Person’s Co. had no goodwill in the United States
and the ‘PERSON’S’ mark had no reputation here.” Id. at 1480.
68

173a
party.” Osterreichischer Molkerei-und Kasereiverband
Registriete GmbH v. Marks & Spencer Ltd., 203 USPQ
793, 794 (TTAB 1979); see also Global Maschinen
GmbH v. Global Banking Sys., Inc., 227 USPQ 862, 864
n.3 (TTAB 1985).
In order to prevail, petitioner must show that respondent took steps to deliberately pass off its goods as
those of petitioner. That is, petitioner must establish
“blatant misuse of the mark by respondent in a manner calculated to trade on the goodwill and reputation
of petitioner.” Otto Int’l Inc. v. Otto Kern GmbH, 83
USPQ2d 1861, 1863 (TTAB 2007). See generally 3 J.
THOMAS MCCARTHY, MCCARTHY ON TRADEMARKS & UNFAIR COMPETITION § 20:60 (4th ed.
2014); Theodore H. Davis, Jr., Cancellation under Section 14(3) for Registrant Misrepresentation of Source,
85 TRADEMARK REP. 67 (Jan.-Feb. 1995). Thus, in reviewing the record, we look for evidence reflecting respondent’s deliberate misrepresentation of the source
of its product, “blatant misuse” of the mark, or conduct
amounting to the deliberate passing-off of respondent’s
goods. Willful use of a confusingly similar mark is insufficient. McDonnell Douglas Corp. v. Nat’l Data
Corp., 228 USPQ 45, 47 (TTAB 1985).
Although the facts before us present a matter of
first impression, they do not present a close case. The
preponderance of the evidence before us readily establishes blatant misuse of the FLANAX mark in a manner calculated to trade in the United States on the
reputation and goodwill of petitioner’s mark created by
its use in Mexico.

174a
First, we find that respondent was aware that the
FLANAX trademark was in use in Mexico in association with naproxen sodium-based analgesics when it
adopted the FLANAX mark in the United States. Although most of the facts and arguments on which this
finding is based are designated as confidential by respondent, the evidence establishes that Mr. Belcastro
asked a graphic designer to create the following document just two months before his discovery deposition
on August 18, 2009 – when respondent had been using
the FLANAX mark for more than five years – and testified untruthfully about its genesis and role in his
adoption of the mark:69

Exhibit L, Belcastro Transcript Exhibit 4, 82 TTABVUE
261. Mr. Belcastro attempted to significantly alter some of the
statements in his six-page errata sheet. Such material changes
are impermissible in a testimony deposition before the Board.
TBMP § 701.03(n). This, however, was a discovery deposition. Although some courts do not allow witnesses to change their transcripts under FED. R. M. P. 30(e) to directly contradict their
examination testimony on material matters, others do, preferably
with the original answers remaining in the record. See 8A Charles
Alan Wright et al., Fed. Prac. & Proc. Civ. § 2118 (3d ed. April
2013). Assuming without deciding that we would allow substantive changes to a discovery deposition transcript, we find Mr.
Belcastro’s explanations of these misstatements in the errata so
lacking in credibility that they only serve to strengthen the conclusion that his discovery deposition testimony was untruthful.
69

175a

In relevant part, Mr. Belcastro’s email instructions to
the graphic designer on June 17, 2009 were as follows:70
Subject:

Urgent Request

Hi Dan,
I am giving a presentation on Tuesday and I
need a piece of artwork as follows. One pdf file
that shows the current Flanax word as it appears in our packaging on the bottom of the
file and show it evolving into the word Further Lasting Analgesia Naproxen on the top of
the pdf file. Stick with our normal blues and
whites and fonts. Don’t put your identifiers on
the file since I am using it in a presentation.
So it should be something like this:
70

Exhibit L, 82 TTABVUE 274.

176a
Further Lasting Anatgesia Naproxen
FLANAP
FLANCXEN
FLANXEN
FLANAX
Just show derivatives of the word Flanax from
the slogan on the top so it covers a normal
page in a pdf file and show different formats
and fonts with each derivate.
Please contact me on my cell if you have questions.
Sincerely,
Jamie Belcastro
Beimora LLC
Based on this fabricated evidence and additional facts
and argument designated as confidential, we find
that respondent knowingly selected the identical mark
FLANAX, used by petitioner’s Mexican licensee on
naproxen sodium-based painkillers, for use in the
United States on the same type of goods.
Second, the evidence establishes that respondent’s
initial packaging copied petitioner’s FLANAX logo as
used in Mexico (demonstrated supra and infra, with
white letters progressing from thick to thin) and other
elements of petitioner’s Mexican packaging. These
include very similar (if not identical) shades of sky
blue and blue-and-white striping along the bottom,

177a
approximately as follows, with petitioner’s packaging
on the left and respondent’s on the right:

Respondent’s packaging changed in 2008,71 but continued to use the FLANAX mark in the same manner, as
shown below:

Respondent’s
TTABVUE 53.
71

Exhibit

D,

Belcastro

Decl.

¶ 7,

111

178a

Respondent thus adopted petitioner’s identical sourceidentifying mark and logo, and a highly similar package design.
Third, perhaps the most important and telling fact
that distinguishes this case from a Section 2(d) claim,
the evidence shows that respondent’s owner and
agents repeatedly invoked the reputation of petitioner’s FLANAX mark when marketing respondent’s
FLANAX product in the United States. Although
nearly all of this evidence was filed under seal, the following three examples filed publicly on the TTABVUE
website are representative:
•

A brochure in both English and Spanish, with a
bullet point titled “Increase Your Profits” that
states: “For generations, Flanax has been a brand
that Latinos have turned to for various common
ailments. Now you too can profit from this highly
recognized top-selling brand among Latinos.
Flanax is now made in the U.S. and continues to
show record sales growth everywhere it is sold.

179a
Flanax acts as a powerful attraction for Latinos by
providing them with products they know, trust
and prefer.”72
•

A telemarketing script prepared by Mr. Belcastro
stating in part: “I’m with Belmora LLC, we’re the
direct producers of FLANAX in the US. FLANAX
is a very well known medical product in the Latino
American market, for FLANAX is sold successfully in Mexico, Centre [sic] and South America.”73

•

A “sell sheet” often used to solicit orders from retailers, stating in part: “Flanax products have
been used from [sic] many, many years in Mexico,
Central and South America. Flanax products are
now being produced in the United States by Belmora LLC.”74

While respondent argues that these statements
are true, we have no doubt that retail customers and
consumers exposed to them would draw the logical
conclusion that respondent’s U.S. product is licensed or
produced by the source of the same type of product sold
under the FLANAX brand for decades south of the border. Cf. West Fla. Seafood Inc. v. Jet Rests. Inc., 31 F.3d
1122, 31 USPQ2d 1660, 1663 (Fed. Cir. 1994) (stating,
with respect to establishing prior use, that evidence
should be considered as a whole, “as if each piece of
evidence were part of a puzzle”); All England Lawn
Exhibit L, Exhibits 23 and 24 to Belcastro Transcript, 82
TTABVUE 269-70. Although the text of this exhibit appears to
contain no references to respondent, other versions (filed under
seal) do, including to “Belmora, LLC Proud Makers of Flanax.”
73
Exhibit M, Belcastro Declaration ¶ 30, 82 TTABVUE 285.
74
See id., Belcastro Declaration ¶ 33, 82 TTABVUE 286.
72

180a
Tennis Club (Wimbledon) Ltd. v. Creations Aromatiques, Inc., 220 USPQ 1069, 1072 (TTAB 1983) (sustaining Section 2(d) refusal for the following composite
mark:

concluding that “purchasers of applicant’s cologne
would incorrectly believe that said product was approved by or otherwise associated with the Wimbledon
tennis championships”). Nor do we have any doubt
based on the record that respondent deliberately and
intentionally encouraged its customers to reach such a
conclusion. These documents thus operate as an admission by respondent that petitioner’s mark FLANAX
is known among the U.S. retailers and Hispanic consumers to whom respondent markets its products.
With their repeated references to the “brand” Flanax,
these documents also undercut respondent’s argument
that FLANAX is generic for naproxen sodium in Mexico,75 as too does petitioner’s Mexican trademark registration.
See argument in Respondent’s Brief at 26, 126 TTABVUE
34: “Flanax” in this context is like “aspirin” (which started out as
a trademark) or ibuprofen – it identifies for those who previously
75

181a
Respondent’s statements are consistent with the
observations of Eduardo Gonzalez Machado, a contractor with the K. Fernandez & Associates advertising
agency who researched opinions of distributors on respondent’s behalf in 2007. Mr. Gonzalez Machado testified that the distributors he interviewed were
familiar with petitioner’s FLANAX brand and aware of
its popularity in Mexico.76 When queried on cross-examination whether any distributors asked him “Who’s
Belmora?” Mr. Gonzalez Machado testified: “I don’t
remember getting a question. I think that the – what
immediately made the connection was the word
Flanax.”77 In fact, one of his questions for the distributors was: “When you visit a new store owner, are they
familiar with the brand and with how popular the
brand is in Mexico?”78 As Mr. Gonzalez Machado testified:
A. And I also remember saying to myself what a
very interesting situation [respondent]has, because
apparently this is [a] fantastic product and to get the
– to be able to sell this in the United States for the
Hispanic market.
You have to remember right now we’re 50,000,000
people in the United States Hispanics, and 60 percent
may have been exposed to it outside the U.S., a type of pain relief
product as distinct from other types of analgesics.
76
See Gonzalez Machado Transcript 33:5-17, 36:12-24 and
Exhibits 9-11, 94 TTABVUE 36, 39, 116-20.
77
Gonzalez Machado Transcript 73:7-14, 94 TTABVUE 76.
78
Trial Exhibit 10 to Gonzalez Machado Transcript, 94
TTABVUE 118.

182a
– over 60 percent of those are from Mexico. Mexican
descent. So the potential is huge for any product that
relates to Mexico [ ] and that is known by Mexicans.79
Respondent argues that because it did not use the
name “Bayer” on its packaging or in its marketing efforts, and because its own name “Belmora” was present
on its packaging and used in its marketing, it could not
have misrepresented the source of its products. We disagree. In denying respondent’s motion for summary
judgment, the Board found that there was a genuine
issue of material fact as to whether respondent’s selfidentification on its packaging was sufficient to defeat
petitioner’s misrepresentation of source claim, explaining:
Indeed, in applying other sections of the Act,
even where there are clear disclaimers of
nonaffiliation, courts often find that confusion
or deception is nevertheless likely. See, e.g.,
Audi AG v. D’Amato, 469 F.3d 534, 81 USPQ2d
1108, 1116 (6th Cir. 2006); Novartis Consumer
Health, Inc. v. Johnson & Johnson-Merck Consumer Pharms. Co., 290 F.3d 578, 62 USPQ2d
1757, 1770 (3d Cir. 2002); Charles of the Ritz
Group Ltd. v. Quality King Distribs., Inc., 832
F.2d 1317, 4 USPQ2d 1778, 1784 (2d Cir.
1987); University of Georgia Athletic Ass’n v.
Laite, 756 F.2d 1535, 225 USPQ 1122, 1131
(11th Cir. 1985). Here, of course, and by contrast, there is only a self-identification in relatively small print, without any disclaimer of
affiliation with petitioner, and respondent
79

Gonzalez Machado Transcript 17:9-20, 94 TTABVUE 20.

183a
cites no authority for the proposition that selfidentification alone is necessarily sufficient to
defeat a misrepresentation of source claim in
circumstances such as these.80
“The function of a trademark is to identify a single,
albeit anonymous, source of commercial sponsorship of
the goods to which it pertains.” Johnson & Johnson v.
E. I. du Pont de Nemours & Co., 181 USPQ 790, 791
(TTAB 1974). Respondent therefore need not use the
Bayer name to affirmatively misrepresent the source
of its FLANAX-brand products. Respondent purposely
achieved the same result by not only copying petitioner’s mark and logo – and, for several years, significant aspects of its packaging – but also by repeatedly
holding itself out as the source in the United States of
the product sold for decades under the same mark in
the bordering country of Mexico. We find that respondent’s specific acts and conduct were “aimed at deceiving the public into thinking that [respondent’s] goods
actually emanate from petitioner.” Otto Int’l Inc., 83
USPQ2d at 1864.81
80

7.

Board Order of January 10, 2011, at 7 n.3, 60 TTABVUE

We further note that courts have found that, in certain circumstances, use of a defendant’s own name or mark can lead consumers to believe that the defendant is either the successor to or
the licensee of the senior mark owner. See Jacobs v. Beecham, 221
U.S. 263, 272 (1911) (Holmes, J.) (“The statement that the defendant makes [the pills defendant sells using plaintiff ’s name] does
not save the fraud. That is not what the public would notice or is
intended to notice, and, if it did, its natural interpretation would
be that the defendant had bought the original bus [i]ness out and
was carrying it on. It would be unfair, even if we could assume,
81

184a
We have carefully considered all of respondent’s
arguments and specifically address two others. First,
respondent contends that petitioner’s claim of misrepresentation was “stale” because respondent changed
its packaging shortly before petitioner amended its petition for cancellation to add a misrepresentation of
source claim, and also because its marketing is now
handled by a third-party distributor. Respondent cites
no case law in support of its staleness argument.
BLACK’S LAW DICTIONARY (9th ed. 2009) defines a
“stale claim” as: “A claim that is barred by the statute
of limitations or the defense of laches.” The facts of this
case do not fall under that definition; neither is at issue
here. In addition, we agree with petitioner that because its misrepresentation claim arises from the same
conduct as its earlier claim under Section 2(d), respondent had adequate notice of petitioner’s objection
to its conduct, and the misrepresentation claim relates
back to the date of the original pleading, citing KorodyColyer Corp. v. Gen. Motors Corp., 828 F.2d 1572, 4
USPQ2d 1203, 1205 (Fed. Cir. 1987). In any event, we
as we cannot, that the defendant uses the plaintiffs formula for
his pills.”); A.T. Cross Co. v. Jonathan Bradley Pens, Inc., 470
F.2d 689, 176 USPQ 15, 17 (2d Cir. 1972) (Friendly, J.) (noting
that use of trade name or house mark on box “does not save the
day; a purchaser could well think plaintiff had licensed defendant
as a second user and the addition is thus ‘an aggravation, and not
a justification’ ” (quoting Menendez v. Holt, 128 U.S. 514, 521
(1888))). We think customers could draw the same conclusions
here, and note in particular that respondent’s marketing material
clearly contemplates, and seeks to capitalize on, its targeted consumers’ familiarity with and recognition of petitioner’s wellknown brand in Mexico.

185a
do not view respondent’s continued use of the copied
packaging as essential to petitioner’s misrepresentation claim. For at least four years, respondent marketed its product in a similar package while
deliberately misrepresenting its analgesic as the U.S.
version of petitioner’s foreign FLANAX product. Respondent built its business on this heritage of misrepresentation, and petitioner suffers damage today due
to respondent’s continued use of the identical FLANAX
mark on the same type of product, even though its
packaging and marketing may have changed.
Finally, respondent argues that its marketing efforts to link its FLANAX product to petitioner’s
FLANAX product continued only for a limited number
of years: “To be sure, in the beginning limited efforts
were made to market to native Spanish speaking U.S.
consumers who might have been exposed to ‘Flanax’ in
Mexico.”82 Yet the evidence does not support a finding
that respondent’s misleading marketing was limited or
short-lived. The trial record includes numerous instances of respondent’s founder, Mr. Belcastro, as well
as his agents, deliberately invoking the reputation of
petitioner’s foreign product to sell his own goods domestically under the same mark during the 2006-2009
time frame. The record contains insufficient evidence
from which we could conclude that respondent did not
make such misrepresentations in its marketing before
or after these years.83 Even if respondent did not, its
Respondent’s Brief at 26, 126 TTABVUE 34.
In 2007, after this proceeding was filed, Mr. Belcastro donated the computer used in his business to charity, and therefore
82
83

186a
continued use of the FLANAX mark, coupled with its
earlier deceptive marketing over several years as it
built its business, constitutes misrepresentation of the
source of respondent’s goods within the meaning of
Section 14(3).
Conclusion
Pursuant to Section 14(3) of the Trademark Act,
we find that respondent is using the mark FLANAX so
as to misrepresent the source of the goods on which the
mark is used.
Decision: The petition to cancel is granted. Registration No. 2924440 will be cancelled in due course.

petitioner was prevented from obtaining any requested documents that resided only on that computer. See Board Order of
February 16, 2010 at 4 n.3, 45 TTABVUE 5 (noting that respondent does not dispute that, “after petitioner initiated this proceeding, Mr. Belcastro donated an old computer containing relevant
information to charity and deleted certain apparently relevant
e-mails”)

